<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-100]
[From the U.S. Government Publishing Office]



                                                 S. Hrg. 110-100, Pt. 1
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1390

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2010 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 1

U.S. SOUTHERN COMMAND, U.S. NORTHERN COMMAND, U.S. AFRICA COMMAND, AND 
                      U.S. TRANSPORTATION COMMAND
  U.S. PACIFIC COMMAND, U.S. STRATEGIC COMMAND, AND U.S. FORCES KOREA
          U.S. EUROPEAN COMMAND AND U.S. JOINT FORCES COMMAND
                            MILITARY POSTURE
                         DEPARTMENT OF THE ARMY
                      DEPARTMENT OF THE AIR FORCE
                         DEPARTMENT OF THE NAVY
                   BALLISTIC MISSILE DEFENSE PROGRAMS

                               __________

           MARCH 17, 19, 24; MAY 14, 19, 21; JUNE 4, 16, 2009


         Printed for the use of the Committee on Armed Services




                  U.S. GOVERNMENT PRINTING OFFICE
52-620                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
United States Southern Command, United States Northern Command, United 
    States Africa Command, and United States Transportation Command
                             march 17, 2009

                                                                   Page

Stavridis, Admiral James G., USN, Commander, United States 
  Southern Command...............................................     5
Renuart, General Victor E. Jr., USAF, Commander, United States 
  Northern Command/Commander, North American Aerospace Defense 
  Command........................................................    16
Ward, General William E., USA, Commander, United States Africa 
  Command........................................................    29
McNabb, General Duncan J., USAF, Commander, United States 
  Transportation Command.........................................    47

  United States Pacific Command, United States Strategic Command, and 
                       United States Forces Korea
                             march 19, 2009

Keating, Admiral Timothy J., USN, Commander, U.S. Pacific Command   116
Chilton, General Kevin P., USAF, Commander, United States 
  Strategic Command..............................................   133
Sharp, General Walter L., USA, Commander, United Nations Command; 
  Commander, Republic of Korea-United States Combined Forces 
  Command; and Commander, United States Forces Korea.............   142

 United States European Command and United States Joint Forces Command
                             march 24, 2009

Craddock, General Bantz J., USA, Commander, United States 
  European Command/North Atlantic Treaty Organization Supreme 
  Allied Commander Europe........................................   218
Mattis, General James N., USMC, Commander, United States Joint 
  Forces Command/North Atlantic Treaty Organization Supreme 
  Allied Commander Transformation................................   249

                            Military Posture
                              May 14, 2009

Gates, Honorable Robert M., Secretary of Defense; accompanied by 
  Robert F. Hale, Under Secretary of Defense (Comptroller).......   323
Mullen, Admiral Michael G., USN, Chairman, Joint Chiefs of Staff.   332

                         Department of the Army
                              may 19, 2009

Geren, Honorable Preston M. ``Pete'', III, Secretary of the Army.   429
Casey, General George W., Jr., USA, Chief of Staff of the Army...   452

                      Department of the Air Force
                              may 21, 2009

Donley, Honorable Michael B., Secretary of the Air Force.........   508
Schwartz, General Norton A., USAF, Chief of Staff................   517

                         Department of the Navy
                              june 4, 2009

Mabus, Honorable Raymond E., Jr., Secretary of the Navy..........   581
Roughead, Admiral Gary, USN, Chief of Naval Operations...........   585
Conway, General James T., USMC, Commandant of the Marine Corps...   599

                   Ballistic Missile Defense Programs
                             june 16, 2009

Lynn, Honorable William J., Deputy Secretary of Defense, 
  Department of Defense..........................................   694
Cartwright, General James E., USMC, Vice Chairman, Joint Chiefs 
  of Staff.......................................................   699
O'Reilly, Lieutenant General Patrick J., USA, Director, Missile 
  Defense Agency.................................................   700


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

                              ----------                              


                        TUESDAY, MARCH 17, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

UNITED STATES SOUTHERN COMMAND, UNITED STATES NORTHERN COMMAND, UNITED 
    STATES AFRICA COMMAND, AND UNITED STATES TRANSPORTATION COMMAND

    The committee met, pursuant to notice, at 10:02 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, E. Benjamin Nelson, Webb, McCaskill, Hagan, 
Begich, Burris, McCain, Inhofe, Sessions, Chambliss, Thune, 
Martinez, Wicker, Burr, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Michael J. Kuiken, professional staff member; Thomas K. 
McConnell, professional staff member; Michael J. Noblet, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Richard H. Fontaine, Jr., deputy Republican 
staff director; Daniel A. Lerner, professional staff member; 
David M. Morriss, minority counsel; Lucian L. Niemeyer, 
professional staff member; Christopher J. Paul, professional 
staff member; and Dana W. White, professional staff member.
    Staff assistants present: Kevin A. Cronin, Christine G. 
Lang, and Brian F. Sebold.
    Committee members' assistants present: Jay Maroney and 
Sharon L. Waxman, assistants to Senator Kennedy; Elizabeth 
King, assistant to Reed; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Julie 
Hotzhuefer, assistant to Senator Hagan; Brady King, assistant 
to Senator Burris; Anthony J. Lazarski, assistant to Senator 
Inhofe; Sandra Luff, assistant to Senator Sessions; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Jason Van Beek, 
assistant to Senator Thune; Brian W. Walsh and Erskine W. Wells 
III, assistants to Senator Martinez; and Kevin Kane, assistant 
to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today we have 
before our committee four of our combatant commanders for our 
annual posture review to discuss the issues and challenges 
confronting each of them. We welcome our witnesses today. 
Admiral Jim Stavridis is the Commander of the U.S. Southern 
Command (SOUTHCOM), and General Gene Renuart, the Commander of 
the U.S. Northern Command (NORTHCOM) and North American 
Aerospace Defense Command (NORAD). We're joined also, of 
course, by General Kip Ward, Commander of the U.S. Africa 
Command (AFRICOM), and General Duncan McNabb, Commander of the 
U.S. Transportation Command (TRANSCOM).
    Let me first express on behalf of our entire committee our 
gratitude for your service and for the service of the men and 
women that you lead. I hope, and I know all of us feel the same 
way, that you will express to them our enormous respect and 
appreciation for their dedication to our Nation and for the 
many sacrifices that they are willing to make on behalf of 
their fellow citizens.
    The issues before the committee this morning run the gamut 
from transportation and supply routes to support U.S. and North 
Atlantic Treaty Organization (NATO) forces in Afghanistan and 
around the world, to the threat posed by narcotics trade within 
our hemisphere, to the defense of our homeland, to how to best 
engage nations in Africa as they confront threats from non-
state actors and the regional implications of failed or failing 
states.
    Admiral Stavridis, the challenges that we face in our own 
hemisphere are complex. The drug trade in South and Central 
America is booming and the violence associated with the drug 
trade is migrating northward. President Chavez continues to 
work to undermine U.S. interests in the region and to do 
everything possible to maintain his own power. Yet we continue 
to rely on his country for much of our Nation's petroleum. 
We're also confronted with Iran's nascent and growing interest 
in the region.
    Your command has also seen gains over the past few years. 
Plan Colombia has enabled the Colombian Government to expand 
security and government services to the farthest reaches of 
Colombia.
    General Renuart, the brutal violence that we see in Mexico 
today reminds us of the situation that Colombia faced a decade 
ago. Nearly every week we hear a report of a senior official in 
Mexico being killed in a brazen attack. The root cause of the 
violence in Mexico is the same as in Colombia: criminal 
organizations using any means necessary to traffic illegal 
narcotics for enormous financial gain. The origin of these 
narcotics remains Colombia mainly, but the problems created 
from this trafficking run from Lima to Tijuana and America's 
southern border and northward. Governors from our southern 
border States are calling on the Federal Government to send 
troops to help defend against the possibility of this violence 
entering American communities.
    Following a trip to Mexico earlier this month, Admiral 
Mullen talked about a ``shared responsibility'' for the cause 
of the crisis and said the United States had a shared 
responsibility to clean it up as well. We will be interested to 
hear how NORTHCOM is working with the Mexican military to help 
address this violence and how NORTHCOM and SOUTHCOM are working 
together along the seam of their respective commands to 
mitigate and deconflict our assistance programs.
    NORTHCOM also has the responsibility for operating the 
Ground-based Midcourse Defense (GMD) missile defense system 
deployed to defend the United States against a potential 
ballistic missile attack from North Korea. The Pentagon's 
Director of Operational Test and Evaluation recently wrote that 
``GMD flight testing to date will not support a high degree of 
confidence in its limited capabilities.'' We are interested to 
hear from you, General Renuart, about the testing and the 
performance of that system along with a number of other issues.
    General Ward, the challenges on the African continent are 
staggering, we don't have to tell you, and the conflicts that 
rage across borders to fragile governments to nations where 
peacekeeping or peace-enforcing forces are the best and 
sometimes the only hope for security and stability. The 
terrorism threat from Africa, and particularly the potential 
for havens and recruiting grounds for terrorists in ungoverned 
or undergoverned areas, are cause for deep concern.
    Last week before this committee, Director of National 
Intelligence Blair described an al Qaeda-affiliated group as 
the ``most active terrorist group in northwestern Africa'' and 
assessed that it ``represents a significant threat to U.S. and 
western interests in the region.''
    The situation in West Africa is further complicated by the 
increased flow of narcotics from the SOUTHCOM area of 
responsibility (AOR) en route to Europe via West Africa. The 
consequences of cooperation between terrorists and traffickers 
of illegal narcotics are cause for great concern. We need to 
look no further than Colombia and the Revolutionary Armed 
Forces of Colombia (FARC) in South American and Afghanistan and 
the Taliban in Central Asia to understand the importance of 
working with our partner nations to confront this threat.
    General McNabb, TRANSCOM's planning role and preparation to 
support both the drawdown from Iraq and the buildup in 
Afghanistan will be critical issues in the coming 12 to 24 
months. The committee is eager to hear from you on 
transportation and logistics risks associated with this shift 
of resources and personnel.
    With respect to supply routes into Afghanistan, in recent 
weeks we have additional security and political pressure on the 
critical supply routes that run from Karachi, Pakistan, up 
through the Khyber Pass into Afghanistan, as well as the 
apparent decision by the Government of Kyrgyzstan to deny U.S. 
forces use of their air base at Manas.
    The committee would like to hear from you on TRANSCOM's 
role in helping to resolve these access and supply route 
challenges. Also, tell us if our allies are using or 
considering the use of Iran as a supply route. We also hope 
that you'll explain to the committee the greatest risks to 
completing TRANSCOM's support missions and how you would 
propose to eliminate or to mitigate them. Finally, given that 
our other witnesses are from geographical combatant commands, I 
hope that you will discuss TRANSCOM's support of SOUTHCOM, 
AFRICOM, and NORTHCOM.
    One last item. During Director of National Intelligence 
Blair's testimony before this committee last week, all of us 
noted with great interest that he spoke of the risks associated 
with the current global economic downturn. We'd be interested 
in hearing from each of the witnesses about the impact of the 
economic downturn and in which nations you believe the risks to 
be most significant.
    Our thanks again to each of our witnesses for your service 
to this Nation, and for the service of the dedicated men and 
women who serve under your command.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I join you in 
welcoming our witnesses today and I'd like to echo your thanks 
to the witnesses and the men and women who serve under their 
command for their distinguished service to our Nation.
    There's a number of important issues we hope our witnesses 
will address in this hearing. General McNabb, as the United 
States increases significantly the size of its forces in 
Afghanistan, supply lines will obviously become even more 
important. It's been reported, for example, that the daily 
demand for truck deliveries into Afghanistan will increase by 
some 50 percent as an additional 17,000 troops deploy to the 
country. This increased demand comes at a time when our supply 
routes through Pakistan have grown increasingly dangerous and 
the Government of Kyrgyzstan has evicted or announced the 
eviction of our forces from Manas Air Base.
    Other possible supply routes are problematic, from those 
that would rely on Russian goodwill to a route that passes 
through Uzbekistan, which evicted our forces from the K2 base 
following the Andejan massacre, to an Iranian route which I 
understand some of our NATO allies are considering. General 
McNabb, I look forward to hearing your views on the viability 
of alternate supply routes and how we might deal with some of 
the problems they present.
    I also hope we will hear about TRANSCOM's plans for 
maintaining its air mobility readiness, especially your 
thoughts on recapitalization of the current KC-135 aerial 
refueling tanker. I'm troubled by recent reports that suggest 
some Members of Congress have advocated statutorily directing a 
split buy between Boeing and Northrop Grumman. The replacement 
tanker decision must be based on a competitive process that 
provides the warfighter with the best possible tanker at the 
best possible cost to the taxpayer. Obviously, splitting this 
contract would have a dramatic increase in the cost to the 
taxpayer. So we don't need an expedient political decision that 
is totally impractical and inefficient.
    There are a number of developments in our own hemisphere. 
For instance, Hugo Chavez offered an island base for Russian 
bombers. Reportedly, a Russian general suggested that Cuba 
could host its own Russian bombers. Americans and, frankly, 
Members of this committee are not quite understanding exactly 
what's going on here. You'll help us separate rhetoric from 
reality, I'm sure.
    On Sunday, El Salvador elected a new government and, while 
President Fuentes has shown so far no affinity for the likes of 
Hugo Chavez, change continues to sweep through Central and 
South America, change that can have a direct impact on the 
security of the United States.
    America's future is fundamentally tied to the stability, 
prosperity, and security of our southern neighbors. The recent 
increase in violence along our southern border is perhaps the 
chief example of the interplay between our own security and 
that of our southern neighbors. Today Phoenix, Arizona, is the 
kidnapping capital of America and gangs that were born in El 
Salvador and Nicaragua wreak havoc in our Nation's cities and 
towns.
    Through the Marita Initiative with Mexico and via our 
various security partnerships throughout the hemisphere, we 
must help our southern neighbors help themselves in a concerted 
effort to fight crime, stop drug trafficking, and provide 
security for their people as well as ours.
    In Africa, a continent rich in resources and talent and yet 
rife with corruption, disease, poverty, and civil unrest, 
AFRICOM faces unique challenges. The world and our government 
has long considered Africa largely a humanitarian mission, a 
matter of charity rather than opportunity. This needs to 
change. The 1998 bombings of our embassies in Tanzania and 
Kenya did much to remind us that our interests are intertwined 
with events in Africa and each year the distance between us 
seems to grow shorter.
    From the perils of policy in the Gulf of Aden to a 
terrorist sanctuary in Somalia, to the numerous conflicts that 
rage in Africa, we face real challenges in our security 
operations and partnerships there. I believe it's imperative 
for the United States to develop a comprehensive strategy 
toward the African continent, one that integrates our security 
objectives with the development and democratic objectives that 
our best partners in Africa wish to attain.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
    Chairman Levin. Thank you very much, Senator McCain.
    Admiral Stavridis, why don't we start with you.

  STATEMENT OF ADM JAMES G. STAVRIDIS, USN, COMMANDER, UNITED 
                    STATES SOUTHERN COMMAND

    Admiral Stavridis. Sir, thank you very much. Mr. Chairman, 
Mr. Ranking Member, members of the distinguished committee, 
thank you for the opportunity to appear before you today and 
talk a little bit about Latin America and the Caribbean, a 
region of the world that I think is not America's backyard. 
That's probably the wrong expression. It's really part, as 
Senator McCain just alluded to, of a home that we share 
together here in the Americas. What happens to the south of us 
will influence what happens here in our own Nation, as we're 
seeing.
    I'm very fortunate to be joined by three generals. As a 
Navy admiral, I always feel good to have generals around me. I 
feel a little safer. So three distinguished colleagues. Thanks 
for putting this hearing together, sir.
    We had a good week at SOUTHCOM last week, reflecting a good 
year. What happened last week was we had three former U.S. 
hostages who had been held in Colombia for 5\1/2\ years at 
SOUTHCOM. They were there because they were rescued by the 
Colombian military in a very daring, audacious raid, which was 
a real example of the success of Plan Colombia and 5\1/2\ years 
of the building of partnership capacity. So I think Colombia is 
on the right track and I'd like a chance to talk about that 
today.
    Also, last year in SOUTHCOM we had the opportunity to send 
ships south to do, not anything combative, but rather to do 
medical activities. We did 200,000 patient encounters all over 
the region from Kearsarge and Boxer. That builds on Comfort's 
400,000 during its voyage the previous year. We did 20,000 
patient encounters ashore. This is all indicative of displaying 
compassion and competence and conducting great training for us 
down south, a way that we can connect with this region.
    We had a very robust year in military-to-military 
exercises, the largest military exercise in the world in terms 
of number of countries participating. It's called Panamax, co-
sponsored by Chile, Panama, and the United States. Twenty 
countries participated last year. We had many other exercises 
with 15, 17, and 19 different participants, focusing on 
everything from special operations to disaster relief. So a 
very robust schedule of military-to-military contacts, and I 
feel that's a good part of what we need to do in this region to 
maintain this positive military-to-military connection wherever 
we can.
    Of deep concern, both the chairman and the ranking member 
have talked about the flow of narcotics moving from the Andean 
Ridge of South America, passing through the region that I focus 
on, up through Mexico, where my colleague General Renuart 
focuses. Last year we were able to stop 230 tons of cocaine, 
but the challenges in this narcotics situation are both on the 
demand side here in the United States, and also working with 
partners like Mexico in Central America through the Menda 
Initiative, which I support very strongly and I'm sure General 
Renuart does as well.
    A particular subset of that I'd like to talk about today 
are the rise and the use of semi-submersibles, which are 
submarine-like creations built in the jungles of the Andean 
Ridge of South America, that can transport up to seven tons of 
cocaine, a very difficult target for us. We're seeing many more 
of those. I talked about that last year. We're focusing a lot 
of resources on interdicting those and working with our 
partners to do so.
    I want to close by thanking the committee for its support 
on our new headquarters building, which is going up next to a 
rented facility we've had in Miami for about 10 years. This 
committee supported that along with the House and it's going 
strong, and we appreciate that very much.
    I'll simply close by saying thank you to the committee for 
the terrific support on behalf of the men and women of 
SOUTHCOM. Again, I appreciate the opportunity to be with you 
today, sir.
    [The prepared statement of Admiral Stavridis follows:]
           Prepared Statement by ADM James G. Stavridis, USN
    Mr. Chairman, ranking member, and distinguished members of the 
committee: thank you for the opportunity to appear before you today to 
discuss the United States Southern Command and our area of focus in 
Latin America and the Caribbean. I am happy to report that 2008 was a 
productive and positive year for the United States Southern Command, 
and we appreciate the support that Congress has shown us over the last 
year. With your assistance, we were able to help address challenges and 
benefit from opportunities in this dynamic era. With your continued 
support, we are already on track to have a similarly productive year in 
2009, and anticipate reaching new milestones of security cooperation 
with our partners in Latin America and the Caribbean.
    We are living in an age of rapid change facilitated by advancing 
technologies and increasingly networked systems, societies, and 
economies. In order for security agencies to be successful in this 
complex environment, those organizations must be flexible, open, and 
forward-thinking. As globalization deepens and threats emerge and 
evolve, security organizations will need to continue fostering and 
building relationships with willing and capable partners to face 
transnational challenges. The security of the United States and that of 
our partners depends largely on our capacity to leverage joint, 
international, interagency, and public-private cooperation, all 
reinforced by focused messaging and strategic communication.
    The old adage that ``change is a constant'' should instead read 
``change is constantly accelerating''. Yet, our core mission has been 
left unchanged. We remain a military organization conducting military 
operations and promoting security cooperation in Central America, the 
Caribbean, and South America in order to achieve U.S. strategic 
objectives.
    Last year was a hallmark year for U.S. Southern Command. 
Fortunately, we saw the completion of many important milestones:

        <bullet> Safe return and repatriation of three U.S. hostages in 
        Colombia after 5\1/2\ years of captivity;
        <bullet> Groundbreaking for our new U.S. Southern Command 
        headquarters in Miami, FL;
        <bullet> Panamax 2008, our largest and most comprehensive 
        joint, multilateral exercise to date with 20 nations involved;
        <bullet> Harnessing of innovation and new technologies in our 
        operations and exercises, from unmanned vehicles to high speed 
        vessels;
        <bullet> Supporting valuable Humanitarian Assistance and 
        Training operations;
        <bullet> Disaster relief support in a dangerous hurricane 
        season;
        <bullet> Numerous medical training missions to include a 
        combined 7-month deployment of two uniquely-crewed amphibious 
        ships called Continuing Promise 2008 with over 210,000 total 
        patient encounters;
        <bullet> Interdiction of over 228 metric tons of cocaine;
        <bullet> A robust bilateral and multilateral exercise program 
        and numerous international exchanges, including 21 major 
        military-to-military exercises; and
        <bullet> Excellent training and information exchanges on human 
        rights for Armed Forces.

    These milestones were only made possible through the help of 
Congress and the hard work and dedication of our Service components, 
and their motivated civil servants and servicemembers from the Active, 
Reserve, and Guard Force--Army, Marine Corps, Navy, Air Force, Coast 
Guard, and Special Operations--the professionalism of our Joint Task 
Forces, and the cooperation of numerous partners inside and outside 
U.S. Government.
    This is my third posture statement as Commander of U.S. Southern 
Command. My first testimony highlighted the diversity of our assigned 
region and outlined the powerful linkages we share with Latin America 
and the Caribbean. In last year's statement, I gave an update of our 
region and described some innovative approaches that we were planning 
to fulfill our mission more effectively.
    Today, I would like to update you again on the region, as well as 
discuss the threats and challenges that we still face in Latin America 
and the Caribbean. Also, I would like to report on the positive results 
that we are seeing from the innovative approaches and initiatives 
outlined in last year's testimony.
Hemispheric Linkages
    Economics: a driving factor
    The first few years of this millennium saw world economic activity 
at a healthy and robust level, ``with high growth rates, low inflation, 
low interest rates, fluid financing, and buoyant international trade.'' 
\1\ This economic climate allowed Latin America and Caribbean economies 
to grow at a level unseen in almost half a century. A key contributor 
to this growth--in much of the region--was high global demand for 
commodities, such as energy, metals and food staples. This growth, 
coupled with improved economic policies, allowed many countries to make 
inroads into the challenges of poverty and income inequality that have 
long bedeviled economic and political stability.
---------------------------------------------------------------------------
    \1\ Source: Economic Commission for Latin America and the Caribbean 
(ECLAC), Latin America and the Caribbean in the World Economy: 2008 
Trends, October 2008.
---------------------------------------------------------------------------
    The economies in Latin America and the Caribbean are increasingly 
tied with the global economy--with very close linkages to the U.S. Now, 
Latin American economies are beginning to feel the negative impact of 
the current economic downturn in the United States and Europe. Although 
the duration and impact of these economic problems are difficult to 
predict, any global or regional slowdown or reduction in demand and 
prices for commodities will naturally have an adverse effect on this 
region. Economic data from late 2008 showed commodity prices that had 
risen until mid-July 2008, have recently fallen. Wheat and corn futures 
are down 70 percent. Oil prices are down 55 percent, and several metals 
are down 50 percent.\2\
---------------------------------------------------------------------------
    \2\ IBID.
---------------------------------------------------------------------------
    The fall in commodity prices will ease some inflationary pressures, 
but combined with other economic factors, will negatively impact the 
region's growth and cause near and long-term challenges for the 
region's leaders. Near term, they will have to cope with the economic 
slowdown and its inherent challenges: reduced exports, tighter access 
to financing, stock market devaluation, less foreign direct investment, 
and reduced migrant remittances. Long term, if these economies continue 
to falter, they will have to deal with the electorate's disappointment, 
and in some cases reduced overall security and stability. They will 
also face a challenge in fully implementing positive economic reforms 
that many of the region's governments have attempted to implement over 
the last two decades.
    Although 2009 is forecast to be a much more difficult year 
economically in our region, each country will vary in performance 
depending on its own situation, policies, and political leadership. 
Many of the larger countries in our region are well prepared to weather 
this adverse economic situation due to recent economic reforms and an 
increased integration with the global economy, particularly the U.S. 
economy. Our interdependence with the region should, over time, dampen 
individual economic shocks, and foster sustained economic growth.
    Democracy, liberty, and human rights: desired common ground
    Today, every country in our hemisphere is a democracy, with the 
notable exception of Cuba. We are fortunate to be united by democratic 
principles, the inspiration of liberty, and our populations' desire to 
have human rights respected by their governments. Of course, there are 
differences in form and style between our governments, and the 
democratic scorecard may differ greatly from nation to nation. However, 
compared to three decades ago when the form of government in the 
majority of the countries was not democratic, our region's similarities 
outweigh the differences.
    Culture: an integrator
    As seen with our economic interdependence, the Americas are an 
interconnected system--a very diverse, yet interrelated, community. 
This important region is unfortunately sometimes referred to as the 
``backyard'' of the United States. That terminology reflects an 
inaccurate and inappropriate picture of a region so vitally important 
to the future of the United States. It is in every sense not our 
``backyard,'' but rather, a home that we share together. We have 
tremendous geopolitical, economic, and social linkages that unite us 
and act as a foundation for this home. These ties range from our shared 
economic activity to our comparative democratic ideals, as well as from 
mutual social and cultural appreciation to similar geography and 
climatic systems.
    A clear indicator of this interdependence is the mixing and 
interaction of cultures here in the United States that we see reflected 
in the Americas. Currently, about 15 percent of our population traces 
its heritage to Hispanic origins. By mid-century, this cultural 
influence will increase to almost one third of our total population--a 
population of increasing diversity.\3\
---------------------------------------------------------------------------
    \3\ Source: Pew Research Center, U.S. Population Projections: 2005-
2050: February 2008.
---------------------------------------------------------------------------
    Military: a robust linkage
    Historically, we have had very close military ties with our 
partners in the region. For example, Brazil fought with us during World 
War II--The Brazilian Expeditionary Force, numbering over 25,000 
troops, fought with U.S. forces in Italy from 1944 to 1945. During the 
Korean War a Colombian infantry battalion and warship served with the 
U.S. led United Nations (U.N.) Command. Beginning in the 1950s, several 
Latin American countries contributed military units to U.N. 
peacekeeping operations in the Middle East. Recently, in Iraq, troops 
from El Salvador served as part of the multinational presence and have 
now completed a noteworthy 11 rotations with over 3,000 total troops. 
The Dominican Republic, Nicaragua, and Honduras also dispatched troops 
to Iraq.
    These are all examples of our partner nations fighting side-by-side 
with us in times of conflict. However, we also engage with these 
nations continuously during peacetime through various bilateral and 
multilateral exercises, conferences, and other training engagements. 
One example of this is the daily interaction the U.S. military has with 
future senior military leaders from throughout the region at our 
military institutions such as the Western Hemisphere Institute for 
Security Cooperation, Center for Hemispheric Defense Studies, and the 
Inter-American Air Forces Academy. The camaraderie developed among our 
military officers at these institutions and the schools' strong 
emphasis on democratic values and respect for human rights are critical 
to creating military establishments capable of effective combined 
operations.
Challenges and Accomplishments
    U.S. Hostages in Colombia: a success story
    It is with great pleasure that I can report the safe return to the 
United States of the three American hostages held by a narcoterrorist 
group in Colombia. To quote last year's testimony, ``Unfortunately, the 
FARC (Fuerzas Armadas Revolucionarias de Colombia or Revolutionary 
Armed Forces of Colombia) are extremely capable and experienced at 
holding and hiding hostages in the dense Colombian triple-canopy 
jungles. We are hopeful that our efforts and those of Colombia and the 
international community will soon see Marc, Keith, and Tom returned to 
U.S. soil alive and well.''
    Those hopes were realized on July 2, 2008. The Colombian military 
deserves complete credit for the final daring raid that freed our 
hostages and 12 others. However, it is fair to say that their brilliant 
tactical operation was the culmination of almost 10 years of effort 
shared by our Congress, Colombia, U.S. Southern Command, and other U.S. 
Agencies responsible for resources and capacity building of the 
Colombian military. One of the happiest and most satisfying moments of 
my career was the moment I received word that Marc Gonsalves, Keith 
Stansell, and Thomas Howes had been safely rescued. Seeing the much 
sought after freedom of these three United States citizens, after 5\1/
2\ long years of captivity, was certainly a highlight of our year.
Threats
    The current challenges and security threats that we face in this 
hemisphere fortunately do not involve any imminent conventional 
military threat to the United States, nor do we foresee one in the 
near- or mid-term future. For the foreseeable future, we also do not 
see any major military conflict developing among nations in Latin 
America or the Caribbean. Communication has been a strength in our 
region, and has proven itself over the last year during some of the 
region's political tensions. This is evidenced by the peaceful 
mediation and resolution by regional leaders of the crisis between 
Ecuador, Colombia, and Venezuela that occurred in March 2008. The 
creation of the new South American Defense Council is yet another 
indication of the tendency to create fora to encourage dialogue and 
reduce tension.
    Despite this ``peaceful'' state of the region from a state-on-state 
violence perspective, security challenges undoubtedly do exist. 
Narcoterrorism, drug trafficking, crime, gangs, and natural disasters 
pose the principal security challenges to the region and to the United 
States from the region. Also, the specter of transnational Islamic 
terrorism is of concern and bears due vigilance on our part.
    Underlying conditions: poverty and inequality
    Despite the economic gains of the past decade, poverty and income 
inequality remain grave concerns for many people in Latin America and 
the Caribbean. These concerns drive social unrest and provide fertile 
soil for many of the region's public security challenges. Although 
poverty rates have been modestly reduced over the last 15 years--from 
48 percent living in poverty in 1990 to an estimated 35 percent in 
2007--with increases in population over the years, the absolute numbers 
of people living in poverty have risen slightly overall in the region. 
The number of people living in indigence--or extreme poverty--has also 
climbed, affecting an estimated 12.7 percent of the population.\4\
---------------------------------------------------------------------------
    \4\ ECLAC, Social Panorama of Latin America, 2007.
---------------------------------------------------------------------------
    Combined with this poverty is a disproportionate wealth 
distribution that is second only to Sub-Saharan Africa. The richest 20 
percent of the Latin American population earns 57 percent of the 
region's income, earning 20 times that of the poorest 20 percent. By 
comparison, the richest 20 percent in high-income regions of the world 
earns only 7.7 times that of the poorest group.\5\ The cumulative 
effect of poverty and income inequality in Latin America and the 
Caribbean serves as a catalyst for insecurity and instability. Although 
these figures vary from country to country in the aggregate, poverty 
and inequality make whole regional populations vulnerable to the 
influence of illicit activity--such as drugs, crime, gangs, and illegal 
immigration.
---------------------------------------------------------------------------
    \5\ The World Bank, 2008 World Development Indicators, April 2008.
---------------------------------------------------------------------------
    Earlier, I discussed how our region is united by democracy. 
Unfortunately, this continued widespread poverty and inequality in 
Latin America and the Caribbean energizes potential political 
instability. In fact, recent surveys in the region underscore the 
current fragility of democracy. As of 2006, 26.4 percent of the 
population of Latin America and the Caribbean would justify a military 
coup in the case of high inflation, and 20.9 percent would justify one 
in the case of high unemployment.\6\ These percentages tend to be 
highest among countries recovering from recent conflict and 
instability. With the present economic slowdown, this trend might only 
continue and lead to further autocratic problems to the detriment of 
democracy in the hemisphere.
---------------------------------------------------------------------------
    \6\ AmericasBarometer, 2006.
---------------------------------------------------------------------------
    Public security challenges: narcotics, crime, and terrorism
    Narcotics. The global illicit drug trade remains a significant 
transnational security threat as its power and influence continues to 
undermine democratic governments, terrorize populations, impede 
economic development, and hinder regional stability. The profits from 
this drug trade, principally cocaine, are an enabling catalyst for the 
full spectrum of threats to our national security, and present 
formidable challenges to the security and stability of our partners. 
Our success--or failure--to address this insidious threat will have a 
direct and lasting impact on the stability and well-being of both 
developed and developing countries of the world. Innovative approaches 
and partnerships are needed to successfully confront this dangerous 
threat. It will take a coordinated multi-agency and multinational 
strategic approach that brings to bear the strengths and resources of 
diverse, capable groups to stem the rising tide of the illicit drug 
trade.
    There is also a crucial demand-side effort that is continuing here 
in the U.S. For example, programs to treat addicts, convince and deter 
our children and youth from using drugs, and create community solutions 
are supported at a national level.
    In U.S. Southern Command's assigned region, the Andean Ridge of 
South America is the world's only significant source of coca 
cultivation and cocaine production. Each year, cocaine from the region 
directly contributes to the deaths of thousands of U.S. citizens, and 
has spread its toxic effects to many countries in this hemisphere and 
abroad. Narcotraffickers are intrinsically transnational, and they 
continue to develop fresh markets, explore alternative routes, and 
refine current tactics. They are highly innovative and keep investing 
in relatively low cost and unique conveyance and concealment 
technologies to counter our detection systems. A vivid example of this 
is the self-propelled semi-submersibles (SPSS)--low riding, low profile 
vessels that narcotraffickers use to skim along the water line to avoid 
visual and radar detection. These relatively new vessels now bring tons 
of illicit cargo to market.
    In 2008, we interdicted 11 SPSS vessels at sea on their way to 
market, and anticipate roughly 60 similar vessels in 2009 will ply the 
waters of our region--with a potential cargo capacity of over 330 
metric tons of cocaine, or other illicit and dangerous material. In 
2008, we observed that traffickers had expanded their presence in West 
Africa as a springboard to Europe, while also exploring new Middle 
Eastern and Asian markets. We also noted that traffickers have shifted 
from high seas routes to multi-staging tactics along the Central 
American littorals, attempting to evade international interdiction 
efforts.
    One specific area of increasing concern is the nexus of illicit 
drug trafficking--including routes, profits, and corruptive influence--
and terrorism. In the Western Hemisphere, the illicit drug trade 
historically has contributed, and continues to contribute, significant 
financial resources to known terrorist groups like the Revolutionary 
Armed Forces of Colombia (FARC) in Colombia and the Shining Path in 
Peru. Another threat to the United States is the nexus with Islamic 
radical terrorism. In August of last year, U.S. Southern Command 
supported a Drug Enforcement Administration operation, in coordination 
with host countries, that targeted a Hizballah-connected drug 
trafficking organization in the Tri-Border Area of Argentina, Brazil, 
and Paraguay. Last October, we supported another interagency operation 
that resulted in the arrests of several dozen individuals in Colombia 
associated with a Hizballah-connected drug trafficking and money 
laundering ring. Identifying, monitoring, and dismantling the 
financial, logistical, and communication linkages between illicit 
trafficking groups and terrorist sponsors are critical to not only 
ensuring early indications and warnings of potential terrorist attacks 
directed at the United States and our partners, but also in generating 
a global appreciation and acceptance of this tremendous threat to 
security.
    Since Colombia is the major global source of cocaine, as well as 
home to the FARC, a narcoterrorist group, the Colombian Government and 
people remain pivotal in the fight to stop illicit traffickers at the 
source. As traffickers adapt their product movement tactics, every 
effort to interdict them within Colombia or just as they depart 
Colombian territory will pay tremendous dividends, as opposed to 
dispersing limited interdiction resources across the 42 million square 
miles of the Caribbean and the Eastern Pacific. Providing resources and 
investments to improve the Colombian military, along with enhancing our 
interagency capabilities, will build the capacity to integrate and 
share information with U.S. and international counter-narcotic 
organizations. Our interagency support efforts will directly improve 
regional and hemispheric security.
    Although not part of U.S. Southern Command's regional focus, the 
situation in Mexico is also of serious concern with regards to drugs 
and narcotrafficking. With over 6,000 violent killings and thousands of 
kidnappings in Mexico in 2008, the Merida Initiative (which links to 
the rest of Central America and parts of the Caribbean) deserves full 
support.
    U.S. Southern Command's unique counter-narcotic task force located 
in Key West, FL, is a role model for the kind of innovative cooperation 
and fusion of capabilities needed to counter this forceful and perilous 
threat. Joint Interagency Task Force South (JIATF-S) combines efforts 
of international partners, the U.S. armed services, and numerous U.S. 
and international departments and agencies to combat the illicit drug 
trade stemming from Latin America and the Caribbean. Last year, this 
task force stopped more than 228 metric tons of cocaine from entering 
the United States or from reaching foreign markets and helped 
facilitate the capture by law enforcement or partner nations of 317 
drug traffickers.
    In 2009, JIATF-S will expand on the 35 planned and successful 
operations it conducted last year, and integrate efforts with various 
hemispheric initiatives to include interagency, international, and 
public-private efforts. With an eye toward innovation and integration, 
JIATF-S continues to be a model for the future and will position itself 
to tactically identify, engage, and counter asymmetric and dynamic 
threats more efficiently across the current and emergent spectrum of 
threat conveyances, routes, and concealment techniques. We will 
continue to fight this international threat with all available 
resources.
    Crime and Violence. Over the past decade, about 1.2 million deaths 
can be linked to crime in Latin America and the Caribbean. United 
Nations data places the homicide rate for this region at 27.5 murders 
per 100,000 people--five times that of the United States and three 
times that of the world average. A recent study lists Latin America 
with the highest global homicide rate for people between 15 and 24, 
with a rate 30 times greater than that of Europe.\7\ Moreover, every 
year, approximately one-third of the population falls victim to a 
criminal act--either directly or indirectly.
---------------------------------------------------------------------------
    \7\ Latin American Technological Information Network, Map of 
Violence: The Young People of Latin America, November 2008
---------------------------------------------------------------------------
    These statistics are underscored by the growing influence of gangs 
in several countries and of delinquent youth in general. Gang 
populations have reached over 100,000 in Central America alone, and 
there are possibly similar numbers in major South American cities. In 
recent surveys of the region, closely aligned with economic concerns, 
delinquency and personal security rank as top social ills for the 
majority of countries in the region.\8\ This insecurity and its 
associated costs--not just human costs, but, on the order of $250 
billion annually in economic impact--have become major threats and a 
destabilizing factor in many nations in the Western Hemisphere. 
Organized crime and some of the more structured gangs routinely cross 
borders and operate inside the United States, including near our 
Nation's capital in Northern Virginia and of course in Los Angeles.
---------------------------------------------------------------------------
    \8\ Latinobarometro.
---------------------------------------------------------------------------
    The primary responsibility for helping our hemispheric partners 
solve these challenges resides with the Department of Justice, 
Department of State, and the U.S. Agency for International Development. 
We seek to be supportive and helpful where appropriate. The complexity 
of the challenges facing these government entities only reinforces the 
need for coordinated interagency solutions.
    Colombia. Colombia is a strategic ally, an important friend, and a 
crucial anchor for security and stability in this hemisphere. This 
beautiful and diverse country is the second oldest democracy in the 
hemisphere.
    Since the United States and Colombia started working together to 
help secure peace with the Clinton administration's Plan Colombia, a 
great deal of progress has been made. In the late 1990s, Colombia's 
democracy was on the verge of failure. The country was embroiled in an 
internal conflict that, by any objective measure, was tearing it apart. 
Drug cartels had wide reign and violence was rampant. Today's Colombia 
is a completely different story. There is a real sense of hope and 
pride in the country and its accomplishments. The Uribe 
administration--now leading the follow-on to Plan Colombia, the 
``Strategy to Strengthen Democracy and Promote Social Development'' and 
with support from the United States--has brought the country ``back 
from the brink'' and has it poised for stability. Since 2002 homicides 
have dropped by 40 percent, kidnappings by 83 percent, and terrorist 
attacks by 76 percent.\9\
---------------------------------------------------------------------------
    \9\ U.S. State Dept brief. Charting Colombia's Progress, available 
at: http://www.state.gov/documents/organization/93761.pdf
---------------------------------------------------------------------------
    The FARC narcoterrorist group has been beaten back with key leaders 
at the strategic secretariat level eliminated and more than 50 percent 
drop in their numbers. Their communications have been disrupted. 
Desertions continue to accelerate, and, morale is at an all-time low. 
In addition, most Colombian drug cartels have been significantly 
impacted, and Colombia has extradited over 700 drug traffickers to the 
United States. Nonetheless, the FARC remains a serious challenge to the 
Government of Colombia.
    Although cocaine production is still a critical concern, 
interdiction and seizures of cocaine headed to the United States and 
abroad have more than doubled over the last 10 years. This increase 
indicates improved State control, successful governmental strategies, 
and an overall better interagency and international coordination and 
collaboration.
    I highly encourage members of the committee to visit Colombia, as 
many of you have already, to experience first-hand the tremendous 
overall improvements in this country, and, to gain the sense that 
``this is the moment'' for Colombia. This is the time for Colombia and 
its friends to make the final push to win true peace in this country--a 
peace that will be of great benefit to the region and the United 
States. As Colombia wins its peace, narcoterrorists will lose capacity 
to grow, process, and transport illicit drugs--directly saving U.S. 
lives and resources. Human rights compliance and training are key to 
all this.
    Over the next 2 years, support for the Colombian armed forces' 
campaign to defeat the FARC, as well as for Colombian interagency 
efforts to bring governance and economic opportunity to areas 
recaptured from the FARC, is essential. Paramount to this support will 
be training, mobility, and continuation of key infrastructure and human 
rights programs to provide long-term self-sufficiency. Continued U.S. 
commitment over the next 2 years will be critical through a 
``nationalization'' period, as the Colombian Government assumes 
responsibility for funding the majority of current programs through the 
development and institutionalization of carefully planned resource 
management processes. With U.S. help, a stable and secure Colombia is 
very achievable in the near term, and will serve as a democratic model 
for the region.
    Additionally, the U.S. needs to continue supporting counterdrug and 
counterterrorism programs in Colombia's neighboring countries, 
especially Peru.
    Terrorism. Terrorist networks are active throughout our hemisphere. 
These networks include domestic narcoterrorists, such as the FARC, who 
mainly reside in Colombia, as well as the Shining Path Maoist-style 
narcoterrorists of Peru. Islamic terrorist networks are also active, 
primarily involved in fundraising and logistical support for parent 
organizations based in the Middle East, such as Hizballah and Hamas. 
Individuals with terrorist training and experience who could support or 
conduct terrorist attacks in our hemisphere may be present in the 
region, and our intelligence has demonstrated that pre-operational and 
operational activities have indeed occurred, as exemplified by the 
attempt to blow up fuel pipelines at the JFK airport in New York in 
2007.
    Islamic terrorist networks are present in the Tri-border Area, as 
well as several other locations in the region. A robust Hizballah 
financial support network exists in the region, as well as an active 
group of sympathizers and supporters of Hizballah. Also present are 
Sunni groups, including Hamas, whose members possess operational 
backgrounds. Moreover, known al Qaeda members have journeyed to Latin 
America and the Caribbean and other terrorist-inspired Islamic radicals 
have been arrested in the region.
    As with all of the Department of Defense and other U.S. departments 
and agencies, U.S. Southern Command dedicates significant effort to 
remaining vigilant in the struggle against violent extremism. We have a 
regional plan to combat this threat through multiple avenues. This plan 
includes shaping the strategic environment through support to 
interagency humanitarian operations that impede radical organizations 
from gaining a foothold in the region, as well as building partner 
nation capacity to detect and defeat threats in a cooperative 
environment. These efforts will help ensure the forward defense of the 
United States and increased security for our partners. We thank 
Congress for providing the dedicated resources necessary for this 
mission and for providing flexible funding sources to help us rapidly 
address emerging capability gaps of our partners as the strategic 
situation develops. U.S. Southern Command will continue to work closely 
with our interagency and our regional partners to ensure our Nation and 
those of our friends remain secure.
    Marketplace of Ideas
    The Americas are a marketplace of ideas where security, economic, 
and political models compete amidst all the linkages and challenges 
detailed above. The ideas of personal liberty, electoral democracy, 
fair and open markets, and political transparency--are competing 
against a variety of other models, some of which are dramatically 
different.
    Our job at U.S. Southern Command is simply to build cooperative 
security relationships and to promote U.S. military-to-military 
interests in the region. Unfortunately, some trends in a few countries 
hinder security cooperation, and a few leaders have adopted a vocal 
anti-U.S. stance, making it more difficult to cooperate on security 
matters.
    To compete in this marketplace, we engage proactively in the region 
and counter anti-U.S. messaging with persistent demonstrations of our 
goodwill, competence, and professionalism. The U.S. Government, through 
our interagency, needs to be capable of assisting our partner nations 
by addressing the underlying conditions of poverty and inequality, 
while U.S. Southern Command needs to help build security relationships 
and create innovative security initiatives with cooperative partners to 
confront transnational security threats.
                              initiatives
    To confront the challenges and embrace the opportunities of this 
century in the Americas, U.S. Southern Command has shaped its 
initiatives to cultivate innovative ideas and harness integrated 
effort. Our mantra has been ``joint, international, interagency, and 
public-private.'' The changing global and regional conditions of the 
21st century require more of an integrated approach. With the approval 
of the Secretary of Defense, U.S. Southern Command has realigned our 
internal headquarters structure to better support our interagency 
partners and to be more agile and comprehensive in our approach to 
engagement in the region.
    In 2008, we witnessed numerous positive results from integrating 
many initiatives that began in 2007. The following three examples 
typify the direction our command is taking.
Panamax 2008
    Building confidence, capability, and cooperation among partners is 
essential to confronting today's security challenges. Our exercise 
Fuerzas Aliadas (Allied Forces) Panamax has matured over the last 5 
years and has become one of our flagship programs. Panamax is a 
multinational and interagency exercise that focuses on defending the 
Panama Canal from traditional and nontraditional threats. The exercise 
began in 2003 as a limited naval exercise with just three participating 
nations. Due to past successes and efforts to expand partnerships, the 
exercise has grown to include a roster of more than 20 nations, several 
U.S. departments and agencies, international organizations, 
nongovernmental organizations, and multiple military branches of 
Service.
    Co-sponsored by Panama, Chile, and the U.S., this year's exercise 
formed a truly integrated multinational force--Multinational Force-
South. The force was led by U.S. Southern Command's Army component, 
U.S. Army South, but had significant international representation at 
all levels of command and control. Each of the Service components 
included significant command-level team members from other countries 
and agencies. For example, the maritime components were headed by 
Admirals from Chile and Brazil.
    While the exercise scenario focused on the security of the Panama 
Canal, this type of integrated multinational training certainly would 
benefit any response to real-world threats in our region--conventional 
and unconventional. From responses to catastrophic disasters to United 
Nations mandated multinational forces, this type of collaborative 
training has already proven to be indispensible.
    In addition to the security scenario focused on the Panama Canal, 
Panamax also included a multinational humanitarian training and 
assistance/disaster-relief training mission, a multinational 
peacekeeping battalion training event, and an interagency Proliferation 
Security Initiative training event focused on the shipment of weapons 
of mass destruction.
    This was also the second year that we assisted the Government of 
Panama with integrating their interagency homeland security exercise, 
Panamax Alpha, with Panamax and facilitated for the first time the 
involvement and support of the Defense Threat Reduction Agency, the 
U.S. Coast Guard, and the Federal Emergency Management Agency.
    Joint, international, interagency, and public-private is the 
essence of Panamax. The collaborative integration of participants and 
helpful lessons learned this year were exceptional. The increased 
participation and scope of Panamax over the years underscores the 
significance the international community places on cooperative efforts 
and strong partnerships as pillars of worldwide security and stability.
Continuing Promise 2008
    In 2007, for the first time, we sent a U.S. hospital ship--the 
U.S.N.S. Comfort--on a 4-month tour of Latin America and the Caribbean 
to conduct medical training and to treat patients in 12 countries. It 
was a tremendous success. Over 385,000 patient treatments were 
completed, along with 1,170 surgeries, more than 20 community-
improvement projects, 17,700 livestock vaccinations, and more than 
25,000 dental patients treated. Throughout the deployment, our 
personnel received vital training, and our message of positive 
commitment to the region and to its peoples penetrated deep and touched 
millions. This effort combined multiple military services, 
multinational integration, and medical professionals from the private 
sector.
    The success of the mission, combined with uniquely integrated 
medical and construction training for our personnel, spurred the 
conception of Continuing Promise 2008. Since the Navy only has two 
dedicated hospital ships, the Navy sourced our request to repeat the 
Comfort mission in 2008 with two large amphibious ships. Building upon 
the lessons learned from the Comfort, we increased the mission duration 
from 4 to 7 months, increased contact time in each port, and integrated 
more partners for the undertaking.
    The two ships carried a mix of military, interagency, 
multinational, and even nongovernmental medical and health specialists. 
Along with this diverse medical team, we embarked military engineers, 
construction experts, Navy and Marine Corps helicopters and crews, and 
military training experts. This uniquely designed team was tailored to 
training and humanitarian missions, but had the flexibility to easily 
transition to disaster-relief efforts should the need arise--which it 
ultimately did.
    One of the ships, the U.S.S. Boxer, completed the Pacific phase of 
Continuing Promise with superb results: over 65,000 total patient 
treatments, including 127 surgeries, 4,000 optometry patients treated, 
14,000 dental procedures, medical and military training for thousands 
of host-nation students, and construction projects at almost a dozen 
sites. The second ship, the U.S.S. Kearsarge, completed the Atlantic 
Phase in November, and its joint, international, and nongovernmental 
medical professionals worked alongside host nation officials to treat 
more than 145,000 patients in 6 countries. The crew also dispensed more 
than 81,000 prescriptions, provided veterinary care to nearly 5,600 
animals, and completed various construction and renovation projects in 
each of the countries visited during the mission.
    As an example of the flexibility of this type of venture deployed 
in our region, after Haiti was struck by successive tropical storms and 
Hurricane Ike in September, the Kearsarge diverted from its planned 
stop in Colombia to respond to this emergent humanitarian crisis. 
Supporting relief efforts led by the U.S. Agency for International 
Development's Office of Foreign Disaster Assistance, the Kearsarge and 
its crew delivered 3.3 million pounds of food, water, and other relief 
supplies to Haitian communities devastated by the storms.
    Continuing Promise is a perfect complement to our already 
established medical readiness training exercises that treated nearly a 
quarter of a million patients at 64 remote inland locations throughout 
the region. It also complements our humanitarian and civic assistance 
programs, as well as our engineering training exercises. Overall, 
Continuing Promise 2008 was an incredibly successful mission that 
further advanced our strategic messaging and built confidence, 
capability, and goodwill in numerous countries in the region serving as 
a visible and lasting counterweight to anti-U.S. messaging.
Self-Propelled Semi-Submersible Capture
    On September 13, 2008, the U.S.S. McInerney was on a nighttime 
patrol in the Eastern Pacific Ocean some 350 miles off the coast of 
Guatemala. Unlike during the Cold War, they were not in search of 
Soviet submarines. They were, instead, in search of a different type of 
threat--a possible SPSS that was detected by a Navy maritime patrol 
aircraft. Embarked aboard this U.S. Navy ship was a Coast Guard Law 
Enforcement Detachment that has the authority to make arrests--another 
example of an interagency approach to combating illicit trafficking. 
This integrated team enables Department of Defense assets like the 
McInerney and crew to search for illicit traffickers, and then pass off 
law enforcement actions to Coast Guard personnel.
    The McInerney was one of several assets--air, land, sea, and 
space--that were coupled with interagency operatives and partner nation 
agents throughout the hemisphere and Europe who were ``on duty.'' In 
our JIATF-S headquarters in Key West, 24/7 operators were fusing 
intelligence and surveillance information, tracking numerous potential 
threats, and vectoring and monitoring interdiction assets onto probable 
threats.
    McInerney was vectored onto a faint contact that was trying to 
evade detection and head north towards Mexico or the United States. 
During this nighttime intercept, the crew came across one of the most 
sophisticated SPSS vessels to date--capable of carrying a 7-ton cargo 
in near silent and radar invisible routes with non-stop ranges from 
South America to California. On that night, the payload was a crew of 
four and seven metric tons of cocaine. Following deception tactics, 
this SPSS crew was traveling at night, far off the coast, and at low 
speeds to avoid detection. This pitch-black intercept against an 
unknown threat was described by one of the Coast Guard boarding team 
members as the ``scariest event'' of his entire career.
    Fortunately, the intercept was executed flawlessly, and the 
traffickers did not have time to scuttle the vessel fully by using 
built in fast-acting drainage valves that allow incoming water to 
rapidly sink the vessel to avoid evidence collection. Once again, I 
must thank Congress for the passage of the Drug Trafficking Vessel 
Interdiction Act of 2008 that allows law enforcement legal indictments 
against operators of any submersible or SPSS vessel without 
nationality--an act that will certainly reduce risk for boarding teams 
and result in greater intelligence gathering and trafficking 
convictions.
    The story of the U.S.S. McInerney is a successful one. But as 
described earlier, we believe other SPSS vessels get through, 
accounting for approximately 30 percent of cocaine movement in the drug 
trafficking transit zones. As we continue to fight extremism around the 
world, we are alert to connections between narcotraffickers and Islamic 
radical groups. SPSS tactics and payloads could one day represent an 
extreme threat to the United States and our partners.
    These three examples illustrate our integrated approach and 
demonstrate commitment to our motto: ``Partnership for the Americas.'' 
Panamax underscores the importance of partnership at the traditional 
military level, but with a focus towards supporting multinational, 
interagency, and even limited public-private efforts. Continuing 
Promise highlights the effectiveness of integrated medical/humanitarian 
training missions and of their benefit from a strategic messaging 
perspective. The self propelled semi-submersible seizure shows the 
importance of an around-the-clock, collaborative effort to stop 
specific transnational security threats that could have extreme 
consequences if left unchecked.
                             looking ahead
    This year is already shaping up to be a good one for U.S. Southern 
Command and our efforts to confront the challenges of this dynamic era. 
We have numerous initiatives, programs, and exercises scheduled to 
build on the momentum of the last 2 years. The hospital ship Comfort 
will return to the region with a program crafted from lessons learned 
from our previous training and engagement. Construction of the new 
headquarters facility--designed to be a fusion center of integrated 
effort--is progressing and is on schedule. We have planned numerous 
bilateral, multilateral, and interagency exercises; programmed several 
valuable medical and construction training missions; and resourced 
exchanges and conferences. We continue to improve upon our model of 
interagency, international, joint, and public-private support. With the 
ongoing help of Congress, we hope to make 2009 another positive and 
productive year for U.S. Southern Command.
    As we chart our way into the next decade of this century, we will 
hold steady to our course of persistent engagement, partnership 
building, enabling understanding, and positive strategic messaging--all 
propelled by our interagency-support approach. I take great pride 
appearing before you today to represent the tremendous efforts of the 
men and women of U.S. Southern Command. I believe our efforts are 
making a difference in our hemisphere and for the security of the 
United States. I truly feel that our superb soldiers, sailors, airmen, 
marines, coastguardsmen--Active, Reserve, and Guard--as well as our 
talented civilians are daily living up to the trust the American people 
have placed in them. They are all volunteers to serve their country, 
and I am honored and blessed to serve with them every day. Our people 
are our greatest strength, and I thank you for your continued support 
to programs that improve their lives and support their families.
    Once again, I appreciate your support to U.S. Southern Command and 
am prepared to answer your questions.

    Chairman Levin. Thank you very much, Admiral.
    General Renuart.

  STATEMENT OF GEN. VICTOR E. RENUART, JR., USAF, COMMANDER, 
   UNITED STATES NORTHERN COMMAND/COMMANDER, NORTH AMERICAN 
                   AEROSPACE DEFENSE COMMAND

    General Renuart. Thank you, Mr. Chairman, Senator McCain, 
members of the committee. It is a treat, it really is a treat, 
to be back with you this year. It's especially an honor and a 
privilege today to represent the men and women assigned to 
NORAD and NORTHCOM. It is important to express our gratitude to 
the members of the committee who have been such strong 
supporters of the men and women in uniform over the last year. 
We continue to serve proudly and we appreciate your support.
    As Commander of NORTHCOM, I'm assigned two missions. One is 
to defend the homeland against attack, and so topics like 
ground-based midcourse interceptors, violence along the border, 
partnering with my friend Jim Stavridis in the fight against 
narcoterrorism in our region, the movement of drugs, and the 
support to law enforcement are all critical parts of our 
homeland defense mission, and I'm happy to talk about those 
topics with you today.
    But also to make mention of our requirement to provide 
Department of Defense (DOD) support to civil authorities when 
Mother Nature takes a vote in the course of events in our 
country. So I'm pleased also to talk about the issues like the 
consequence management response force that we put on, funded, 
equipped, trained, evaluated, and brought into service this 
year. We're part of a combined team. It's a national response. 
We coordinate with international, Federal, and State partners, 
with the governors, and with the National Guards of each of the 
States, as well as the emergency managers. That collaboration 
is a real success story this year and I'm happy to talk about 
the successes that we've seen there.
    We train hard to execute our mission. We exercise with all 
of our partners in government, and we must be prepared to 
ensure that we never let the country down. Our consequence 
management response force is a great example of an interagency 
approach and how DOD can provide support in a large-scale 
catastrophic nuclear, biological, or chemical event.
    Those who wish us harm have not gone away. The threat is 
real. It is there. They only have to be lucky once. We work 24 
hours a day, 7 days a week, to ensure that does not happen. We 
want to keep the momentum that we built. We want to remain 
alert because the mission of protecting our families and our 
Nation is the most important mission we have.
    Chairman Levin, I appreciate the opportunity to spend time 
with you answering questions today. I look forward to that 
dialogue. Thank you very much for your support and that of the 
committee. I look forward to your questions.
    [The prepared statement of General Renuart follows:]
        Prepared Statement by Gen. Victor E. Renuart, Jr., USAF
    Chairman Levin, Senator McCain, and distinguished members of the 
committee: Homeland defense is the preeminent mission of U.S. Northern 
Command (U.S. NORTHCOM) and North American Aerospace Defense Command 
(NORAD). Our commands are vigilant in protecting our citizens from 
threats that exist in the air, space, land, maritime, and cyberspace 
domains. As we look to the future, our aim is to secure our environment 
by deterring and, if necessary, defeating those who threaten our way of 
life. Today, it is my honor to report on the state of the commands.
              our missions--protecting what you value most
    U.S. NORTHCOM and NORAD are separate commands; neither is 
subordinate to the other. However, the commands have complementary 
missions, operate within a common security environment, and share an 
integrated headquarters staff. U.S. NORTHCOM is committed to the 
defense of the United States and NORAD, a binational command, is 
committed to the air defense of both the United States and Canada.
    U.S. NORTHCOM anticipates and conducts homeland defense and civil 
support operations within its assigned area of responsibility to 
defend, protect, and secure the United States and its interests. The 
U.S. NORTHCOM area of responsibility encompasses North America, 
Bermuda, the Gulf of Mexico, the Straits of Florida, the Caribbean 
region inclusive of the U.S. Virgin Islands, British Virgin Islands, 
Puerto Rico, the Bahamas, Turks and Caicos Islands, and surrounding 
waters out to approximately 500 nautical miles. We execute an active, 
integrated, layered defense that allows us to rapidly deploy military 
assets needed to defend the United States.
    U.S. NORTHCOM provides assistance in support of civil authorities 
during natural and manmade disasters and pandemic events. Incidents 
begin and end locally, and most are wholly managed at the State or 
local level; however, some incidents require Federal support. When 
requested and approved by the Secretary of Defense or directed by the 
President, Federal military forces will contribute to Federal support. 
On behalf of the Department of Defense (DOD), U.S. NORTHCOM employs 
forces at the request of civil authorities when approved by the 
Secretary of Defense or the President. That said, U.S. NORTHCOM does 
not wait for that call to action. Sweeping improvements in pre-event 
coordination with interagency partners, the National Guard, and the 
Reserves have led to an anticipatory, forward-leaning operational 
sequence for expeditious DOD support when requested by civil 
authorities.
    NORAD, a binational command formed by a partnership between the 
United States and Canada, provides aerospace warning, aerospace control 
and maritime warning for North America. For more than 50 years, NORAD 
has defended the skies of the United States and Canada. Across our two 
countries, armed fighters are on alert and ready to fly air patrols to 
identify and intercept suspect aircraft. NORAD ensures U.S. and 
Canadian air sovereignty through a network of alert fighters, tankers, 
airborne early warning aircraft, and ground-based air defense assets 
cued by interagency and defense surveillance radars.
    U.S. NORTHCOM and NORAD work together in defending our Nation's 
airspace. While NORAD provides aerospace warning and aerospace control, 
U.S. NORTHCOM is responsible for air operations, such as evacuation and 
movement of people and high-value cargo via military airlift, within 
our assigned area of responsibility. In addition, U.S. NORTHCOM has the 
capability to accept control of U.S. air defense alert aircraft to 
conduct unilateral operations, as required and directed.
              homeland defense is our number one priority
Ground-Based Midcourse Defense
    U.S. NORTHCOM is responsible for directing missile defense 
operations within our area of responsibility and Hawaii, to protect the 
homeland from potentially hostile acts. During 2008, we enhanced our 
missile defense capabilities with the incorporation of the Sea-Based X-
Band Radar.
    U.S. NORTHCOM is very active in the Missile Defense Agency's ground 
and flight testing programs to ensure the tests are operationally 
sound. U.S. NORTHCOM missile defense crews are trained and routinely 
exercised to ensure we meet the high standards required to defend the 
Nation.
    To fully ensure U.S. NORTHCOM can perform our missile defense 
mission as assigned, our focus is threefold. The first is 
sustainability and reliability of the current Ground-Based Interceptor 
fleet. Second, U.S. NORTHCOM requires realistic training simulations 
that accurately depict Ballistic Missile Defense System operational 
behavior. In order to train as we fight, we must develop operationally 
viable Tactics, Techniques, and Procedures for new capabilities. We 
continue to work closely with the Missile Defense Agency and U.S. 
Strategic Command on this issue. Lastly, we need a more robust 
architecture that enables day-to-day operations to continue 
concurrently with ongoing research and development activities. The 
Missile Defense Agency's Concurrent Test, Training, and Operations and 
Simultaneous Test and Operations will help bridge the gap between 
operational capability and research, development, test, and evaluation 
activities.
    The Colorado Army National Guard and the Alaska Army National Guard 
are integral parts of our Nation's Ground-Based Midcourse Defense 
system. The 100th Missile Defense Brigade at Schriever Air Force Base 
in Colorado and the 49th Missile Defense Battalion at Fort Greely in 
Alaska are under our operational control as U.S. NORTHCOM defends the 
homeland from long-range ballistic missile threats. DOD has cooperative 
agreements with the States of Colorado and Alaska for manning this 
homeland defense mission with their Army National Guard units. When 
National Guardsmen enter a Ground-Based Midcourse Defense site or 
otherwise commence operational duties, their duty status automatically 
transfers from title 32 to title 10. Command and control of these 
National Guardsmen requires designation of dual-status commanders when 
performing their missile defense mission for U.S. NORTHCOM.
Operation Noble Eagle
    Since the attacks of September 11, NORAD has supported the air 
defense of the United States and Canada through Operation Noble Eagle 
with airspace surveillance, a ready alert force, and the unique 
National Capital Region Integrated Air Defense System. Over 50,000 
sorties have been flown in support of Operation Noble Eagle, with the 
Air National Guard conducting more than 70 percent of these sorties. In 
support of NORAD's missions, Air National Guard units have been 
successfully employing instantaneous title 10 orders for several years. 
These orders allow an individual to volunteer, with the consent of the 
Governor, to be federalized for specific missions prior to execution.
    In the National Capital Region, NORAD continues to improve robust 
air and ground-based air defense systems. Working closely with the 
Federal Aviation Administration and the Transportation Security 
Administration, the National Capital Region airspace has been codified 
by rule to protect our Nation's Capital. This interagency effort meets 
one of NORAD's long-term goals to secure the skies over Washington. In 
addition to the alert fighters at Andrews Air Force Base, the U.S. 
Coast Guard provides NORAD with alert helicopters to intercept low-and-
slow aircraft in the National Capital Region.
    NORAD provides tailored air defense for designated National Special 
Security Events. Recently, NORAD completed support of the 2008 
Democratic and Republican National Conventions and the 2009 
Presidential Inauguration. Working with our interagency partners, NORAD 
provided continuous air defense of the National Capital Region during 
the event.
Northern Sovereignty Operations
    In 2008, the resurgence of Russian Long Range Aviation flights on 
NORAD's northern flank continued at the heightened pace initiated in 
2007. In 2008, pairs of TU-95 Bear-H aircraft flew into the Air Defense 
Identification Zone on seven separate occasions. All but one of these 
flights were unannounced. These bomber aircraft were detected and 
identified by fighters from the Alaskan and Canadian NORAD Regions, 
with critical support from U.S. E-3 surveillance aircraft and air-to-
air refueling aircraft. While foreign aircraft never violated U.S. or 
Canadian airspace, expectations for continued activity and growing 
international interest in the north demand sustained vigilance and 
allocation of resources. NORAD remains vigilant to ensure no 
unauthorized, unwanted, or unknown aircraft enter North American 
airspace.
    U.S.-Canadian cooperation in northern air operations is the 
embodiment of the intent of the NORAD agreement. In 2008, Canada relied 
heavily on our U.S. aerial refueling tankers to deploy fighters to 
Forward Operating Locations and extend their patrols; E-3 Airborne 
Warning and Control System supported operations on both sides of the 
U.S.-Canada border to expand surveillance; and fighter aircraft of both 
nations met the needs of each tactical situation.
    In the future, pursuit of natural resources and the potential 
increase in traffic of northern waterways will demand increased air and 
maritime surveillance, security, and defense in the Arctic Region. A 
binational evaluation is underway to improve the quality and coverage 
of northern surveillance systems; and Canada is investigating the 
expansion of facilities at Resolute Bay, which may provide a more 
northern Forward Operating Location than any currently available. 
Collectively, we will remain vigilant and continue to monitor the 
Arctic approaches to the North American continent.
Southern Sovereignty Operations
    During September 2008, NORAD's integrated air defense assets in and 
around the Continental United States and Canada detected and identified 
a pair of Russian Tu-160 Blackjack heavy bombers participating in 
Russian Air Force activity transiting over the Atlantic on their way 
to/from Venezuela. Russian air assets at no time violated U.S. or 
Canadian airspace. This NORAD operation, in concert with similar 
responses by our North Atlantic Treaty Organization allies, 
demonstrates our continued vigilance and readiness to defend North 
American air sovereignty.
Aircraft Recapitalization
    Our ability to maintain air sovereignty in the future is at risk. 
Legacy fighters are aging and will be stressed to maintain reliability 
and capability as we move into the 2013-2025 timeframe. Recapitalizing 
the fighter, tanker, and airborne early warning aircraft will remain a 
challenge given DOD's post-September 11 long-term mission requirements.
    NORAD's ability to accomplish its missions will be impacted if 
legacy fighters retire without a designated replacement being fielded 
in adequate numbers to maintain NORAD's air defense response 
capability.
    The tradeoff between modernization of legacy airframes and 
transformation to fifth generation aircraft could limit efforts to keep 
pace with emerging challenges. Currently, legacy fighters, tankers, and 
airborne early warning aircraft adequately meet all aspects of the Air 
Sovereignty Alert mission. Recapitalization of legacy aircraft is 
critical to the future success of the NORAD mission set.
    At this time, the Elmendorf Air Force Base F-22s are tasked with 
air sovereignty alert missions and future Hickam Air National Guard F-
22s should expect similar taskings. F-22s are also key participants in 
Operation Noble Eagle sorties from Langley Air Force Base. The F-35 
will play an even larger part in our homeland defense mission due to 
their increased numbers and widespread bed down locations of the 
aircraft they will be replacing. In light of this, I fully support the 
current Air Force program for the F-35. Program numbers will be 
reviewed in the upcoming Quadrennial Defense Review.
        civil support operations--supporting americans in crisis
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        Consequence Management
    Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosive (CBRNE) incidents will pose a great challenge to the security 
of the American people for the foreseeable future. A terrorist attack 
on U.S. soil, an accidental CBRNE incident, or one caused by a natural 
disaster could create catastrophic conditions likely to overwhelm 
response capabilities of civil authorities. As a result, the Secretary 
of Defense has established a requirement for three CBRNE Consequence 
Management Response Forces (CCMRFs) to be trained and ready to respond 
to requests from civil authorities. The DOD, through U.S. NORTHCOM, 
currently has one CCMRF trained and ready to support the Federal 
response to a CBRNE incident. U.S. NORTHCOM will have a second CCMRF in 
2009 and a third CCMRF by 1 October 2010. Each CCMRF is designed to 
provide robust command and control and consequence management 
capabilities that include aviation, medical, and general logistics 
support.
    On 1 October 2008, the Secretary of Defense assigned CCMRF 1 forces 
to the Commander, U.S. NORTHCOM. In September 2008, prior to mission 
assumption, CCMRF 1 participated in a Command Post Exercise at Fort 
Stewart, GA, during Exercise Vibrant Response to verify operational 
capability. The assigned CCMRF will participate in U.S. NORTHCOM-
sponsored joint exercises, and conduct unit training to sustain CCMRF 
readiness and requirements, as well as follow-on missions.
    While CCMRF 1 is comprised mainly of Active-Duty Forces, the second 
and third CCMRFs will be comprised predominately of Reserve and 
National Guard forces. We are working closely with the U.S. Joint 
Forces Command, the National Guard Bureau, the military Services and 
the States on sourcing solutions, training, equipment, readiness, and 
exercise of those forces identified to fulfill CCMRF requirements.
2008 Hurricane Response Operations
    According to the National Oceanic and Atmospheric Administration 
2008 Hurricane Season Recap, there were 16 named storms, of which 8 
became hurricanes and 5 became major hurricanes (Category 3 or higher). 
There were a record six consecutively-named storms, from Dolly to Ike, 
which made landfall on the United States coastline. The majority of DOD 
support occurred in the short timeframe of August and September as a 
result of the hurricane stream of Gustav, Hanna, and Ike. This severe 
impact to several States resulted in civilian agency requests for 
Defense Support of Civil Authorities operations by DOD. U.S. NORTHCOM's 
support to the Federal Emergency Management Agency was extremely 
successful across all areas. Here are just a few vignettes:
    In August 2008, through a collaborative effort between U.S. 
NORTHCOM and U.S. Transportation Command, DOD and National Guard 
personnel evacuated 723 critical care patients out of Louisiana during 
the aeromedical evacuation effort for Hurricane Gustav. During 
Hurricane Ike, DOD and National Guard personnel moved another 400 
patients out of Beaumont, TX. In crisis situations such as these, 
hospitals release many of their less serious cases, but it is a more 
complex challenge to move the seriously ill and injured. We worked 
aggressively and quickly to ensure the right capabilities were in place 
to move patients to the appropriate receiving hospitals.
    Immediately after Hurricane Ike made landfall, U.S. NORTHCOM 
conducted an Incident Awareness and Assessment mission using the U.S. 
Navy's Global Hawk system to demonstrate its usefulness for support of 
civil authorities. The unmanned aircraft took off with a mission set of 
299 locations and was dynamically re-tasked during the mission to add 
imagery requirements from the Department of Homeland Security, U.S. 
Customs and Border Protection, the Federal Emergency Management Agency, 
and the U.S. Coast Guard. The radar imaging sensor was used to cut 
through the prevalent cloud cover. These medium-resolution images were 
sufficient for general damage assessments to infrastructure. Conducted 
in accordance with applicable laws and DOD regulations intended to 
protect the civil liberties of American citizens, these missions 
provided vital situational awareness for DOD forces planning Defense 
Support of Civil Authorities operations. The DOD made the imagery 
available to the wider interagency hurricane response forces via 
dissemination on the Homeland Security Information Network, thus, 
enabling DOD to plan better and provided added benefit for our 
partners.
    Our goal for the 2009 hurricane season focuses on anticipating 
Federal and State requirements to ensure timely and efficient DOD 
assistance. We are working closely with the Joint Chiefs of Staff to 
improve U.S. NORTHCOM authorities and capabilities in the Joint Staff 
Defense Support of Civil Authorities Execute Order. We continue to 
engage our Federal, State, and local partners to enhance DOD 
augmentation of civilian disaster response efforts.
    Additionally, we are identifying gaps and seams in mass fatality 
management between current mortuary affairs capabilities in DOD and 
local, State, and Federal capabilities. Our activities have been geared 
toward integrating efforts that will enhance civil-military 
understanding and collaboration.
    Our mission remains to ensure DOD is prepared to support a timely 
and effective response to catastrophic conditions. We continue to work 
with the Department of Health and Human Services, Office of the 
Assistant Secretary for Preparedness and Response to develop a mass 
fatality concept of operations in accordance with the National Response 
Framework's Emergency Support Function #8--Public Health and Medical 
Services. These efforts will develop fatality management awareness, 
prevention, preparedness, and recovery operations strategies among 
Federal, State, local, tribal, territorial, and non-governmental 
agencies/associations.
    Additionally, we have consulted with Scotland Yard in London, 
England, to ascertain how the British plan and prepare for mass 
fatality incidents. Closer to home, we partnered with the New York City 
Office of Chief Medical Examiner on a regional mass fatality management 
plan, which leverages the expertise and assets currently existing in 
the New York City metropolitan area to ensure maximum coordination 
among relevant stakeholders.
Wildland Firefighting
    During wildland firefighting operations, DOD, through U.S. 
NORTHCOM, supports the National Interagency Fire Center and the Federal 
Emergency Management Agency. U.S. NORTHCOM provides a variety of 
capabilities including Modular Airborne Fire Fighting System (MAFFS)-
capable C-130s, rotary wing aircraft capable of water bucket 
operations, ground crews for fire fighting operations, and incident 
awareness and assessment capability. There are a total of eight MAFFS; 
six are National Guard assets and two are assigned to Reserve units. 
The new MAFFS II capability will be used by the C-130H/J aircraft 
beginning this year and will provide greater capability to distribute 
fire suppression retardant. I am particularly pleased that the C-130Js 
of the California Air National Guard have been added to the MAFFS fleet 
this year.
    U.S. NORTHCOM is also working with the National Guard Bureau to 
create a trained cadre of National Guard ground fire fighters that is 
pre-identified and ready pre-fire season to rapidly respond around the 
country.
Civil Support Operations
    Beyond disaster response, U.S. NORTHCOM provided DOD support to 
five National Special Security Events over the past year: The 
President's 2008 State of the Union Address, 2008 Democratic and 
Republican National Conventions, the 2008 G-20 Global Financial Summit, 
and the 2009 Presidential Inauguration. For each of these events, U.S. 
NORTHCOM provided unique Secretary of Defense-approved DOD capabilities 
to enhance the security of the event.
Support to Law Enforcement Agencies
    Through our subordinate unit, Joint Task Force North (JTF North), 
we continue to sustain important relationships with Federal law 
enforcement agencies and National Guard counterdrug task forces engaged 
in securing our nation's borders against drug traffickers and their 
associated activities. JTF North collaborates with operational-level 
leaders in U.S. Customs and Border Protection; Immigration and Customs 
Enforcement; U.S. Coast Guard; Drug Enforcement Administration; Federal 
Bureau of Investigation (FBI); Bureau of Alcohol, Tobacco and Firearms; 
National Guard Bureau; and State Joint Force Headquarters leadership in 
the States where JTF North operates. These relationships foster timely 
and responsive military support to law enforcement and provide greater 
interagency synchronization to deter and prevent drug trafficking and 
associated transnational threats.
    JTF North coordinated 55 missions in support of Federal law 
enforcement agencies during fiscal year 2008. In accordance with 
applicable law and DOD policy for supporting law enforcement's 
counterdrug efforts, JTF North employed joint air, ground, and maritime 
sensors along the Nation's southwest and northern borders and coasts; 
conducted detection and monitoring of suspected trafficking threats; 
provided for information and intelligence sharing among law enforcement 
agencies; supported the U.S. Border Patrol's requests for enhanced 
tactical infrastructure along the southwest border; and provided 
Federal law enforcement with other support such as transportation, 
tunnel detection capabilities, and basic military skills training.
Counter-Tunnel Initiative
    More than 99 cross-border tunnels have been identified by U.S. law 
enforcement agencies, in many cases with DOD support. While illegal 
drugs constitute the vast majority of illicit cargo transported through 
these tunnels, they could also be used to smuggle terrorists and 
weapons of mass destruction into the country. U.S. NORTHCOM is 
examining enhanced tunnel detection capabilities with the lead Federal 
partner, the Department of Homeland Security, other combatant commands, 
and international partners. Among these enhanced capabilities are 
seismic-acoustic and linear fiber-optic sensors, other technologies, 
and robotics. The U.S. Army Engineer Research and Development Center 
(ERDC) is the technical lead for these capability development efforts. 
ERDC has worked on tunnel detection in Iraq and provided subject matter 
expertise to U.S. NORTHCOM in support of U.S. law enforcement agencies.
Northern Border Security Operations
    During fiscal year 2008, U.S. NORTHCOM, through JTF North, 
conducted 12 counterdrug/counter-narcoterrorism missions along the 
northern border including aviation reconnaissance, ground-based radars, 
mobile training teams and intelligence analysis support. During fiscal 
year 2009, U.S. NORTHCOM has nine counterdrug/counternarcoterrorism 
missions scheduled through JTF North. These missions, in support of 
U.S. Customs and Border Protection and the U.S. Coast Guard, will 
employ aviation reconnaissance, ground and maritime radars, and mobile 
training teams in Washington, Vermont, Montana, and New York against 
illicit trafficking along the northern border. In all these operations, 
JTF North works with Canadian law enforcement and military via U.S. law 
enforcement agencies, as well as the U.S.-Canada Integrated Border 
Enforcement Teams. JTF North also participates in military-to-military 
activities to foster greater security cooperation between the United 
States and Canada to improve our collective security situation along 
our northern border.
   the national guard and reserves--vital components of our nation's 
                                defense
    The National Guard and Reserve Forces are fundamental to the total 
force and essential to our homeland security and defense. U.S. NORTHCOM 
is committed to working with all stakeholders to implement the 
Secretary of Defense's 24 November 2008 direction in response to 
recommendations in the Final Report of the Commission on the National 
Guard and Reserves.
    U.S. NORTHCOM seized the opportunity and responsibility to advocate 
for the Reserve component in support of homeland defense and civil 
support missions. Leveraging opportunities to fix National Guard and 
Reserve shortfalls is critical to the success of the U.S. NORTHCOM and 
NORAD missions. In an environment of constrained budgets and multiple 
priorities, we need to determine where these requirements converge and 
give equal deference to materiel and non-materiel solutions alike.
    U.S. NORTHCOM is a strong advocate for Reserve component resourcing 
for the capabilities needed by National Guard and Reserve Forces in 
support of U.S. NORTHCOM missions. In each of our annual Integrated 
Priority Lists and Program Objective Memorandum submissions to the DOD, 
U.S. NORTHCOM and NORAD advocate for and support National Guard and 
Reserve capability shortfalls. We also advocate for and support 
National Guard Bureau efforts to validate key initiatives such as Joint 
Continental United States Communications Support Environment and Beyond 
Line-of-Sight communications for our Air Sovereignty Alert fighters.
    In June 2008, U.S. NORTHCOM hosted the second Reserve component 
Advocacy Conference wherein over 50 senior leaders discussed how best 
to advocate for the capabilities needed by Guard and Reserve Forces in 
support of U.S. NORTHCOM missions. We are advocating for change to DOD 
policies that allow for more collaborative planning to ensure proper 
resourcing for National Guard and Reserve units' equipment, personnel, 
and training for homeland defense and civil support operations.
    Since testifying last year, we have successfully partnered with the 
National Guard in support of several planned and unplanned civil 
support and homeland defense events. Every operation strengthens our 
ability to collaborate effectively and I am proud to report that while 
we still have work to do, our relationship with the National Guard 
continues to mature and has never been better. Today, my senior leaders 
meet regularly with their National Guard Bureau counterparts to 
identify and resolve issues in advance of an emergency. Additionally, 
our action officers coordinate daily on a variety of deliberate and 
crisis action planning requirements. Our watch centers are in constant 
communication with one another to ensure shared awareness. Finally, 
U.S. NORTHCOM and the National Guard Bureau partner to conduct training 
and exercises for all State Joint Force Headquarters Joint Task Force 
Commanders and their staffs.
    U.S. NORTHCOM directly supports the National Guard Bureau 
initiative to establish the Defense Readiness Reporting System in all 
54 States and territories. This is a 5-year effort and once completed, 
asset availability, capabilities, and readiness information will be 
available to Commander, U.S. NORTHCOM and NORAD for all homeland 
defense and civil support operations. To date, initial assessments are 
complete in 45 of the 54 States and territories and are currently 
visible in the Defense Readiness Reporting System.
    It is notable that nearly 10 percent of U.S. NORTHCOM's current 
full-time military manpower is drawn from the Reserve component. This 
is the highest percentage of Reserve component manning of the ten 
combatant commands. We have benefited from the full-time National Guard 
and Reserve expertise and look forward to full manning of our 
authorized full-time positions. I am very pleased to have ten flag 
officers from the National Guard and Reserves among my 21 total flag 
leaders in Headquarters NORAD and U.S. NORTHCOM and our subordinate 
commands.
                 plans--the foundation of our response
    U.S. NORTHCOM's homeland defense and civil support plans are vital 
to the Nation's ability to deter, prevent and defeat threats to our 
security, and support civil authorities when called upon by the 
President or Secretary of Defense. They provide a template for U.S. 
NORTHCOM responses and are continuously updated to reflect evolving 
national security requirements. NORAD's plans similarly ensure timely, 
effective responses to threats to the security of the United States and 
Canada.
    With regard to homeland defense and civil support, the Department 
of Homeland Security and the interagency community use the 15 National 
Planning Scenarios as a vehicle to shape nation-wide planning efforts 
for terrorist attacks and natural disasters. U.S. NORTHCOM plans, such 
as Concept Plan 3501, Defense Support of Civil Authorities, address all 
of the National Planning Scenarios that may require U.S. NORTHCOM 
support.
    With the recent development of the Department of Homeland 
Security's Integrated Planning System, there is now a formal process to 
link and integrate Federal plans across departments and agencies and in 
the future with State governments and local partners. Leveraging the 
Integrated Planning System will allow U.S. NORTHCOM planners to gain 
fidelity on Federal planning, refine potential support requirements, 
and advocate for essential capabilities and resources.
    U.S. NORTHCOM civil support planners work closely with their 
counterparts at the National Guard Bureau. In addition to formal 
coordination at every stage of plan development, and regularly 
scheduled meetings conducted with web-based conferencing tools, U.S. 
NORTHCOM and National Guard Bureau planners have begun meeting during 
planning conferences every 6 months. In December 2008, National Guard 
Bureau planners, and several State National Guard planners, met to 
discuss the status of U.S. NORTHCOM plans and National Guard Bureau 
initiatives. In February 2009, interagency planners attended the U.S. 
NORTHCOM Civil Support and Homeland Defense Planners Conference where 
U.S. NORTHCOM component planners presented their supporting plans to 
U.S. NORTHCOM overarching strategic plans. These meetings foster the 
working relationships that are so vital to synchronize our national 
response in times of crisis.
    In September 2008, I signed our U.S. NORTHCOM Theater Campaign 
Plan, a first for the command. This campaign plan synchronizes day-to-
day operations, placing strong emphasis on three focus areas: 
anticipating threats to our continental security, improving our 
homeland defense and civil support plans and capabilities, and 
strengthening relationships with our mission partners, including the 
interagency community, Canada command and the Mexican military.
                      interoperable communications
    U.S. NORTHCOM communications efforts are focused on ensuring a 
prompt, coordinated response with our mission partners in the 
Department of Homeland Security, Federal Emergency Management Agency, 
the National Guard, States, and local organizations. In partnership 
with the Federal Emergency Management Agency and the National Guard, we 
maintain a combined total of 25 Deployable Cellular-Based Suites which 
include cellular towers, satellite communications connectivity, Land 
Mobile Radio interfaces, and ancillary devices for emergency 
responders. Several of these systems were deployed during Hurricane Ike 
and supported the response efforts in Galveston, TX. We have also 
worked to upgrade DOD Satellite Communications Facilities within the 
United States. These upgrades enable DOD units to provide much sought 
after Internet and telephone connections to civil authorities during a 
crisis.
                               exercises
    Each year, U.S. NORTHCOM and NORAD sponsor two large-scale 
exercises (Ardent Sentry and Vigilant Shield) and participate in over 
30 smaller regional, State, and local exercises, along with exercises 
with Canada, such as exercises in preparation for the Vancouver 2010 
Olympics. We continually review lessons learned from past exercises and 
real-world events (such as Hurricanes Gustav and Ike) and take 
corrective action by incorporating identified best practices. These 
actions are an integral part of our exercise program.
    Over the last several years we have collaborated closely with the 
Joint Staff, the Office of the Secretary of Defense, the Department of 
Homeland Security, other Federal departments and agencies, and States 
to develop and refine the National Exercise Program. Our civil support 
exercises are now fully integrated with the National Exercise Program 
and are often linked with the Tier I National Level Exercise and 
several Tier II or III Federal-level exercises, mutually supporting our 
own exercise objectives and those of our partners in the Federal 
Government, State and regional organizations, local and tribal 
governments, and the private sector.
    In conjunction with the National Guard Bureau, U.S. NORTHCOM 
sponsors Vigilant Guard, a joint regional exercise program for the 54 
State National Guard Joint Force Headquarters and their Joint Task 
Forces and Field Units, to improve command and control and operational 
relationships with internal, regional civilian, Federal, and other 
military partners. The Vigilant Guard team works side-by-side with our 
NORAD and U.S. NORTHCOM exercise planners to coordinate and synchronize 
our training efforts. Two of the four annual Vigilant Guard exercises 
are linked with major NORAD and U.S. NORTHCOM exercises, like Ardent 
Sentry and Vigilant Shield, or the annual National Level Exercise.
    To date, 14 Vigilant Guard exercises have been conducted, with 
participation from 39 States and territories (representing more than 
8,000 National Guardsmen) and scores of Federal, State, and local level 
government agencies and first responders. The Vigilant Guard program 
exemplifies the successful partnership among uniformed defenders of the 
homeland--NORAD, U.S. NORTHCOM, and the National Guard Bureau--and 
helps assure the American public that we are ready for the mission.
                              partnerships
Canada
    The NORAD binational defense agreement is a tremendous example of 
the closeness and richness of our defense relationship with Canada. The 
bilateral relationship between U.S. NORTHCOM and Canada command also 
continues to mature. On 14 February 2008, I joined my counterpart, 
Lieutenant General Dumais from Canada command, in signing the United 
States-Canada Civil Assistance Plan. The Civil Assistance Plan is the 
framework under which military forces of one nation support the 
military forces of the other nation to provide timely, effective, and 
efficient support to their respective civil authorities.
    Since then, the Civil Assistance Plan has been used once during 
real-world operations and several times during exercises. Following the 
appropriate exchange of diplomatic notes, we successfully executed this 
plan during the 2008 hurricane season when a Canadian C-17 aircraft 
assisted us with aeromedical evacuation operations during Hurricane 
Gustav. As we look to the future, the Civil Assistance Plan provides a 
framework for collaborative planning, training, and exercises in 
preparation for events such as the Vancouver 2010 Olympics.
    Last year I reported that U.S. NORTHCOM, NORAD, and Canada Command 
initiated a study to examine future roles, missions, and relationships 
for the three commands, with a desired end state of strengthening North 
American defense and security while enhancing the valued relationship 
between Canada and the United States. The study continues, and we have 
made significant progress in maturing our relationships and promoting 
enhanced military cooperation among the commands, including work on a 
proposed framework which will assist in clarifying how the three 
commands operate and interact, highlight fundamental relationships, and 
underscore individual command responsibilities concerning mutual 
support and cooperation.
    In an effort to advance our partnership with Canada Command toward 
enhanced continental defense and security, our commands are also 
jointly developing various plans to provide a strategic framework for 
the bilateral defense and security of the United States and Canada, 
building on the existing U.S.-Canada Basic Defense Document and NORAD 
Agreement. These plans will, if required and authorized by our 
respective governments, provide a bilateral construct for employing the 
military forces of the United States and Canada in coordinated or 
combined operations, when not already covered by the NORAD Agreement.
Mexico
    Our relationship with Mexico has never been better and continues to 
strengthen every day. Over the past year, we have advanced our 
relationship from one of introductions and orientation visits to one of 
open, frequent, and frank discussions on how we can improve our 
collective security from common threats. The Government of Mexico is 
engaged in a difficult campaign against organized violent criminal 
networks that claimed over 5,000 lives in 2008. Your support of the 
Merida Initiative and DOD counternarcotics programs is helping to build 
the Mexican military's ability to counter threats to our mutual 
security. We especially thank Congress for approving our request for 
critically needed equipment under fiscal year 2008 Section 1206 
authority. This enabled us to coordinate the first U.S. military 
equipment support to Mexico since the command was activated in 2002. 
This equipment, all of which is non-lethal, includes personal 
protective equipment, digital media forensics equipment, night vision 
devices, and equipment needed to board suspect vessels at sea. We are 
now finalizing the requirements for delivery of transport helicopters 
and maritime surveillance aircraft to the Mexican military under the 
Merida Initiative.
    U.S. NORTHCOM has teamed with the Department of State, the U.S. 
Geological Survey, Agency for International Development, Federal 
Emergency Management Agency, and the Environmental Protection Agency to 
execute Building Partnership Capacity and Humanitarian Assistance 
programs within our area of responsibility. One example of our efforts 
includes cooperation exhibited by Mexico's first acceptance of large-
scale, DOD-provided civil material assistance consisting of 100,000 
personal protective ensembles from the Defense Security Cooperation 
Agency excess property program. Because Mexico is our neighbor and 
disasters do not respect national boundaries, we are focused on 
developing and improving procedures to respond to potentially 
catastrophic events such as pandemic influenza outbreak, mass exposure 
to dangerous chemical and materials, and natural disasters. It is 
important to note that some of our international partners in these 
endeavors include domestic agencies such as Proteccion Civil in Mexico, 
who is responsible for consequence management response.
    U.S. NORTHCOM representatives recently participated in a Western 
Hemisphere Institute for Security Cooperation (WHINSEC) Board of 
Visitors curriculum review; the first such participation by U.S. 
NORTHCOM. Our review helped ensure WHINSEC training supports Mexican 
efforts against Drug Trafficking Organizations while simultaneously 
emphasizing human rights. In both areas, WHINSEC has performed superbly 
in support of our Theater Campaign Plan. Last year, Admiral Stavridis 
and I wrote a letter of support to Congress expressing the importance 
of safeguarding the privacy of WHINSEC students and staff.
Caribbean Islands, The Third Border
    The 2008 Unified Command Plan shifted the U.S. NORTHCOM and U.S. 
Southern Command boundaries in the Caribbean. U.S. NORTHCOM's area of 
responsibility now includes Puerto Rico and the U.S. Virgin Islands and 
the sovereign islands of the Bahamas, and two dependencies of the 
United Kingdom (the Turks and Caicos and British Virgin Islands).
    Admiral Stavridis and I proposed this change for a number of 
reasons. First, it simplifies the homeland defense and civil support 
missions with Puerto Rico and the Virgin Islands. Second, because the 
Bahamas are just 90 miles from the United States and considering its 
close relationship with our Federal interagency partners as well, we 
enhanced our capabilities in this critical sector.
    As we have with Canada and Mexico, we will develop a theater 
engagement strategy for our ``Third Border'' with the Bahamas, Puerto 
Rico, the U.S. Virgin Islands, the Turks and Caicos, and the British 
Virgin Islands. Our strategy will build on existing relationships 
established by U.S. Southern Command and the Joint Interagency Task 
Force South to strengthen our Nation's counterterrorism and 
counternarcotics capabilities in the Caribbean.
Interagency Community
    For U.S. NORTHCOM to be successful in protecting the United States 
and its interests, we must support other agencies in working toward 
common objectives and building the capacity of partners. Our U.S. 
NORTHCOM and NORAD Interagency Coordination Directorate and the 
Commander's Joint Interagency Coordination Group integrate and 
synchronize information and activities among multiple civilian, 
Federal, State, and private sector organizations. This interagency 
Group is comprised of full-time professionals representing 40 agencies 
resident at U.S. NORTHCOM Headquarters or in the local area. Some of 
the Federal departments and agencies represented are the Department of 
State; the Department of Homeland Security (including the Federal 
Emergency Management Agency), U.S. Customs and Border Protection, the 
Transportation Security Administration, and U.S. Coast Guard; 
Department of Health and Human Services; Department of Transportation; 
Federal Aviation Administration; Central Intelligence Agency; FBI; U.S. 
Geological Survey; and U.S. Army Corps of Engineers.
    U.S. NORTHCOM's planning and operations staffs collaborate with our 
interagency partners to integrate and synchronize plans, security and 
emergency response activities. We host an informal Interagency Planner 
Synchronization Working Group at the national level on a biweekly 
basis. This type of collaboration has enabled us to execute a ``whole-
of-government'' approach to planning, and has significantly improved 
cross-agency collaborative planning between the Department of Homeland 
Security, Federal Emergency Management Agency, the Department of Health 
and Human Services, Centers for Disease Control and Prevention, U.S. 
Army Corp of Engineers, Office of the Secretary of Defense, the Joint 
Staff, National Guard Bureau, U.S. NORTHCOM and component command 
planning staffs. We continue to see this collaborative effort expand as 
additional agencies choose to join.
    U.S. NORTHCOM's Joint Intelligence Operations Center North invests 
heavily in the Intelligence Community networks established to improve 
analysis and warning of international terrorist threats to North 
America. Working with the Defense Intelligence Agency, we have assigned 
a senior terrorism analyst to work in the National Counterterrorism 
Center Defense Intelligence Unit. The Defense Intelligence Unit serves 
as a critical information-sharing advocate for all commands and DOD 
stakeholders. Defense Intelligence Unit analysts work within the 
National Counterterrorism Center with full access to both widely 
disseminated and more sensitive Intelligence Community information on 
terrorism.
    We also continue to grow our critical information-sharing 
partnership with the FBI. The focal point for this relationship is our 
intelligence liaison officer assigned to the FBI's National Joint 
Terrorism Task Force. Additional analyst-to-analyst collaborative 
efforts regarding specific threats of mutual concern are robust and 
growing. In a step that will immeasurably benefit our preparedness and 
collaboration on shared threats, the FBI embedded one of their 
experienced terrorism analysts within U.S. NORTHCOM's Joint 
Intelligence Operations Center North Terrorism Analysis Division in 
February 2009.
    DOD liaison officers from U.S. NORTHCOM, the Joint Staff, and the 
National Guard Bureau are assigned to Headquarters, Federal Emergency 
Management Agency to facilitate information sharing, coordination, and 
planning efforts for contingency response. These postings help to 
maintain effective coordination of plans and activities, enhance 
exchange of knowledge and advice, and facilitate effective relationship 
building. We maintain visibility of the Federal Emergency Management 
Agency's logistical preparations and Defense Logistics Agency-sourced 
deliveries. This improves situational awareness, helps reduce the need 
for short-notice airlifts, and improves our ability to anticipate and 
rapidly respond to emerging requirements during defense support of 
civil authorities missions.
    U.S. NORTHCOM has assigned Defense Coordinating Officers, supported 
by Defense Coordinating Elements, to each of the ten Federal Emergency 
Management Agency Regions to ensure close coordination in planning and 
operations. U.S. NORTHCOM and the Federal Emergency Management Agency 
also co-sponsor an annual Federal Coordinating Officer--Defense 
Coordinating Officer Conference designed to maintain and enhance civil-
military understanding and support for disaster response planning 
activities.
    U.S. NORTHCOM has made considerable progress in developing 
appropriate planning relationships between the Department and Private 
Sector/Non-Governmental Organizations (PS/NGO) entities (business, 
nonprofit, nongovernmental, faith-based, and academia). We teamed 
recently with the Federal Emergency Management Agency Private Sector 
office to cohost a first ever ``Public/Private Sector Collaboration in 
Disaster Preparedness and Response'' Conference. This conference 
significantly enhanced DOD and U.S. NORTHCOM collaboration with PS/NGOs 
who own or manage some 85 percent of our Nation's critical 
infrastructure and play a major part in disaster response. It's 
important to note that we are not attempting to take over or direct the 
private sector; however, we do believe we should be an active member of 
the overall preparedness and response community.
    In coordination with the Federal Emergency Management Agency and 
the National Guard Bureau, U.S. NORTHCOM continues the deliberate 
development of relationships with State governments and organizations 
that represent constituencies. As a primary example of our State 
engagement efforts, we have teamed with the Federal Emergency 
Management Agency and the National Guard Bureau to develop and execute 
internal and tailored training for requested States. We continue to 
work in partnership with the National Guard Bureau, with State 
Adjutants General, and State Joint Force Headquarters to identify gaps 
and shortfalls, specific all hazard events, and other critical issues. 
Our State engagement outreach also includes the Adjutants General 
Association of the United States and National Governors Association.
U.S. Coast Guard
    The operational relationship between U.S. NORTHCOM and the U.S. 
Coast Guard provides a flexible, time-critical response, and immediate 
access to the full spectrum of capabilities and forces to ensure 
maritime security and defense of the United States. U.S. NORTHCOM and 
the U.S. Coast Guard coordinate for operations in multiple national 
defense mission areas: maritime intercept operations, rotary wing air 
intercept operations, mine countermeasures operations, maritime 
security and defense, counterdrug operations, migrant interdiction, 
theater security cooperation, and military environmental response 
operations. U.S. Coast Guard personnel are fully integrated within the 
U.S. NORTHCOM staff, and the U.S. NORTHCOM staff is fully engaged with 
U.S. Coast Guard Pacific and Atlantic Area Commands in maritime 
planning and execution.
                       enhancing our capabilities
United States-Canada Defense Surveillance Gapfiller Strategy
    U.S. NORTHCOM and NORAD lack adequate real-time, persistent, multi-
domain surveillance and command and control capabilities for North 
American defense. Wide Area Surveillance capability is critical to 
development of an Integrated Air and Missile Defense of the Homeland; 
however, existing surveillance assets are inadequate and aging.
    Gapfiller is the U.S. NORTHCOM and NORAD Family-of-Systems strategy 
to improve command and control and wide area surveillance of the North 
American continent and enable the engagement and defeat of missiles 
prior to impact in the homeland. Current gaps in the Joint Engagement 
Sequence (i.e., kill chain) leave our countries vulnerable to attacks 
in multiple domains. To address these gaps, we are conducting two 
technology demonstrations.
    Gapfiller will integrate currently disparate command and control 
surveillance systems including those of other agencies and will 
integrate an advanced surveillance capability for initial improvement 
of homeland defense and security initiatives. Doing so will provide 
ground truth information to DOD, the Department of Homeland Security, 
and other civilian organizations.
    The second effort is a Technology Risk Reduction Initiative for the 
Next Generation Over-the-Horizon Radar. Leveraging existing U.S. and 
Australian collaboration, this Technology Risk Reduction Initiative 
should greatly improve our ability to surveil the approaches to the 
homeland. The command and control JCTD will provide the Over-the-
Horizon Radar picture to all mission partners. Together, these 
initiatives lay the foundation for improved integrated wide area 
surveillance around North America and a coherent, shared operational 
picture that allows us to detect, respond to, and prevent asymmetric 
attacks against the homeland.
Unmanned Aircraft Systems
    During 2008 in response to requests from U.S. law enforcement 
agencies, U.S. NORTHCOM employed Unmanned Aircraft Systems (UASs) along 
the U.S. southwest border. A Global Hawk was employed during the 
Southern California Wildfires to provide State and local officials with 
imagery to assist in firefighting efforts. As previously stated, U.S. 
NORTHCOM employed a Global Hawk to obtain pre- and post-landfall 
imagery of coastal areas in the path of Hurricane Gustav.
    U.S. NORTHCOM is fully engaged with the UAS community through our 
membership on the Joint UAS Center of Excellence Advisory Council and 
our participation on the Policy Board for the Federal Aviation UAS 
Subgroup. We are eager to team with our partners at the Department of 
Homeland Security as they expand their UAS operational capabilities to 
achieve synergy with our homeland defense and homeland security 
efforts. We will be hosting a National Summit for UAS stakeholders this 
spring to help determine the best way forward on employing UAS 
capabilities in the national airspace.
Arctic Policy
    The law of the sea, as reflected in the 1982 Convention on the Law 
of the Sea, is the foundation of the extensive international legal 
framework that applies to the Arctic Ocean. Although all other nations 
bordering the Arctic are parties to the Convention, the United States 
has yet to join the treaty. Becoming party to the Convention would 
protect and advance
    U.S. interests in the Arctic by bolstering our national security 
(including the maritime mobility of our Armed Forces), securing U.S. 
sovereignty rights over extensive marine areas (including the valuable 
natural resources they contain), and giving the U.S. a seat at the 
table when rights vital to our interests are debated and interpreted.
    The State Department leads U.S. Arctic policy and, together with a 
number of Federal agencies, implements the policy through the Arctic 
Council and bilaterally with other Arctic states. National Security 
Presidential Directive-66 and Homeland Security Presidential Directive-
25 (NSPD-66/HSPD-25) advocate for increased United States regional 
presence, maritime domain awareness, freedom of navigation, and the 
ratification of 1982 Convention on the Law of the Sea. NSPD-66/HSPD-25 
also states that the United States ``is prepared to operate either 
independently or in conjunction with other states'' to safeguard its 
Arctic interests. Through NORAD, we have an opportunity to work closely 
with Canada in enhancing aerospace and maritime domain awareness in the 
Arctic. There is also potential for significant bilateral cooperation 
with Canada, through collaboration with Canada Command.
Transformational Communications
    NORAD requires survivable, protected, and dynamic satellite 
communications capabilities throughout our area of operations and among 
all of our assets. At the same time, U.S. NORTHCOM requires dynamic 
satellite communications for capacity and coverage throughout the 
entire area of responsibility that will support real-time joint force 
networking, battle space awareness and land-, air-, and sea-borne 
command and control, intelligence, surveillance, and reconnaissance. 
For both commands, the current and emerging missions within the Arctic 
region require the expansion of current and planned polar satellite 
communications capabilities. Our networks must seamlessly bridge with 
Federal, State, and local agencies. In my view, transformational 
satellites continue to offer the most viable course of action to 
satisfy our requirements for high-speed, secure, protected, 
dynamically-allocated and efficiently-utilized communications.
Biometric Access Control Enterprise
    Biometrics is increasingly important in many areas of security. 
U.S. NORTHCOM plans to capitalize on this technology by fielding a 
networked, interoperable, biometrically-enabled installation access 
control enterprise for military installations in the United States. 
Biometric access control systems are already in use overseas and we 
believe now is the time to apply the same vigilance here at home to 
protect our people, installations, and critical infrastructure from 
obvious threats.
Deployable Homeland Air and Cruise Missile Defense
    One of the more stressing challenges U.S. NORTHCOM and NORAD will 
face in defense of the homeland in the near future is emerging air 
threats to include low flying aircraft, cruise missiles, unmanned 
aircraft systems, and short- and medium-range ballistic missiles. The 
United States lacks an integrated air and missile defense capable of 
defending against these threats. As the threat of terrorism looms and 
the proliferation of advanced asymmetric capabilities grows, it becomes 
increasingly important to develop a truly integrated air and missile 
defense system-of-systems tailored to meet the unique needs of the 
homeland.
    In the past year, U.S. NORTHCOM and NORAD have made significant 
strides toward protecting the homeland against these threats by 
developing a viable Integrated Air and Missile Defense Concept of 
Operations. To prepare for future homeland threats, U.S. NORTHCOM and 
NORAD worked closely with the Joint Air Defense Operations-Homeland 
Joint Test Team and participated in the Defense of the Homeland Against 
Asymmetric Missile Attack experiment. As the operational sponsors of 
Joint Air Defense Operations-Homeland, U.S. NORTHCOM and NORAD assisted 
in developing Tactics, Techniques, and Procedures for a Deployable 
Homeland Air and Cruise Missile Defense capability. This mobile 
capability could be used to protect a particular venue or city which 
may be threatened or at risk. Participation in the Defense of the 
Homeland Against Asymmetric Missile Attack experiment provided an 
excellent opportunity to test the draft Integrated Air and Missile 
Defense Concept of Operations and to validate the command and control 
relationships.
Wind Farm Interference
    NORAD faces a unique challenge as the United States seeks greater 
energy independence. We must continue to work closely with the 
Department of Energy laboratories and the alternative energy industry 
to ensure our technologies do not render each other's technology 
useless. We need to identify mitigation techniques that will allow wind 
turbines and radars to coexist.
Cyberspace Infrastructure
    Cyberspace attacks on our information infrastructure can adversely 
impact our national security posture. Our opponents in this domain are 
sophisticated, well-resourced, and persistent. Their objectives are to 
disrupt operations, deny service, and exploit information and 
technology. To effectively execute assigned missions, U.S. NORTHCOM and 
NORAD must ensure the uninterrupted use of the Internet as well as 
commercial and DOD communications systems. We partner with U.S. 
Strategic Command, the military Services, DOD agencies, and the 
Department of Homeland Security to reduce cyberspace vulnerabilities 
and defend against information infrastructure attacks. While this 
partnership is sufficient, more coordination and cooperation is 
required to ensure we operate effectively during major cyberspace 
incidents.
Maritime Domain Awareness
    The maritime domain enables our Nation's growth. In order to ensure 
freedom of movement for all law abiding entities while identifying 
threats prior to realization, it is imperative that we have a picture 
of the maritime domain and its relationship to activities in other 
domains. Maritime Domain Awareness represents a global challenge 
requiring focused efforts. U.S. NORTHCOM has a fundamental requirement 
for maritime domain awareness in order to execute our missions. 
However, we need to develop a common operational picture based on a 
common system architecture between the United States and Canada. This 
will result in enhanced Maritime Domain Awareness to predict, identify, 
and intercept vessels of interest as well as enhance and formalize 
information sharing between partner agencies and departments. In this 
regard, we will continue to work closely with the U.S. Navy, U.S. Coast 
Guard, as well as our Canadian and other international partners.
    U.S. NORTHCOM has also partnered with U.S. Pacific Command to 
develop a Maritime Domain Awareness Joint Integrating Concept. It 
describes how the joint force will conduct future (2016-2028) maritime 
operations to understand the maritime domain and will help identify 
requirements to achieve maritime domain awareness. This document will 
be completed in summer of 2009 and will lead to the development of 
processes necessary for Maritime Domain Awareness, a key enabler for 
the range of military options in the maritime domain across the 
Department of Defense. It will help shape DOD's contribution to global 
Maritime Domain Awareness.
    Finally, Maritime Domain Awareness is a critical enabler for the 
execution of NORAD's maritime warning mission. A major milestone 
occurred in November 2008 during Exercise Vigilant Shield when NORAD 
issued its first series of Maritime Warning Messages which validated 
procedures and confirmed the ability to provide strategic warning of a 
maritime threat to the Governments of the United States and Canada. 
Despite this success, seams and gaps in process, policy, documentation, 
classification and releasability, as well as technical impediments to 
cross-border information sharing in the maritime domain, persist.
                              conclusion.
    Today, our team of Active Duty members, Reserve Forces, National 
Guardsmen, Canadian servicemembers, and civilians are trained and ready 
to defend the United States and Canada and support civil authorities in 
times of crisis. With Congress' sustained support, U.S. NORTHCOM and 
NORAD will continue to anticipate our Nations' needs and be ready to 
protect and defend our fellow citizens and the freedoms they enjoy.

    Chairman Levin. Thank you so much, General.
    General Ward.

STATEMENT OF GEN WILLIAM E. WARD, USA, COMMANDER, UNITED STATES 
                         AFRICA COMMAND

    General Ward. Chairman Levin, Senator McCain, distinguished 
members of the committee, thank you for the opportunity to 
provide this overview of your Nation's newest geographic 
command, AFRICOM.
    Also with me today are Mary Pleffner from the Department of 
Commerce, who is a member of my staff, as well as Jerry Lanier 
from the Department of State. I'm also honored to appear 
alongside my distinguished colleagues who provide such great, 
great collaborative efforts as we pursue our Nation's security 
objectives.
    Last year, I talked to you about our plan to put a 
headquarters together. Today, AFRICOM is executing our mission 
of conducting sustained security engagement through military-
to-military programs and military-sponsored activities that are 
designed to promote a more stable and secure African 
environment. We work in concert with other U.S. Government 
agencies and international partners to ensure that our 
activities are harmonized. Our strategy is based on military-
to-military efforts to enhance the security capacity and 
capability of our African partners.
    In many engagements with African leaders during my time as 
Commander, AFRICOM, and previously as Deputy Commander for 
United States European Command (EUCOM), the consistent message 
they give me is their intent for their nations to provide for 
their own security. Most welcome AFRICOM's assistance in 
meeting their goals for security forces that are legitimate and 
professional, have the will and means to dissuade the terror 
and defeat transnational threats, perform with integrity, and 
are increasingly able to support the missions in support of 
international peace.
    We work as a part of an overall U.S. Government effort. We 
work closely with the Department of State, the chiefs of 
mission and country teams, the United States Agency for 
International Development (USAID), the Departments of Treasury, 
Commerce, Homeland Security, Agriculture, and other agencies 
doing work on the continent, and I fully support enhancements 
to the capabilities of our interagency teammates.
    Similarly, we reach out to international partners, 
including Europeans, international organizations, 
nongovernmental organizations, private enterprises, and 
academia. Their perspectives on the situation in Africa are 
valuable.
    AFRICOM is involved in military training, education, 
sustainment, and logistics support, among other activities, 
throughout our AOR. The combined Joint Task Force-Horn of 
Africa, headquartered in Djibouti, conducts training, 
education, and civil-military assistance that helps prevent 
conflict and promote regional cooperation among nations of 
eastern Africa. Operation Enduring Freedom-Trans-Sahara is the 
military component of the Department of State's 
counterterrorism partnership with north and west African 
nations. Africa Endeavor is an annual communications and 
interoperability exercise that this year will include 23 
African nations.
    We support the State Department's Africa Contingency 
Operations and Training Assistance Program that trains roughly 
20 battalions of peacekeepers per year. The peacekeepers have 
been deployed on United Nations and African Union missions 
across the continent. We helped the Rwandans deploy some of 
their cargo to the United Nations mission in Darfur. Continuing 
deployments of the Africa Partnership Station provide training 
to the navies and coast guards of the maritime nations in the 
Gulf of Guinea and the coast of East Africa, helping them 
better secure their own territorial waters.
    Given the lack of infrastructure within Africa and the 
island nations, our sustainment infrastructure, forward 
operating sites, and en route infrastructure are vital. I 
endorse upgrade projects supporting these key infrastructure 
nodes. The enduring presence at Camp Lemonier in Djibouti makes 
possible our engagement in East Africa and other parts of the 
continent and supports our U.S. security goals in the region.
    It is my honor to serve with our uniformed men and women as 
well as our civilian men and women of DOD, including our 
interagency teammates, who are making a difference on the 
continent each and every day. Their dedicated efforts are a 
testament to the spirit and the determination of the American 
people and our commitment to contributing to the well-being and 
security of our Nation and the people of Africa.
    I thank you for your support for this endeavor and I too 
look forward to this opportunity to provide you with additional 
information. Thank you very much, sir.
    [The prepared statement of General Ward follows:]
             Prepared Statement by GEN William E. Ward, USA
                              introduction
    It is my privilege as Commander of United States Africa Command to 
present to Congress our Posture Statement for 2009. The men and women 
of U.S. Africa Command have ensured the successful, rapid, and on-
schedule activation of our Nation's newest Unified Command--the sixth 
geographic command within the Department of Defense (DOD). The 
establishment of U.S. Africa Command provides a single focus for all 
DOD activities in Africa, and today we conduct sustained security 
cooperation programs in support of U.S. foreign and national security 
policy on the African continent and its island states.
    Unified Command Status (UCS) on 1 October 2008 was possible due to 
the extraordinary efforts of our impressive team. By UCS, a total of 
172 missions, activities, programs and exercises were effectively 
transferred to U.S. Africa Command from U.S. European Command, U.S. 
Central Command and U.S. Pacific Command. I am grateful for the 
sustained congressional support to U.S. Africa Command during its 
formative time, and I thank you for your continued support as we 
prepare to meet future challenges.
    Development, diplomacy, and defense programs are integrally linked, 
and U.S. Africa Command is implementing the National Defense Strategy's 
vision of a new jointness by supporting and improving collaboration 
with other agencies and departments across our Government, as well as 
improving coordination with international, intergovernmental, and 
nongovernmental organizations. We achieve the greatest effect for our 
Nation when we coordinate and harmonize our collective efforts in 
support of our common objectives.
    Africa is on a positive course in reducing conflict, building 
democratic institutions, and promoting sustainable livelihoods for its 
people, but in each of these areas, the hard-won gains are fragile. 
Strengthening African security, both in individual nations and 
regionally, is necessary for its communities to flourish. I am 
convinced that building African security capability and capacity is the 
best path to assisting the people of Africa to achieve long-term 
stability and security.
    In the months since UCS, U.S. Africa Command has been serving the 
interests of our Nation, while also addressing the security and 
stability challenges confronting our African partners. In this report, 
I provide a brief overview of the strategic environment in Africa, 
explain our strategy, and underscore how our coordinated security 
assistance efforts are promoting stability in Africa in support of U.S. 
foreign policy objectives.
                         strategic environment
    The U.S. Africa Command's area of responsibility (AOR) presents 
difficult security challenges that should be viewed along with the 
opportunities available to the people of Africa. These challenges are 
juxtaposed against abundant natural resources that, if properly managed 
by African states and institutions, can provide great economic and 
social benefits to all Africans. Our task is to assist our African 
partners so that they can provide for their own security in ways that 
permit realization of their capacity and potential.
    Africa is a complex environment requiring a new and different 
approach. Its unique challenges demand a long-term rather than a near-
term focus. For example, two of the most demanding challenges for 
African coastal nations are the security of their territorial waters 
and the regulation of their fishing industries. Today, the waters off 
Africa's west coast are being over-fished at an alarming rate by a 
variety of entities aware of Africa's inability to monitor and regulate 
this activity in their economic zone. If this continues, some 
forecasters predict that the ecological system that supports the fish 
population, the primary source of protein for many African states, 
could fail by 2045. Without the ability to secure their maritime spaces 
and regulate fishing, the Nations of Africa will lose this important 
source of food and revenue for their people. The United States must 
adopt a long-term view towards creating programs that will help solve 
such problems. Failing to do so today means our activities will only 
produce short-term effects.
Political Geography
    The greatest security threats facing Africa include enduring 
conflicts, illicit trafficking, territorial disputes, rebel 
insurgencies, violent extremists, piracy, and illegal immigration. 
While rich in both human capital and natural resources, many African 
states remain fragile due to corruption, endemic and pandemic health 
problems, historical ethnic animosities, natural disasters, and 
widespread poverty. Compounding these challenges, difficulties imposed 
by geography, climate, and a lack of infrastructure are hindering 
states' efforts to develop in an ever-globalizing international 
environment.
    Despite these difficulties, a holistic picture of Africa taken over 
time shows some progress and significant promise. Six major wars have 
ended in the past 7 years (Liberia, Democratic Republic of the Congo 
(DRC), Angola, Burundi, Sierra Leone, and the North-South conflict in 
Sudan). Democracy is growing in Africa, with more than 60 elections in 
the past 6 years. Almost three-quarters of Sub-Saharan nations are now 
classified by Freedom House as ``Free'' or ``Partly Free''--up from 
less than half in 1990. Though the global economy is enduring a down-
turn, previous economic growth on the African continent was at an 8-
year high, and 20 countries have registered positive growth for each of 
the past 5 years. Growth in real per capita income was over 3 percent 
in 2008--a marked change from the declines in growth across the 
continent in the 1980s and 1990s. Still, the amount of human suffering 
directly attributable to conflict on the African continent is 
unacceptably high, and the 2009 Freedom House report on Sub-Saharan 
Africa notes that, ``[O]verall, Africa has seen notable increases in 
freedom over the past generation, but has experiences some troubling 
setbacks in recent years.''
    In addition, African states are working hard to develop their own 
ability to deal with security challenges. Today Africans are sharing 
the burden of international peace and security by supplying 32 percent 
of United Nations (U.N.) peacekeeping forces worldwide. As of March 
2009 there are more than 33,000 African peacekeepers deployed in 
support of U.N. and African Union (AU) peacekeeping missions. Five 
African countries--Nigeria, Rwanda, Ghana, Ethiopia, and South Africa--
rank amongst the top 15 U.N. troop contributing nations.
    Although Africa is on a positive trajectory, progress remains 
fragile and easily reversible.
Demographic Trends
    Africa has the world's highest birth rates and the largest 
percentage of projected population growth. The continent's population 
of over 900 million is growing by approximately 2.4 percent annually 
and is projected to double by 2050. Today, 43 percent of Sub-Saharan 
Africa's population is below the age of 15. Rapid population growth and 
this ``youth bulge'' exceed most governments' ability to provide basic 
services and the capacity of their growing economies to provide jobs. 
This pool of undereducated and unemployed youth present a potential 
source of social and political instability.
    Africa has experienced large migration flows in recent decades, 
often in response to economic problems, civil unrest, or natural 
disasters. Africa generates 49 percent of the world's internally 
displaced persons (IDPs). Many migrants settle in urban slums, further 
straining government services and contributing to the spread of 
infectious disease. Rapid urbanization also increases competition for 
limited jobs, housing, food, and water.
Transnational Threats and Crime
    The United States and many of our African partners face a number of 
transnational threats in Africa. Violent extremism, piracy, and illicit 
trafficking are enabled by or directly contribute to instability. 
Somalia, Sudan, and vast open areas of countries across the Sahel 
region provide sanctuary for violent extremists. Al-Qaeda increased its 
influence dramatically across north and east Africa over the past 3 
years with the growth of East Africa al Qaeda, al Shabaab, and al Qaeda 
in the Lands of the Islamic Maghreb (AQIM). At the same time, the 
general level of support for violent extremism among most Muslims in 
Africa remains very low.
    Other trends pose serious challenges to U.S. interests. Foreign 
fighter recruitment and support networks are present across northern 
and eastern Africa, assisting extremists fighting coalition and 
government forces in Iraq, Afghanistan, and Pakistan. Vast coastal 
areas provide havens for smuggling, human and drug trafficking, illegal 
immigration, piracy, oil bunkering, and poaching of fisheries. For 
example, large-scale oil theft by disparate groupings of armed 
militants in the Niger Delta is a significant problem. Observers 
estimate that Nigeria's oil exports have been reduced by 20 percent due 
to banditry fostered by lingering societal and political grievances. 
Theft of oil within the country costs the state untold revenues that 
could be used to improve services for the population.
    Africa is a piracy flashpoint, with incidents occurring in Somali 
waters, the Gulf of Aden, and the Gulf of Guinea. In the first 9 months 
of 2008 alone, paid ransoms may have exceeded $30 million. Maritime 
security will remain a challenge, particularly along the Horn of 
Africa, Swahili Coast, Mozambique Channel, and, to a lesser extent, in 
the Gulf of Guinea, where littoral nations continue to lack the ability 
to patrol and protect their waters.
    According to a recent U.S. Department of State (DOS) report, 
trafficking in persons is a significant and widespread problem 
throughout Africa. Especially prevalent are trafficking in children 
(including child military conscription), women for commercial sexual 
exploitation, and males for forced labor. As of 2008, there was only 
one African country in compliance with the U.S. Trafficking Victim's 
Protection Act of 2000.
    Illicit trafficking of narcotics poses a significant threat to 
regional stability. According to the DOS International Narcotics 
Control Strategy Report 2008, and the U.N. Office on Drugs and Crime, 
Western Africa has emerged as a critical trans-shipment point for South 
American cocaine destined primarily for European markets. The presence 
of drug trafficking organizations in West Africa as well as local drug 
use create serious security and health challenges. The strong Euro 
currency, increased European cocaine demand, and successful 
interdiction in the Americas contribute to West Africa's place in the 
narcotics trade. The UN estimates that 27 percent of all cocaine 
annually consumed in Europe transits West Africa, with trends rising 
significantly. In addition to the health and medical problems resulting 
from the distribution and spread of narcotics along the trafficking 
routes, the presence and influence of traffickers in the West African 
region has had a profoundly corrosive effect on the rule of law in many 
West African states. It must be noted that the narcotics trafficking 
from Southwest Asia through the islands into East and Southern Africa 
also remains a significant a concern. Although there is a degree of 
political will within many African states, efforts to combat narcotics 
trafficking are hampered by resource shortfalls, law enforcement and 
judicial capacity, and corruption.
Other Nations and Organizations Operating Within the AOR
    As Africa's importance is recognized, more non-African countries 
and international governmental organizations seek to develop, maintain, 
and expand relations with African states. China, India, Brazil, Turkey, 
Japan, Russia, European states, the North Atlantic Treaty Organization 
(NATO) and the European Union (EU) have all focused increasingly on 
Africa's potential and its strategic significance.
    European leaders remain committed to working with their African 
counterparts on a broad range of developmental issues. Specifically, in 
the peace and security arena, the EU has mounted several security 
sector reform operations in Africa, including in the DRC, Guinea 
Bissau, Chad, and the Central African Republic. NATO airlifted AU 
peacekeepers into Darfur and Somalia and NATO supports development of 
AU peacekeeping capability with U.S. and other NATO officers embedded 
into AU Peace Support Operations Division. Recently, both NATO and the 
EU initiated Horn of Africa counterpiracy operations and they 
coordinate their counterpiracy efforts with U.S Central Command's 
Combined Task Force-151.
    Other European nations without historic ties with Africa, such as 
Switzerland, Denmark, Finland, Norway, and Sweden, have increased their 
support for U.N. operations, and have bilateral assistance efforts that 
contribute to capacity building. U.S. Africa Command continues to build 
cooperation with European partners to coordinate programs and 
contribute to a focused, collaborative approach to capacity building.
    Additionally, it is important to note China and India's ongoing 
efforts in Africa. Over the last 10 years, China's interests in Africa 
have increased significantly. China is the world's leading consumer of 
copper, steel, cobalt and aluminum, and is second only to the United 
States as an importer of African oil. India, as of April 2008, pledged 
to invest $500 million over the next 5 years in development projects in 
Africa, and also pledged to double financial credit to African 
countries from $2 billion during the past 5 years to $5.4 billion over 
the next 5 years. The actions and contributions of both of these 
nations demonstrate the active role they play in Africa today.
                      u.s. africa command strategy
    U.S. Africa Command's strategy of sustained security engagement 
focuses our military-to-military programs on conflict and crisis 
prevention rather than reaction. The command, in accordance with U.S. 
foreign policy and national security objectives, creates, sustains, and 
supports opportunities to assist our African partners in their efforts 
to build enduring security capacity to prevent or mitigate the 
catastrophic effects and costs associated with instability, conflict, 
transnational threats, and humanitarian disasters.
Interests, Endstates, and Objectives
    The National Defense Strategy objectives of defending the homeland, 
promoting security, deterring conflict, and winning our Nation's wars 
define U.S security interests in Africa. U.S. Africa Command, in 
developing its command strategy, identified the following as our 
theater strategic interests:

        <bullet> Prevent attacks against Americans by transnational 
        threats emanating from Africa;
        <bullet> Prevent acquisition, transfer, or transit of weapons 
        of mass destruction (WMD) material or expertise;
        <bullet> Maintain our freedom of movement into and through the 
        AOR;
        <bullet> Foster the prevention, mitigation, or containment of 
        conflict;
        <bullet> Foster sustained stability;
        <bullet> Mitigate the effects of significant humanitarian 
        crises or natural disasters;
        <bullet> Deter and contain pandemic influenza in the AOR.

    The DOD Guidance for Employment of the Force specifically directs 
three strategic endstates as guidance for U.S. Africa Command's 
activities. These are:

  Endstate 1: African countries and organizations are able to provide 
        for their own security and contribute to security on the 
        continent.
  Endstate 2: African Governments and regional security establishments 
        have the capability to mitigate the threat from organizations 
        committed to violent extremism.
  Endstate 3: African countries and organizations maintain professional 
        militaries that respond to civilian authorities, respect the 
        rule of law, and abide by international human rights norms.

    U.S. Africa Command's primary effort is building African security 
capacity so our partners can prevent future conflict and address 
current or emerging security and stability challenges. This approach 
reinforces African states' gains in improving governance, and enables 
the United States to help improve the effectiveness of current African 
supported U.N. and AU peacekeeping missions.
    The command-developed theater strategic objectives are designed to: 
1) support the achievement of the theater strategic endstates, 2) 
protect or advance U.S. interests in Africa, and 3) provide focus for 
the command's engagement activities. The primary mechanism for meeting 
the following objectives is building African security capacity.
    U.S. Africa Command theater strategic objectives are:

        <bullet> Defeat the al Qaeda terrorist organization and its 
        associated networks;
        <bullet> Ensure peace operation capacity exists to respond to 
        emerging crises, and continental peace support operations are 
        effectively fulfilling mission requirements.
        <bullet> Cooperate with identified African states in the 
        creation of an environment inhospitable to the unsanctioned 
        possession and proliferation of WMD capabilities and expertise;
        <bullet> Improve security sector governance and increased 
        stability through military support to comprehensive, holistic, 
        and enduring U.S. Government efforts in designated states;
        <bullet> Protect populations from deadly contagions.

    U.S. Africa Command's strategy of security capacity building will 
support long-term African stability, while also fostering the 
development of African forces that can address contemporary and future 
conflicts. Our strategy allows the Command to provide support to 
efforts led by other U.S. Government agencies responsible for 
development and diplomacy. Most importantly, this strategy allows U.S. 
Africa Command to defend the Homeland and secure U.S. interests abroad.
Continent Wide Programs, Activities, and Plans
    To meet our theater strategic objectives, U.S. Africa Command 
implements and supports programs that span the whole of Africa, as well 
as programs specific to regions and countries.
    Support to the Fight Against Violent Extremism
    Combating violent extremism requires long-term, innovative 
approaches, and an orchestration of national and international power. 
By strengthening our partners' security capacity, we will deny 
terrorists freedom of action and access to resources, while diminishing 
the conditions that foster violent extremism.
    Operation Enduring Freedom-Trans-Sahara (OEF-TS) is the DOD 
contribution to the Trans-Sahara Counterterrorism Partnership (TSCTP). 
This partnership uses the capabilities of U.S. Government agencies to 
counterterrorism in North and West Africa. The OEF-TS component of 
TSCTP is designed to assist participating African nations as they 
improve control of their territories and thus deny safe havens to 
terrorist groups. Cooperation strengthens regional counterterrorism 
(CT) capabilities and reduces the illegal flow of arms, goods, and 
people through the region. The military train and equip component of 
TSCTP is primarily funded with DOS Peacekeeping Operations (PKO) funds. 
PKO funds for TSCTP are a critical component of the long-term strategy 
for OEF-TS and TSCTP.
    Our partners' enthusiasm and support for these efforts was evident 
during Exercise Flintlock in November 2008, when nine African and four 
European partners came together to conduct a CT exercise spanning an 
area larger than the continental United States. The principal purpose 
of the Flintlock exercises is to improve military interoperability, and 
strengthen regional relationships.
    Combined Joint Task Force--Horn of Africa (CJTF-HOA) is the second 
named operation ongoing in Africa. Discussed in greater detail in the 
Component and Subordinate Command Section, CJTF-HOA employs an indirect 
approach to counter extremism. Through a strategy of Cooperative 
Conflict Prevention, the task force builds security capacity, promotes 
regional cooperation, and protects coalition interests.
    Operation Objective Voice (OOV), known previously as Operation 
Assured Voice--Africa (OAV-A), is an operation that strikes at the 
heart of violent extremist efforts--ideology. OOV is a proactive effort 
where multiple agencies partner with African Governments to broadcast 
messages to counter extremist propaganda. Military Information Support 
Teams, in conjunction with DOS public diplomacy, have demonstrated 
success in several countries including Nigeria, Mali, and Kenya. We 
continue to work with participating nations, Embassy Country Teams, and 
DOS to enhance this program.
    Security Assistance
    Theater Security Cooperation (TSC) programs remain the cornerstone 
of our persistent, sustained engagement. These programs build lasting 
relationships, promote common interests, and enhance partner 
capabilities to provide safe and secure environments. Our military-to-
military programs assist our allies and partners in maturing their 
capabilities to conduct operations with well-trained, disciplined 
forces that respect human rights and the rule of law. Our cooperative 
security efforts provide essential peacetime and contingency access and 
infrastructure, improve information sharing, and are vital to U.S. 
Africa Command's support of U.S. foreign policy and national security 
objectives.
    International Military Education and Training (IMET) programs 
provide education and training to foreign military and civilian 
personnel. IMET is a critical form of security cooperation in theater. 
A robust IMET program is a long-term investment in the future and 
directly supports U.S. interests.
    The target audience of IMET is future military and civilian 
leaders. IMET provides education and training for both military and 
civilian personnel to help militaries understand their role in a 
democracy. IMET exposes countries to our democratic principles, but 
achieving long-term results is impeded if these programs are not 
sustained over a long period. If we are perceived as unreliable, 
African states may pursue training with countries that do not share our 
values, including our commitment to respect for human rights, good 
governance, and transparency, and this could impact our relationship 
with a state's security forces--a relationship that might not recover 
for a generation. The long-term benefit of IMET cannot be overstated. 
Forty-six of 52 African states and 1 organization (Economic Community 
of West African States (ECOWAS)) are expected to have IMET programs in 
fiscal year 2009.
    Foreign Military Financing (FMF) provides critical U.S. military 
equipment and services to partner countries. U.S. Africa Command seeks 
to align FMF programs to enhance security capacity building by 
including FMF as part of our long-term strategy to procure compatible 
systems that increase interoperability, effectiveness, and efficiency 
of training. Fiscal year 2008 FMF numbers were approximately $18.7 
million for 53 countries, with most of this going Tunisia and Morocco. 
If we are to achieve our endstates and avoid undesirable strategic 
consequences, we must continue to closely monitor our strategic use of 
FMF and cooperatively work together to ensure its distribution 
contributes directly to our long-term goals.
    IMET and FMF are critical to accomplishing the United State's 
mission in Africa and constitute long-term investments in critical 
relationships. Both programs are fundamental to our strategy of 
preventative rather than reactive response.
    Foreign Military Sales (FMS). Goods bought through FMS have 
improved interoperability with countries that benefit from the program. 
Vehicles, watercraft, aircraft, and equipment purchased through the 
program are often the same materials currently being used by U.S. 
forces. Countries that are eligible to receive FMS are eligible to 
receive Excess Defense Articles (EDA) as well. Trucks supplied to the 
Senegalese military through the EDA program will be instrumental during 
the deployment of Senegalese Battalions in support of their 
peacekeeping operations in Darfur.
    Continental peace support operations and military-to-military 
        programs
    The Global Peace Operations Initiative (GPOI) is a U.S. State 
Department-led initiative to enhance global capabilities to conduct 
peace support operations, with a particular emphasis on building 
African capacity. This program is expected to train 75,000 peacekeeping 
troops worldwide by 2010, develop a transportation and logistics 
architecture to facilitate peacekeeping deployments, and establish an 
international training center for the training of formed police unit 
trainers. In Africa, GPOI funds are primarily used to support and 
expand the pre-existing Africa Contingency Operations Training and 
Assistance (ACOTA) program. Since fiscal year 2005, ACOTA has directly 
trained more than 68,000 African soldiers, including approximately 
3,500 military trainers. U.S. Africa Command supports the ACOTA program 
by providing military mentor teams. The U.S. military has provided 
approximately 350 mentors over the life of the ACOTA program, and we 
are actively seeking ways to provide additional support.
    In 2009, the GPOI program is expected to support and expand our 
communication initiatives on the continent. In West Africa, 
specifically, GPOI will expand the ECOWAS Regional Information Exchange 
System (ERIES) satellite network enabling its 15 partner countries to 
communicate and exchange information.
    GPOI programs such as ACOTA and ERIES are critical to our efforts 
to develop and improve our African partners' security capacity.
    The Military-to-Military Contact program is a pillar of U.S. Africa 
Command's security cooperation activities in African countries. Since 
2003, over 400 military-to-military events have helped host nations 
address such fundamental topics as integration of women in the 
military, civilian control of the military, establishment of military 
legal codes, and programs to develop professional officer, 
noncommissioned officer (NCO), and chaplain corps. Funding for 
military-to-military operations uses Traditional Combatant Commander 
Activities (TCA) funds. In fiscal year 2008, $3.3 million of TCA monies 
were spent on Africa military-to-military activities. We plan to expand 
this critical program, with $6.1 million in TCA budgeted for fiscal 
year 2009.
    The National Guard State Partnership Program (SPP) remains a 
superb, effective TSC program. Linking U.S. states and territories with 
African countries, the SPP helps build long-term relationships, 
promotes access, enhances African military professionalism and 
capabilities, interoperability, and promotes healthy civil-military 
relations. U.S. Africa Command currently has seven state partnerships: 
Tunisia-Wyoming; Morocco-Utah; Ghana-North Dakota; South Africa-New 
York; Nigeria-California; Senegal-Vermont, and Botswana-North Carolina. 
The unique civil-military nature of the National Guard enables it to 
interact consistently, over time, with all security forces, and, when 
appropriate, African civilian officials. We are seeking support from 
Adjutant Generals to expand this valuable program.
    Human Immunodeficiency Virus/Acquired Immune Deficiency Syndrome 
        (HIV/AIDS) Programs and Humanitarian Assistance (HA)
    U.S. Africa Command's Partner Military HIV/AIDS Program is a 
successful program focused on a source of suffering and a hindrance to 
sustained development and stability in Africa--the HIV/AIDS pandemic. 
HIV/AIDS is a military force generation and sustainment problem for 
African forces and is a risk to African security and stability. The 
Command addresses HIV/AIDS in the military context through technical 
program assistance and implementation from the Department of Defense 
Executive Agent (DOD HIV/AIDS Prevention Program Office) and the Office 
of the U.S. Global AIDS Coordinator using three funding sources: the 
DOD HIV/AIDS Prevention Program Office using a congressional 
supplemental provided via the Office of the Secretary of Defense Health 
Affairs Defense Health Program; the DOS Office of the U.S. Global AIDS 
Coordinator using the U.S. President's Emergency Plan for AIDS Relief 
(PEPFAR); and the DOS, using the HIV/AIDS Military Health Affairs FMF 
program. The Command's Partner Military HIV/AIDS Program implemented 
and executed by the DOD HIV/AIDS Prevention Program Office in 
collaboration with PEPFAR, provides strategic direction and oversight 
for designated countries to further U.S. Africa Command strategic 
objectives.
    DOD activities supporting African Military's fight against HIV/AIDS 
have been very successful and now reach 39 countries in Africa. When 
DOD's program began in 2001, few African militaries had yet tested 
their forces for HIV infection, and only a small number had programs or 
policies addressing HIV/AIDS. Today, as a result of past joint efforts 
between DHAPP, PEPFAR and U.S. Africa Command, many militaries in 
Africa now test their forces for HIV and have active programs for HIV/
AIDS prevention, care, and treatment. In the past year, U.S. Africa 
Command's programs have reached 497,000 African troops and family 
members with prevention messages, and provided testing and counseling 
and testing services for 102,000 service members and their families. In 
addition, 800 senior military leaders have been trained on HIV/AIDS 
policies in their countries, and 7,000 peer educators and 5,000 health 
care workers received training. About 19,000 individuals are on 
antiretroviral treatment as a result of these collaborative efforts. 
These programs and voluntary counseling and testing are helping to 
affect behavioral change by reducing the stigma often associated with 
HIV/AIDS in Africa.
    Humanitarian Assistance Programs. Interagency coordination 
multiplies the effectiveness of Humanitarian Assistance (HA) programs. 
U.S. Africa Command coordinates its humanitarian efforts with those of 
the U.S. Agency for International Development (USAID) and DOS to ensure 
its HA efforts on the continent complement and support USAID's lead on 
development initiatives in a country. U.S. Africa Command Humanitarian 
and Civic Assistance (HCA) events are undertaken when they support the 
security and foreign policy interests of the United States, the 
security interests of the country in which the activity is performed, 
and promote the specific operational readiness skills of the U.S. 
forces that participate. Humanitarian Assistance-Other (HA-O) programs 
are another means for the Command to complete projects that benefit the 
civilian population of a host nation and support overall development 
priorities. The command's fiscal year 2008 projects included providing 
veterinary and medical care, building and furnishing schools and 
clinics, digging wells, providing clean water in rural and austere 
locations, and help in delivering disaster relief. Such activities have 
proven successful in the Horn of Africa.
    A variety of innovative HA activities support our long-term 
interests by building partnerships with African nations and 
establishing good working relations with international and 
nongovernmental organization (NGO) partners. In Tunisia for instance, 
the HA program funded architectural and engineering services and 
partial construction of a new educational facility for marginalized 
autistic children, while French partners supported construction and 
training by an international NGO for special educators. In Burkina 
Faso, from August to October 2008, both the Humanitarian Civic 
Assistance (HCA) and Excess Property Programs were used in combination 
to conduct a three-phased Medical Civic Action Program (MEDCAP) to 
combat eye disease. The Burkina Faso Ministry of Health and Ministry of 
Defense, with support of the U.S. Embassy, and the Burkina Faso 
Ministry of Defense, worked jointly to achieve this mission. In another 
program, fully adjustable, self-prescribing glasses--fine tuned by U.S. 
military personnel--have been distributed during U.S. military medical 
outreach projects. In Botswana, HA funds doubled the size of a facility 
used by an international NGO to provide after-school services for 
orphaned children. All of these activities contribute significantly to 
well-being while complementing development efforts that serve the 
interests of our Nation and U.S. Africa Command.
    Over the next year, U.S. Africa Command will work closely with 
country teams to ensure HA resources are used to complement other U.S. 
Government funding and achieve overall U.S. Government foreign policy 
objectives while continuing to further American and African security 
objectives. HA resources are a flexible tool to complement larger 
humanitarian and development programs implemented by USAID, PEPFAR, and 
Millennium Challenge Corporation.
    Pandemic Response Programs
    In light of the important role national militaries are likely to 
play in pandemic response globally, Congress provided fiscal year 2008 
funds to enable USAID and the U.S. Africa and Pacific Commands to 
partner to develop host nation militaries' pandemic response capacity. 
Our Pandemic Response Program will help develop and exercise African 
military pandemic response plans that compliment civilian activities 
during a pandemic. Our assessment teams are beginning to work in East 
and West Africa to develop national and regional activities that focus 
the military role on maintaining security and communications, providing 
logistic support for provision of food, medicine, and other 
commodities, as well as providing augmented medical care. This program 
will build local capacity to respond to other disasters as well.
    Interagency Cooperation and Partnership
    U.S. Africa Command's interagency efforts are of critical 
importance to the command's success. The command has three senior 
Foreign Service Officers in key positions as well as numerous personnel 
from other U.S. Government agencies serving in leadership, management, 
and staff positions throughout our headquarters. From piracy off the 
coast of Somalia to supporting the UN Africa Union Mission in Darfur, 
embedded interagency personnel are involved in the earliest stages of 
U.S. Africa Command's planning. These invaluable experts help the 
Command ensure its plans and activities complement those of other U.S. 
Government agencies.
    The Command's development of its Theater Strategy and supporting 
campaign plan is another example of its extensive interagency 
cooperation. Through collaboration among departments and Federal 
agencies, we strive to ensure that our collective activities are 
integrated and synchronized in pursuit of common goals. In developing 
the U.S. Africa Command Theater Campaign Plan (TCP), a plan that 
accounts for peacetime activities over the next 5 years, the command 
has involved interagency experts from the very beginning of the 
planning process. In the summer of 2008, U.S. Africa Command planners 
met in Virginia with representatives from 16 agencies in a series of 
workshops designed to gain interagency input on Africa Command's 
Theater Strategy and TCP. Representatives from other agencies have also 
participated in Theater Strategy and TCP discussions and most remain 
involved in a planning effort designed to complete the TCP by the 
spring of 2009.
    The growth and development of our interagency team depends on the 
human resources of our partner agencies. U.S. Government agencies and 
departments have been supportive of our requests to fill our 
interagency billets, and we remain flexible in defining the role and 
participation of these agencies as we continue to grow and evolve. 
Today, all senior executive interagency positions at U.S. Africa 
Command have been filled, and we continue to work with the interagency 
to fill additional positions. A total of 27 interagency personnel are 
assigned to Africa Command from the Department of State, Department of 
Commerce, Department of Homeland Security, Department of the Treasury, 
USAID, Federal Bureau of Investigation, and the Open Source Center. The 
Department of Energy and Department of Justice both have pending 
assignments. Other agencies, such as U.S. Geological Survey and the 
Department of Agriculture, have sent representatives to U.S. Africa 
Command to examine the possibility of placing people at the command 
permanently.
    U.S. Africa Command is aggressively pursuing new, innovative 
processes and relationships to improve DOD collaboration with other 
U.S. Government agencies in order to maximize the effectiveness of all 
U.S. activities in Africa.
Regional African Programs, Activities, and Plans
    Many of the programs we are currently implementing were transferred 
from the commands previously responsible for portions of U.S. Africa 
Command's AOR. As we move forward, we will synchronize this collection 
of programs across the five regions of Africa so that, together, they 
enable us to implement the coherent approach outlined in U.S. Africa 
Command's Theater Strategy. The command's definition of the five 
regions of Africa mirrors that of the AU. The regions are: North 
Africa, West Africa, Central Africa, East Africa, and Southern Africa.
    North Africa
    While Egypt remains within U.S. Central Command's AOR, we recognize 
the importance of Egypt's influence throughout the continent. Egypt's 
partnerships with other African nations contribute to their stability 
and the professionalization of their militaries, and Egypt has 
expressed a desire for a close relationship with U.S. Africa Command. 
As a result, we participated in the U.S.-Egypt defense talks in 2008, 
and we have concluded a memorandum of understanding (MOU) with U.S 
Central Command that ensures synchronization and coordination between 
commands whenever U.S. Africa Command missions require engagement with 
Egypt.
    Regarding Libya, the lifting of Section 507 sanctions and the 
recent signing of a MOU on defense contacts and cooperation provide a 
solid foundation upon which we can build our bilateral military 
relationship. My staff is diligently preparing a proposal for 
engagement activities with the Libyans. In February 2009, we conducted 
a site visit to determine ways to assist Libya's Coast Guard, advise 
them on the procurement of English Language labs in preparation for 
attendance in our professional schooling, and to conclude a foreign 
military sales contract enabling Libya's purchase of border patrol 
vehicles. We approach this new relationship carefully, deliberately, 
and with the intention to improve military relations consistent with 
U.S. foreign policy guidance and national security objectives.
    U.S. Africa Command will seek opportunities in this region for 
increased collaboration in the areas of counterterrorism, border, and 
maritime security. The U.S. Sixth Fleet, along with several European 
and North African navies (Malta, Turkey, Greece, Morocco, Algeria, 
Tunisia, Mauritania, France, Italy, Spain, and Portugal), conducted 
Phoenix Express 2008, a multilateral naval exercise. Phoenix Express 
concentrates on operations that directly contribute to safety and 
security in the maritime domain, focusing on maritime interdiction, 
communications, and information sharing. U.S. Africa Command's naval 
component, U.S. Naval Forces, Africa (NAVAF) will expand Phoenix 
Express 2009 to include navies from Algeria, France, Greece, Italy, 
Malta, Morocco, Portugal, Spain, Tunisia, Turkey, Senegal, and possibly 
others.
    In June 2008, the marines that have since become U.S. Marine Corps 
Forces, Africa (MARFORAF) conducted exercise African Lion in Morocco. 
This annual bilateral exercise focuses on small-unit infantry tactics, 
staff training, and humanitarian assistance. In 2009, U.S Africa 
Command's Army component, U.S. Army Africa (USARAF), will support the 
joint exercise, African Lion, in Morocco.
    U.S. Africa Command's air component, Air Forces, Africa (AFAFRICA), 
is responsible for four exercise-related construction projects in 
Morocco totaling over $1.2 million. These projects will improve runway 
capability and construct exercise reception facilities to support 
current and future Chairman of the Joint Chiefs of Staff exercises in 
Africa. Additionally, AFAFRICA HCA programs in Morocco have awarded 
contracts for veterinarian clinic supplies, water wells and school 
construction.
    An excellent model for future U.S. Government whole-of-government 
cooperation can be found in North Africa. In October 2008, one of 
Africa Command's senior USAID representatives traveled to Morocco to 
help integrate DOD HA activities into the U.S. Embassy's Country 
Assistance Strategy (CAS). Working closing with the Embassy team, a MOU 
between U.S. Africa Command's Office of Security Cooperation (OSC) and 
USAID's Mission Director was completed. This MOU is designed to align 
and focus programs and activities to provide for a coordinated, 
consistent U.S. Government response in pursuit of shared policy goals. 
As strategic partners, U.S Africa Command and USAID are implementing a 
program that targets the number one goal of the U.S.-Embassy's CAS--
``Mitigating the factors of youth disaffection and marginalization.'' 
This coordinated interagency approach facilitates a whole-of-
government, preventative approach to the problem of disaffected youths, 
with each agency working closely together, within their mandated areas 
of responsibility, to achieve a greater effect than had they acted 
alone.
    This project serves as an interagency model for other U.S. 
Embassies while reemphasizing that, while U.S. Africa Command does not 
have the lead in the development sphere, it plays an important 
supporting role to U.S. Mission Strategic Plans.
    West Africa
    As with much of Africa, West African states are confronted with 
porous maritime and territorial borders contributing to illegal 
trafficking in narcotics, persons, and counterfeit goods, illegal 
fishing and extraction of resources, and other criminal activities. 
There is also ethnic, religious, and social strife, and a lack of 
adequate infrastructure to support populations and foster economic 
development. Often, a crisis in one country affects surrounding 
countries; likewise, a threat to one country often emanates from or 
rapidly proliferates to neighboring countries. This requires a 
multilateral approach to improve security, stability, and development. 
Despite the success achieved by ECOWAS and the ECOWAS Standby Force, 
various threats continue to inhibit the sustainment of security and 
prosperity in West Africa. U.S. Africa Command is working with 
bilateral partners, ECOWAS, U.S. Government agencies, and non-African 
nations active in the region to address these threats for the mutual 
benefit of West Africa, the United States, and the international 
community.
    U.S. Africa Command has partnered with several countries in West 
Africa to develop plans to counter regional threats. In Mali, Niger, 
Senegal, and Nigeria, the TSCTP and its military element, OEF-TS, are 
the U.S. lead programs in countering violent extremism in the Sahel. 
U.S. Africa Command cooperates with the British in their efforts to 
develop the Republic of Sierra Leone Armed Forces, and, through 
MARFORAF, also supports the Security Sector Reform program to mentor 
and develop the new Armed Forces of Liberia.
    We have seen significant progress in Liberia during its transition 
to peace and stability following a 14-year civil war. The Armed Forces 
of Liberia are completing basic training of their new 2,000 soldier 
army, but the work here is far from finished. We must continue to 
provide adequate IMET for officer and non-commissioned officer 
development, and we must provide additional FMF and Peacekeeping 
Operations (PKO) funding if we are to sustain the SSR program, 
military-to-military engagements, and develop the Liberian Coast Guard. 
Additionally, the other security sector elements, police and judiciary, 
will need significant assistance if they are to successfully replace 
the departing U.N. Police Units and improve their legal system. In 
recognition of the pending U.N. withdrawal, Liberia was our number one 
Security and Stabilization Assistance request for West Africa in fiscal 
year 2008. DOS requested funds to support the restructuring of the 
Liberian National Police. Security Sector Reform, supported by IMET and 
FMF along with persistent and sustained engagement are essential if we 
are to secure the gains made in establishing peace and security--the 
essential foundation for national reconstruction and economic 
development.
    In Ghana, the professionalism of its armed forces demonstrated 
during the December 2008 presidential and parliamentary elections is to 
be noted. The planning, coordination, and exercises conducted with the 
Ghana Police and other security forces during the run up to the 
election were critical to its success. While there were a few instances 
of election related violence, the security forces quickly and 
professionally restored order. While domestic security is a police task 
in Ghana, the military is tasked to provide support when requested, and 
their recent performance was a positive example of what we intend to 
support when we work with a partner as they seek to professionalize 
their military forces. Ghana provides a clear example of an African 
military force respecting and supporting civil authority.
    NAVAF's focus on security cooperation activities in this and the 
Central Region has been through its key initiative, Africa Partnership 
Station (APS). In recognition of this important effort, both the 
Senegalese Minister of Defense and the U.S Ambassador attended the 
opening meeting of the APS-hosted Oil Spill Prevention Workshop in 
Senegal. In Liberia, 15 U.S. marines along with 5 soldiers from USARAF 
and a U.S. Navy corpsman are working with the new, U.S.-trained Armed 
Forces of Liberia (AFL). They are training 350 AFL members on basic 
officer and noncommissioned officer leadership, logistics and vehicle 
safety, martial arts, and nonlethal weapons and riot control 
procedures. Other U.S. Marines, along with their Spanish and Portuguese 
counterparts, are in Ghana providing similar training there. Our 
African partners see APS as a successful maritime initiative and are 
eager to participate and improve this valuable program.
    Also in the maritime domain, joint Law Enforcement Detachment 
operations were conducted to enforce maritime law within the Cape Verde 
waters in 2008. This was done with support of the host nation, our 
State Department, the French Navy and the U.S. Coast Guard. In 2009, we 
hope to continue to build these capabilities with other interested 
countries, such as Senegal.
    Additionally, MARFORAF conducted the bilateral exercise Shared 
Accord in Ghana in June 2008. This annual U.S. and West African 
exercise focuses on small-unit infantry tactics, staff training, and 
HA. In July 2008, exercise Africa Endeavor 08 in Nigeria improved 
communications and information systems interoperability between U.S. 
and African partner nation militaries. Exercise Medflag 08, a joint 
medical exercise with the Malian Armed Forces that included HA to the 
Malian people, was conducted during July in Mali.
    Throughout 2008, MARFORAF African Logistics Initiative events 
provided Senegal, Ghana, and Liberia with an array of logistics 
training. In May 2008, MARFORAF Intelligence conducted the Military 
Intelligence Basic Officers Course for Africa. MARFORAF also provided 
military mentors in support of the ACOTA program and expanded military-
to-military programs in Senegal and Ghana
    One of AFAFRICA's key programs for all of West Africa is the Air 
Domain Safety and Security program. The Air Domain Safety and Security 
program is a long-term, steady-state, general purpose Air Force Program 
of Record. Utilizing general purpose air forces, AFAFRICA is working 
together with interagency and host nation representatives to enhance 
the safety and security capacity of civil and military air domains 
comprising four mutually supporting elements of infrastructure, 
personnel, situational awareness, and response.
    Additionally, AFAFRICA supports an exercise program that included 
Shared Accord 08 in Ghana and Liberia. One of the highlights of Shared 
Accord 08 was the treatment of 2,323 pediatric, 961 optometry, 558 
dental care, and 2,686 adult care patients. AFAFRICA also participated 
in MEDCAP, DENTCAP, and Civil Affairs outreach projects in Ghana in 
February 2008. Over 758 dental screenings with 361 patients receiving 
treatments and 666 child preventative dentistry screenings were 
conducted.
    Central Africa
    The Central Region is rich in natural resources. However, resource 
wealth has brought corruption and the misuse of government funds, which 
in turn can lead to weakened government institutions, and thereby 
hinder growth and prosperity.
    Active rebel movements persist in the DRC, Burundi, Chad, and the 
Central African Republic. Despite years of efforts for a negotiated 
settlement in Northern Uganda, the Lord's Resistance Army, operating 
out of Eastern DRC, threatens the subregion. Additional areas of 
concern include movement of transnational terrorist organizations and 
drugs, as well as the flow of refugees, IDPs, and arms from conflict 
zones.
    The DRC, due to its immense size and strategic location, is a focus 
of effort because instability there has wider regional implications. An 
OSC was opened in DRC in the fall of 2008 to manage and coordinate 
growing theater security cooperation activities. One of our security 
cooperation focus areas is the Defense Institute of International Legal 
Studies, which works to develop a viable and transparent military 
judicial system. We have a great deal of work ahead of us in DRC, and 
we are taking steps to address the security issues of this important 
region.
    Regarding other U.S. Africa Command efforts in the Central Region, 
MARFORAF is expanding military-to-military programs in Cameroon. 
Likewise, AFAFRICA has been instrumental during the initial planning 
for Exercise Africa Endeavor 2009, which will bring together 37 
countries and 2 international organizations in Cameroon, Gabon, and 
Senegal.
    In 2008, APS featured the successful deployments of U.S.S. Fort 
McHenry and HSV-2 Swift with an international staff comprised of 
representatives from 10 countries (United States, United Kingdom, 
France, Spain, Portugal, Germany, Equatorial Guinea, Ghana, Gabon and 
Cameroon) that engaged 14 West and Central Africa countries, conducted 
35 port visits, and engaged more than 1700 African maritime 
professionals in courses custom-tailored to each nation's maritime 
governance needs. In 2009, the centerpiece of APS engagement is the 
deployment of U.S.S. Nashville. France, United Kingdom, Germany, 
Portugal, Spain, the Netherlands, Cameroon, Gabon, Senegal, Nigeria and 
Ghana are providing staff members and training teams, complemented by 
participation or support from the U.S. Coast Guard, embarked Department 
of State Political Advisors (POLADS), and other governmental and 
nongovernmental organizations.
    MARFORAF also supported the 2008 APS deployment aboard the U.S.S. 
Fort McHenry. Throughout the APS deployment, U.S. and Spanish Marines 
conducted noncommissioned officer leadership training with African 
military personnel from Liberia, Senegal, Ghana, Nigeria Cameroon, 
Equatorial Guinea, Gabon, and Sao Tome and Principe.
    The Regional Maritime Awareness Capability (RMAC) Project serves as 
another excellent example of interagency coordination. RMAC provides 
awareness of maritime threats to the Coast Guard of Sao Tome and 
Principe. This project has become the catalyst for other assistance, 
including U.S. Navy Seabee construction of a pier next to the RMAC 
facility, U.S. Navy mapping of the port, Defense Institute of 
International Legal Studies assistance in developing maritime laws, and 
U.S. Treasury Department and Customs assistance in developing laws 
against money laundering.
    East Africa
    East Africa includes the Horn of Africa and the Great Lakes region, 
portions of both the Swahili Coast and Mozambique Channel, and regional 
island nations. Kenya is returning to stability and economic growth 
following the aftermath of the post-election turmoil of December 2007. 
Ethiopia, host of the AU and a key U.S. Government CT partner, faces an 
unresolved border dispute with Eritrea and continues to conduct counter 
insurgency campaigns in the Ogaden. Situations in Sudan and Somalia 
destabilize the entire region. The Government of Sudan has been 
implicated in genocide in Darfur and continues to pose a threat to the 
Government of Southern Sudan despite the conclusion of the 
Comprehensive Peace Agreement (CPA) following 20 years of civil war. 
Somalia, a weakly governed state, provides a haven for extremists and a 
base for piracy operations. However, we are fortunate amongst the 
problems of this area, to have a solid and reliable partnership with 
Djibouti. With accepted presence and mature relationships, Djibouti is 
invaluable as we conduct our Theater Security Cooperation (TSC) 
activities with our African partners. A stable friend in a fragile 
region, Djibouti provides the only enduring U.S. military 
infrastructure in Africa.
    In recent years, incidents of piracy on the high seas off the coast 
of Somalia have received global attention. In 2008, over 120 attacks 
occurred off Somalia, which has a long and sparsely populated coast 
that poses challenges to international counter-piracy operations. 
Approximately 10 percent of the world's shipping passes through the 
Gulf of Aden or into and out of the Red Sea. While most of the 
incidents here have occurred in the eastern Gulf, pirates have struck 
as far as 450 nautical miles off the Horn of Africa. Crew abductions 
are common, and ransoms are generally paid within a month of capture. 
The average ransom has tripled since 2007--as has the number of ships 
seized.
    To address regional instability, the U.S. Government, with U.S. 
Africa Command's support, is leading an international community effort 
to conduct an effective Security Sector Reform program for Southern 
Sudan. The goal of U.S. Africa Command's support to the Sudanese 
People's Liberation Movement/Army (SPLM/A) is to professionalize their 
army and increase their defensive capabilities. These improvements are 
intended to help facilitate implementation of the requirements of the 
2005 Comprehensive Peace Agreement. Also, our Air Force component 
continues to provide transport support to peacekeeping forces destined 
for Darfur.
    Despite the security and humanitarian challenges facing East 
Africa, our military-to-military professionalization efforts, 
bilaterally and through our support to ACOTA, have enabled Ethiopia, 
Rwanda, Burundi, Uganda, and soon Tanzania to contribute to 
peacekeeping missions in Somalia, Sudan, and elsewhere. Also, USARAF 
will conduct a multilateral, regional, disaster relief exercise with 
Rwanda, Burundi, Uganda, Kenya, and Tanzania (Natural Fire) in 2009. 
Increasing the capabilities of our partner nations allows them to 
address instability and the enabling effects it has on piracy and 
violent extremism.
    Additionally in East Africa, and as part of our overall 
professionalization efforts, U.S. Africa Command works with partners to 
promote stability and security through support to professional schools. 
Five U.S. military instructors currently teach and assist in curriculum 
development for Ethiopian senior officers at the Ethiopian Defense 
Command and Staff College. In Kenya, we are supporting Kenyan efforts 
to develop a professional NCO corps. In Uganda, CJTF-HOA provides 12 
instructors for their NCO Academy, as well as guest lecturers at the 
command and staff college in Jinja.
    CJTF-HOA conducts security cooperation programs throughout the Horn 
of Africa, East Africa, and the regional islands. The CJTF focuses its 
operations on building regional and bilateral security capacity to 
combat terrorism, deny safe havens and material assistance support to 
terrorist activity, and prepare for other challenges such as natural 
and manmade disasters. The effect of CJTF-HOA is maximized by close 
coordination with our OSCs, coalition members, partner countries, other 
U.S. Government agencies, and NGOs operating in the region.
    Military-to-military engagement is the foundation of building 
security capacity in the East African Region. CJTF-HOA military-to-
military activities includes Staff Officer and NCO mentoring, ACOTA 
mentors, counterterrorism training, Peace Support Operations, Maritime 
Engagement Team activities, disaster response, and Standard Operating 
Procedures development. CJTF-HOA invests in regional institutions to 
ensure Africans are on the leading edge of solving their own 
challenges.
    Civil-military activity and development are also pathways to 
security capacity building for CJTF-HOA. The presence of Civil Affairs 
(CA) teams in the region help partner nations improve their civil-
military relations with local communities. These teams provide CJTF-HOA 
the ability to access high risk areas, thereby helping advance U.S. 
Government and host nation development priorities. In coordination with 
USAID and DOS, civil affairs activities help mitigate the stresses that 
contribute to regional instability.
    CJTF-HOA is a model for multinational and interagency 
collaboration, and its presence in the region is critical to 
accomplishing U.S. Africa Command's mission.
    Southern Africa
    With the exception of Zimbabwe, the southern African countries are 
relatively stable but face significant challenges in improving living 
standards, reducing government corruption, and developing strong 
democratic systems. The political and humanitarian crisis in Zimbabwe 
has had spillover effects on the region, with refugees and disease 
moving across borders. While HIV/AIDS afflict the entire continent, 
Southern Africa has the highest infection rates in the world. Security 
forces across this region are compromised by the disease, which reduces 
their ability to conduct operations.
    Additionally, with the exception of South Africa, coastal countries 
here lack the ability to monitor and control their territorial waters. 
As a result, the region is vulnerable to illicit trafficking and 
continues to lose important economic resources through illegal fishing.
    Despite these regional challenges, South Africa remains the 
economic powerhouse of Sub-Saharan Africa, producing over 40 percent of 
the subcontinent's gross domestic product and exporting strategic 
minerals throughout the world. South Africa's contributions to Africa's 
stability are not only economic; its professional and capable military 
provides over 3,000 soldiers to U.N. and AU missions. U.S. Africa 
Command is developing a growing and improving relationship with the 
South African National Defense Force (SANDF). We had a productive pre-
planning meeting with SANDF in November 2008 as we worked together to 
prepare for the upcoming U.S.-South Africa Defense Committee meetings 
scheduled for this summer. We look forward to co-chairing the military 
relations working group with SANDF during these bilateral Defense 
Committee meetings. In addition, NAVAF completed staff talks in 
February 2009, and we have a Medflag scheduled by USARAF in Swaziland 
for this year.
    Botswana is also one of Africa's success stories, rising from one 
of the world's poorest countries at independence to middle income 
status, and it recently celebrated 40 years of uninterrupted democratic 
governance. Botswana's military is professional and capable, but 
remains focused on potential regional instability that may arise from 
the collapse of the Zimbabwe Government. Namibia and Malawi also 
contribute to U.N. peacekeeping missions in Africa and states such as 
Mozambique and Swaziland have also expressed an interest in 
contributing forces to U.N. peacekeeping operations. At the request of 
the Chief of Staff of the Botswana Defense Force (BDF), Colonel Martha 
McSally, my Joint Operations Center Chief, has been assisting the BDF 
for 18 months as they integrated the first female officers into their 
force. She has led seminars for senior BDF leaders on good order, 
discipline, and professionalism in a male-female integrated military, 
and has also conducted seminars in Swaziland and Lesotho.
    Advancing the U.S.-South Africa relationship and expanding military 
cooperation to focus on regional and continental security challenges is 
extremely important. NAVAF, expanding its maritime safety and security 
(MSS) program, deployed the U.S. aircraft carrier U.S.S. Theodore 
Roosevelt to South Africa this past year in an historic visit--the 
first U.S carrier visit since the end of apartheid.
         u.s africa command component and subordinate commands
    U.S. Africa Command is comprised of four component commands, one 
subunified command, and the Combined Joint Task Force-Horn of Africa. 
The Service components currently have no assigned forces and rely on 
forces provided through the Global Force Management and Request for 
Forces system.
U.S. Army Africa
    In January 2009, U.S. Africa Command gained operational control of 
U.S Army Southern European Task Force (SETAF), which now, as U.S. Army 
Africa (USARAF), serves as U.S. Africa Command's Army component. 
USARAF, in concert with national and international partners, conducts 
sustained security engagement with African land forces to promote 
peace, stability, and security in Africa. As directed, USARAF deploys 
as a contingency headquarters in support of crisis response. USARAF is 
currently manned at 67 percent of its approved personnel strength for 
military and civilian positions, with 244 of its 318 military positions 
and 44 of 110 civilian positions filled. USARAF capabilities center on 
planning, directing, and providing oversight of security cooperation 
activities and stability operations.
    Recognizing the Army's important contribution to U.S. Africa 
Command's Theater Strategy, USARAF continues to execute engagement and 
exercise programs on a bilateral, multi-lateral, and regional basis. 
These programs are designed to help our African partners develop 
capable security forces that respect the rule of law, abide by human 
rights norms, are accountable to legitimate civilian authorities, and 
contribute to internal security and external peace operations.
U.S. Naval Forces, Africa
    U.S. Naval Forces, Africa (NAVAF) primary mission is to improve the 
MSS capability and capacity of our African partners. Beyond APS, law 
enforcement operations, and TSC activities mentioned earlier, NAVAF is 
working to enhance MSS by focusing on the development of maritime 
domain awareness, trained professionals, maritime infrastructure, and 
response capabilities.
    A critical aspect of MSS is awareness of activities occurring in 
the maritime environment. Maritime domain awareness (MDA) provides 
participating states the capability to network maritime detection and 
identification information with appropriate national defense and law 
enforcement agencies. A widely accepted first step in achieving MDA is 
installation of the Automatic Identification System (AIS). AIS is 
similar to the U.S. Federal Aviation Association system for aircraft 
identification. Although AIS is used around the globe, the data has not 
been widely shared to date. In response to NAVAF initiatives, 18 
nations in Africa now share unclassified AIS data through the Maritime 
Safety and Security Information System.
    Partnering with our Reserve components, NAVAF is assigning Maritime 
Assistance Officers (MAOs) to U.S. embassies. MAOs assist country teams 
in planning for maritime security cooperation activities. They provide 
insight into maritime culture, attitudes, and capacity--all of which 
are necessary for understanding where we can best assist each country 
in building MSS.
U.S. Air Forces, Africa
    U.S. Air Forces, Africa (AFAFRICA) is the Air Force component to 
U.S. Africa Command. Its mission is to command and control air forces 
to conduct sustained security engagement and operations to promote air 
safety, security, and development.
    AFAFRICA was activated at Ramstein Air Base, Germany on 1 October 
2008. AFAFRICA is administratively assigned to the United States Air 
Forces Europe for organize, train, and equip (Title 10) support. 
However, AFAFRICA reports directly to U.S. Africa Command for 
operational taskings and support, and will be organized into an Air 
Force Forces staff and the 617th Air and Space Operations Center.
    AFAFRICA's current command and control center was established on 1 
October 2008 to provide a continuous command and control capability for 
all theater security cooperation exercise and engagement activities as 
well as ongoing crisis response contingencies such as foreign HA, non-
combatant evacuation operations, and humanitarian relief operations. 
Ultimately, this capability will evolve into a tailored air operation 
center, the 617th Air and Space Operations Center. Scheduled to reach 
full capability in October 2009, the 617th will be the lead command and 
control organization for air and space operations and will provide a 
common operating picture of all air missions within the AOR.
    AFAFRICA's total force partnership coupled with an increased 
reliance on technologies and reach-back assets from Headquarters Air 
Force and lead major commands will ensure AFAFRICA is prepared for the 
challenges ahead.
U.S. Marine Corps Forces, Africa
    U.S. Marine Corps Forces, Africa (MARFORAF) was established on 1 
October 2008. MARFORAF is currently colocated with U.S. Marine Corps 
Forces, Europe, in Stuttgart, Germany. One dual-hatted Marine Corps 
general officer commands both organizations. The two Marine staffs, in 
addition to sharing facilities, also share common administrative 
support elements.
    MARFORAF has assumed duties for the conduct of operations, 
exercises, training, and security cooperation activities in the U.S. 
Africa Command AOR. The preponderance of the Marine Corps' recent 
activity has been in West Africa and the Gulf of Guinea. With the 
establishment of U.S. Africa Command, MARFORAF is planning to expand 
its activities into other regions of Africa and execute more than sixty 
engagement events in fiscal year 2009.
U.S. Special Operations Command, Africa
    On 1 October 2008, U.S. Special Operations Command, Africa 
(SOCAFRICA) was established as U.S. Africa Command's Theater Special 
Operations Command--a functional, sub-unified special operations 
command for Africa. SOCAFRICA contributes to U.S. Africa Command's 
mission through the application of the full spectrum of special 
operations forces capabilities including civil affairs, information 
operations, TSC, crisis response, and campaign planning.
    In fiscal year 2009, SOCAFRICA plans to conduct 44 engagement 
events with 13 countries in Africa. In addition to Joint Combined 
Exchange Training and bilateral training, SOCAFRICA will supplement its 
efforts by bringing senior officers and civil authorities from partner 
nations together to attend seminars and courses to promote exchanges 
about military aspects of good governance. In fiscal year 2009, 
SOCAFRICA's information operations and civil affairs activities will 
focus on eroding popular support for violent extremist organizations--
particularly in countries located within the Horn of Africa, Trans-
Sahara, and Central Region.
Combined Joint Task Force--Horn of Africa
    Since conception in 2002, CJTF-HOA's mission has migrated to 
building security capacity through cooperative conflict prevention. 
During this time, the country of Djibouti has become increasingly 
important in terms of significance to the U.S. military due to its 
strategic location. Our enduring presence at Djibouti helps build 
relationships which are the strongest mechanism for furthering U.S. 
objectives on the continent.
    Responding to the expressed desires of African states, CJTF-HOA 
focuses its efforts with regional militaries on building state and 
regional security capacity. Regional security cooperation is fostered 
through coalition efforts with member countries of the East African 
Standby Force (EASF) (We do not provide direct support to the EASF; we 
have bilateral relationships with EASF participating member countries), 
International Peace Support Training Center, and the International Mine 
Action Training Center--along with Liaison Officer support for ACOTA 
training. CJTF-HOA seeks to improve East Africa Maritime Security and 
Safety through the expansion of maritime domain awareness and 
implementation of an African Partnership Station East. Working with 
Partner Countries to develop a professional officer and NCO corps is a 
foundational element of CJTF-HOA capacity building. Professional 
Military Education development through engagements at Command and Staff 
Colleges and various Senior Leader Engagements support 
professionalization of militaries, and assist other U.S. Government 
agencies in helping partner states diminish the underlying conditions 
that extremists seek to exploit.
    All of these efforts and activities provide collaborative 
opportunities for CJTF-HOA to better understand cultural dynamics and 
tailor programming and projects that support partner militaries while 
enhancing long-term security capacity building.
                        theater investment needs
Theater Infrastructure and Posture Requirements
    U.S. Africa Command infrastructure and posture requirements are in 
two major areas: headquarters establishment, and theater operational 
support. The command's posture plan and facilities master plan are 
built around these two requirements.
    Infrastructure: Headquarters establishment
    For the foreseeable future, our headquarters will remain at 
Stuttgart. For the next 5 years, operational factors will be paramount, 
and we will benefit from the stability of staying in one location where 
we can polish our operational processes, cement relationships with our 
partners on and off the continent, and consolidate our gains.
    Posture: Theater operational support
    U.S. Africa Command seeks to posture itself via its Theater Posture 
Plan in a manner that enhances its peacetime mission, ensures access 
throughout the AOR, and facilitates the conduct of contingency or 
crisis response operations. The command's posture will support U.S. 
Africa Command's efforts to integrate and synchronize its theater 
engagement activities with the rest of the U.S. Government and key 
international partners.
    Forward Operating Site (FOS) and Cooperative Security Locations 
        (CSL) in U.S. Africa Command's AOR
    The command's two FOSs are Ascension Island (United Kingdom) and 
Camp Lemonier (Djibouti). Ascension Island, a major logistic node for 
the United Kingdom, is a newly identified node for U.S. Transportation 
Command in support of Africa Command.
    Camp Lemonier is the enduring primary support location for East 
Africa, and is an identified FOS. As U.S. Africa Command matures, Camp 
Lemonier remains essential to supporting long-term TSC efforts and 
establishing strong and enduring regional relationships. Camp Lemonier 
and CJTF-HOA operations have largely been resourced from the global war 
on terror emergency supplemental appropriations to establish 
expeditionary infrastructure and achieve operational needs. Current and 
programmed projects are an integral part of the Camp's installation 
master plan. These projects are necessary to support sustained security 
engagement activities and their supporting units. Camp Lemonier is a 
critical part of supporting and developing regional African capability 
and capacity.
    Also key to operational support is U.S Africa Command's Adaptive 
Logistics Network (ALN) approach to logistics on the continent. Our 
goal with ALN is to develop a flexible network of logistics 
capabilities that has ability to respond to logistic demands. The heart 
of the ALN will be comprehensive, real-time knowledge of available 
logistic capabilities and capacities across the continent of Africa. 
ALN will be the key to integrate the distributed network of FOS and 
CSL.
    En-Route Infrastructure outside U.S. Africa Command's AOR
    In addition to the facilities mentioned above inside our AOR, U.S. 
Africa Command has identified the main operating bases in Rota (Spain), 
Sigonella (Italy), and the CSL Cairo West as important logistic support 
facilities. Although these sites are located in other geographic 
combatant command areas of responsibility, they are critical 
intermediate nodes for logistics coming in and out of our AOR. 
Transportation Command requires these facilities to support U.S. Africa 
Command.
Quality of Life Programs
    Africa Command's Quality of Life (QoL) investments affirm our 
commitment to our team members and their families. Their sacrifices 
deserve our total dedication. The foundation for our success will be 
derived from the strength of our families. The command is committed to 
providing a strong, supportive environment which fosters growth and 
excellence, while providing the highest quality of resources and 
services to our Africa Command family.
    The command has created a QoL office to manage and oversee QoL 
activities both in the headquarters location and on the African 
continent. This office will continuously assess the theater-wide 
environment in order to identify emerging and unusually sensitive QoL 
issues. Additionally, it will serve as an advocate for the well-being 
of our team members and families on the continent. Providing for our 
service members and their families living on the continent of Africa 
and at other European locations remain a high priority for the Command.
    In March 2008, we held our first Africa Command Families on the 
African Continent meeting to address issues facing families living in 
Africa, followed by a second meeting in February 2009. This will be an 
annual forum where we can address emerging issues and develop our QoL 
Action Plan. This will be particularly important as we incorporate 
CJTF-HOA and its mission. We must ensure that the quality of life for 
service and family members supporting CJTF-HOA meets their needs as 
U.S. Africa Command continues to develop. Our goal working with 
Department of Defense Education Activity and the Department of Defense 
Dependent Schools--Europe is to provide every student with an 
opportunity for a quality education.
    To assist our team members and their families in solving problems 
resulting from deployment, reunions, and other family changes, U.S. 
Africa Command is implementing the Military and Family Life Consultant 
Program to support both the command headquarters and the African 
continent. The program has obtained funding for fiscal year 2009 which 
will provide licensed social workers and psychologists to the 
embassies, ensuring services are available as needed.
    We must ensure that quality of life for our serving members--
wherever they are posted--remains a priority and is funded properly.
              u.s. africa command interagency initiatives
    We multiply effects and achieve greater results when we work 
closely with our U.S. Government interagency partners. Having 
interagency personnel imbedded in our command enhances our planning and 
coordination, and the MOU signed between U.S. Africa Command and USAID 
in Morocco is a model we hope to replicate throughout our AOR. Also, 
the flexibility provided through partner capacity building programs 
enabled us to react quickly to provide security enhancing activities 
and support to U.S. Embassy plans and operations.
Building Partner Capacity
    Partner capacity building programs have provided important tools 
for addressing emerging threats. We were able to put these funds to 
good use in assisting our partners in Africa in fiscal year 2008, and 
sought greater funding--in one case twice the previous years amount--
for fiscal year 2009.
    Our previously mentioned contribution to a U.S. Embassy's program 
for ``Mitigating the factors of youth disaffection and 
marginalization'' is a wise use of capacity building funds in an 
interagency fashion that best meets U.S. strategic, security, and 
foreign policy objectives. This program will reduce disaffected youths' 
exposure to extremist ideologies as well as the recruiters often found 
in prisons and elsewhere.
    Likewise, use of partner capacity building funds in Liberia is 
intended to develop police force capabilities to maintain security and 
stability following the pending departure of U.N. police units. Support 
to U.S. Government security sector reform and rule of law activities is 
particularly important across the continent since personal security and 
stability provides the foundation for constructive economic 
development, and this development serves the interests of all the 
peoples of Africa.
Support for Regional Programs
    Many of the security and stability challenges on the continent are 
transnational in nature and require regional, rather than national 
responses. For example, seasonal droughts and floods usually affect 
multiple countries and require regionally-based responses. Programs 
such as the USAID's Famine Early Warning System (FEWS) provide valuable 
data enabling improved preventive and response activities on the part 
of both civilian agencies and the U.S. military. FEWS and other 
regional programs, including various conflict early warning initiatives 
led by other U.S. Government agencies, demonstrate the advantages of a 
holistic approach to the problems of Africa.
    Foreign language skill, cultural awareness, and regional 
proficiency are core competencies for U.S. Africa Command. The many 
bilateral and multilateral relationships that U.S. Africa Command 
maintains as we work with our partners depend on the language skills, 
advanced cultural awareness, and regional expertise of our forces. 
Effective interaction with regional partner's governments, militaries, 
and populations demands a robust ability to communicate on a face-to-
face level. Growing and enhancing these language and cultural 
capabilities is vital for U.S. Africa Command.
                               conclusion
    Today United States Africa Command is serving effectively in 
support of U.S. national security and foreign policy objectives in 
Africa. As the newest unified command and the DOD's single focal point 
for activities in this important region, we are implementing the 
visionary concept of an integrated command, with key interagency 
personnel included in our organizational structure, to advance 
collaboration between DOD and other U.S. Government agencies to build 
greater security with our African partners.
    Our priority remains the delivery of effective and sustained 
security cooperation programs designed to build African security 
capacity. Long-term security and stability in Africa is dependent on 
our partners' ability to address their own challenges, so that they can 
take action not only against security threats, but also to conduct 
regional humanitarian operations.
    In this effort, the importance of our interagency partners cannot 
be overstated. Diplomacy, development, and defense all require time, 
funding, and people if we are to meet our obligations successfully. 
Your support to U.S. Africa Command, as well as to our interagency 
partners, is critical to our collective ability to meet our national 
objectives.
    It is my honor to serve with the uniformed men and women, our DOD 
civilian employees, as well as our interagency partners who have made 
U.S. Africa Command a functioning reality in a very short time. Your 
sustained support will allow their good work to continue in service of 
our country.

    Chairman Levin. Thank you so much, General Ward.
    General McNabb.

  STATEMENT OF GEN. DUNCAN J. McNABB, USAF, COMMANDER, UNITED 
                 STATES TRANSPORTATION COMMAND

    General McNabb. Chairman Levin and distinguished members of 
the committee, it is indeed my privilege to be with you today 
representing the men and women of TRANSCOM, more than 136,000 
of the world's finest logistics professionals. This total force 
team of Active Duty, Guard, Reserve, civilian, contractors, and 
commercial partners enables the combatant commanders such as 
General Ward, General Renuart, and Admiral Stavridis to succeed 
anywhere in the world by providing them unmatched strategic 
lift and end to end global distribution.
    This committee is well aware that it is our great people 
that get it done. It is our logistics professionals, using 
newly developed supply routes through the Northern Distribution 
Network, supporting Operation Enduring Freedom. Senator Levin 
and Senator McCain, you both asked me about that and I look 
forward to going over that with you.
    It is our total force air crews flying combat approaches on 
night vision goggles or air dropping supplies to our troops in 
Afghanistan. It is our air refueling crews delivering 5 million 
pounds of fuel every day and night, extending the reach of our 
joint force and coalition partners. With maintenance teams 
behind them, these crews execute more than 900 sorties a day. 
That's a takeoff and landing every 90 seconds, sometimes in the 
most austere places like Antarctica or the most dangerous, like 
a forward operating base under fire in Afghanistan.
    It is our merchant mariners and military and civilian port 
operators loading, offloading, and sailing more than 35 ships 
every day in support of the warfighter. It is our terminal 
operators moving thousands of containers, domestic freight and 
railcar shipments, pushing warfighters and their vital supplies 
to the fight. It is our contingency response groups and port 
opening experts arriving first to open up the flow in 
contingency or disaster relief operations in support of the 
combatant commanders.
    It is our commercial airlift and sealift partners standing 
beside us, opening new avenues of supply into Afghanistan or 
supporting the Nation in times of surge. it is our medical 
crews and critical care teams tending to our wounded warriors, 
rapidly delivering them from the battlefield to the finest, 
world-class care on the planet, saving lives and families at 
the same time. It is our crews bringing back fallen comrades, 
transporting heroes dressed in our Nation's colors, Americans 
returning with dignity to our country which owes them so much.
    It is this logistics team, working from home and abroad, 
that gives our Nation unrivaled global reach, committed to 
serving our Nation's warfighters by delivering the right stuff 
to the right place at the right time. Whether sustaining the 
fight, providing disaster relief to friends in need, or moving 
six brigades simultaneously, we are there.
    Chairman Levin, your support and the support of this 
committee has been instrumental in providing the resources our 
team needs to win, and I thank you. You have given us the Large 
Medium-Speed Rollon-Rolloff ships and supported upgrades to our 
Ready Reserve Fleet, all of which have been key to our success 
over the last 7 years, and the new joint high-speed vessels 
will give us even greater flexibility.
    The C-130J and the C-17 have come of age since September 11 
and have allowed us to change how we support the combatant 
commanders by air. The current C-5, C-130, and KC-10 
modernization programs will also make an enormous difference in 
our capability and reliability to support the warfighter.
    My top priority remains the recapitalization of our aging 
tanker fleet. The KCX will be a game-changer. Its value as a 
tanker will be tremendous. Its value as a multi-role platform 
to the mobility enterprise will be incomparable. It will do for 
the whole mobility world what the C-17 did for theater and 
strategic airlift. It will be an ultimate mobility force 
multiplier.
    Chairman Levin, Senator McCain, I'm grateful to you and the 
committee for inviting me to appear before you today. I 
respectfully request my written testimony be submitted for the 
record and I look forward to your questions.
    [The prepared statement of General McNabb follows:]
           Prepared Statement by Gen. Duncan J. McNabb, USAF
          introducing the united states transportation command
Mission/Organization
    The United States Transportation Command (USTRANSCOM) operates the 
integrated, networked end-to-end distribution system that delivers to 
the ``right place,'' at the ``right time,'' for the warfighter and at 
the best value for our Nation. As a supporting command, we execute 
military and commercial transportation, terminal management, aerial 
refueling and global patient movement throughout the Defense 
Transportation System (DTS) in a wide range of military and 
humanitarian operations. As a combatant command, we have operational 
warfighter requirements. As the Distribution Process Owner (DPO) we 
have business and logistics enterprise responsibilities.
    USTRANSCOM leads a committed Total Force team of Active Duty, 
Guard, Reserve, Civilian, contractors and commercial partners. Our 
component commands--the Army's Military Surface Deployment and 
Distribution Command (SDDC), the Navy's Military Sealift Command (MSC) 
and the Air Force's Air Mobility Command (AMC)--and our enterprise 
partners provide the capacity to deliver logistics and distribution 
capability that supports the Joint Force Commanders' ability to project 
combat power and national power in peace and war.
    Additionally, as the DPO, USTRANSCOM leads a collaborative effort 
within the Joint Deployment and Distribution Enterprise (JDDE) to 
deliver innovative and cost-efficient solutions to increase the 
precision, velocity, reliability and visibility of our distribution 
network and the overall Department of Defense (DOD) supply chain.
                      supporting global operations
    In support of our warfighters across the globe our components have 
delivered those ``right place,'' ``right time'' ``best value'' 
solutions in staggering quantities. Last year, AMC and our commercial 
partners moved more than 2 million passengers and 735,000 short tons 
(stons) of cargo, and our aging tanker aircraft delivered 229 million 
gallons of fuel to U.S. and coalition aircraft. Equally impressive, MSC 
shipped 6.8 million square feet and SDDC moved 3 million stons of cargo 
worldwide. Finally, to support global DOD requirements, MSC's point-to-
point tankers delivered 1.47 billion gallons of fuel. Each of our 
components individually possesses a tremendous capability. USTRANSCOM 
ties these capabilities together using intermodal solutions to maximize 
efficiency and best support the combatant commanders (COCOMs).
Support to United States Central Command
    USTRANSCOM continued its focus on supporting operations in the 
United States Central Command (USCENTCOM) Area of Responsibility (AOR). 
This year, establishing the Northern Distribution Network (NDN), 
alternative routes to Afghanistan through the Caucasus and Central 
Asia, has become a high priority. And we have made significant progress 
in partnership with the Department of State, DOD, USCENTCOM, U.S. 
European Command (USEUCOM), and U.S. Pacific Command (USPACOM) to 
establish these new routes. The NDN--along the historic Silk Road--will 
leverage the existing commercial distribution networks to move non-
military commercial cargo using our U.S. Flag commercial carriers. The 
NDN also provides additional cargo throughput capabilities vital to 
support the increasing forces in Afghanistan.
    Another top priority is working Gulf of Aden piracy issues with our 
commercial shipping partners. Recognizing that significant interagency 
and multinational actions are underway to address this growing problem, 
we held discussions with U.S. commercial carriers servicing DOD sealift 
transportation requirements to solicit their concerns. In collaboration 
with the Maritime Administration, USTRANSCOM served as a conduit to 
enable U.S. Flag carriers to develop tactics, techniques and procedures 
to minimize the piracy risk.
    In direct support of USCENTCOM force flow, we deployed and 
redeployed 41 Brigade Combat Teams, 37,000 Air Expeditionary Forces, 
and 3 Marine Air Ground Task Forces and executed several short fuse 
deployments such as the 24th Marine Expeditionary Unit to Afghanistan. 
And to ensure warfighters in theater received the latest advances in 
vehicle protection, we delivered over 11,000 mine-resistant ambush 
protected vehicles and more than 8,300 improved vehicle armor kits. We 
also airdropped 8,000 stons of cargo in Afghanistan. This widespread 
use of our improved and precision airdrop capability is evidence of our 
promise to the COCOMs that we will take the supply chain vertically and 
as far forward as necessary to support them.
Support to Other Combatant Commands
    The USEUCOM AOR was also very active. When Russia invaded Georgia, 
USTRANSCOM moved Georgian troops serving in Iraq back to defend their 
homeland. In less than 92 hours, AMC crews flew 14 C-17 missions, each 
averaging 31-minutes on the ground in Tblisi to deliver 1,700 troops--
the entire Georgian First Brigade. Additional C-17 sorties delivered 
over 350,000 humanitarian rations as part of Operation Assured 
Delivery, providing hope and sustenance to the Georgian people.
    As U.S. Africa Command (USAFRICOM) grows and expands its mission, 
USTRANSCOM will leverage our resources and expertise to support this 
new command.
    In the U.S. Southern Command AOR, we conducted detainee movement 
operations from Guantanamo Bay, Cuba. At the same time, our defense 
couriers transported attorney-client material in support of High Value 
Detainee litigation. Elsewhere in the region, we provided air refueling 
and aeromedical evacuation support for the repatriation of three U.S. 
hostages rescued in Colombia and moved time-sensitive cargo for 
humanitarian assistance and disaster relief missions in Haiti.
    We supported USPACOM with force rotations and sustainment for 
Operation Enduring Freedom-Philippines, transporting more than 2,000 
passengers and 2,300 stons and 63,000 square feet of cargo. In support 
of the National Science Foundation, Operation Deep Freeze set records--
we airlifted over 6,400 stons of cargo and 5,400 passengers and 
sealifted nearly 6 million gallons of fuel and 10,500 stons of cargo 
into McMurdo Station, Antarctica.
    Working closely with U.S. Strategic Command (USSTRATCOM), we 
supported the engagement of an uncontrollable satellite with 
operational planning and alert strategic airlift for potential recovery 
and consequence management. We are also actively and uniquely involved 
with USSTRATCOM in the cyber security challenges that are especially 
evident in the strategic partnerships USTRANSCOM has with industry and 
the logistics enterprise.
    Finally, at home, we aided U.S. Northern Command (USNORTHCOM) and 
government agencies, such as the Federal Emergency Management Agency, 
during catastrophic events. During the California wildfires we deployed 
command and control, aerial firefighting, and evacuation elements to 
reduce loss of life and property. During Hurricanes Gustav and Ike, we 
provided defense support to civil authorities in Texas and Louisiana, 
including air evacuation of 5,600 civilians and 1,000 patients. 
Additionally, we are dedicated to providing deployment support for 
USNORTHCOM's Consequence Management Response Force.
Support for the Warfighter
    One of our most critical missions is moving injured warfighters 
from the battlefield to world-class medical treatment facilities. This 
complex, time-sensitive process requires close collaboration with 
doctors, military hospitals and our aeromedical evacuation crews to 
move injured personnel at exactly the right time to the right place. In 
2008, we transported over 7,800 patients from the USCENTCOM AOR and 
over 13,000 patients globally. Should a warfighter perish in the 
defense of our Nation, we ensure the most dignified transport from the 
battlefield to final destination.
    Our support to the warfighter also includes improving quality of 
life at home. The Defense Personal Property Program improves household 
goods shipments by allowing personnel to evaluate transportation 
service providers online, obtain counseling via the web and file 
personal property claims directly with the provider. With over 329,000 
personnel and their families and 1.5 billion pounds of household goods 
moving each year, USTRANSCOM has maintained a sharp focus on this 
program and its associated IT system, the Defense Personnel Property 
System (DPS). DPS successfully came online in November 2008 at 18 DOD 
locations, and will be available for all 136 DOD shipping offices 
beginning in March 2009.
Improving Global Joint Sourcing Solutions
    USTRANSCOM is always searching for ways to improve performance. We 
recently established our Fusion Center to integrate planning and 
operations, which allows more effective requirements management, 
improves distribution pipeline visibility and fosters customer and 
partner relationships. Key stakeholders are now able to collaborate on 
decisions, resulting in synchronized, cost effective distribution 
solutions.
    As a result of the 2005 Base Realignment and Closure (BRAC) 
process, USTRANSCOM began construction of our new building designed to 
capitalize on efficiencies by colocating USTRANSCOM and component 
command experts in close proximity to one another. This design will 
enable USTRANSCOM, SDDC and some of the AMC and MSC staffs to work 
side-by-side to resolve issues and formulate solutions from an 
integrated, intermodal perspective. Additionally, the new facility will 
include the Joint Intelligence Operations Center-Transportation (JIOC-
TRANS). By integrating operations and intelligence, we will further 
improve mission execution by identifying and assessing threats to our 
intermodal operations at seaports, airfields, and connecting surface 
networks worldwide.
    A further BRAC related effort is the Acquisition Center of 
Excellence (ACE) which combines program management, common carrier 
acquisitions and contract functions under one authority. The ACE better 
positions USTRANSCOM to establish long-term national-level 
transportation contracts with decreased overhead costs, build strategic 
partnerships with multi-modal transportation and distribution service 
providers, and manage command modernization efforts for more efficient 
warfighter support.
    Finally, USTRANSCOM created the Joint Distribution Process Analysis 
Center (JDPAC), an entity which consolidates analysts from USTRANSCOM, 
AMC and SDDC. Because of its significant analytical capabilities, we 
envision it becoming the DOD's center of excellence for all joint 
mobility deployment and distribution studies and analyses. JDPAC's 
first major undertakings include oversight of the congressionally-
mandated study of the size and mix of the inter-theater airlift force 
(conducted by the Institute for Defense Analyses) and the Mobility 
Capabilities and Requirements Study 2016 (MCRS-16), which we co-lead 
with the Office of the Secretary of Defense. These studies, expected to 
be completed in 2009, will aid decision makers in determining the 
mobility requirements necessary to defend the homeland, prevail in the 
war on terror, conduct irregular warfare and win conventional campaigns 
in the 2016 timeframe.
Maintaining Air Mobility Readiness
    While we await the outcome of MCRS-16 to help shape future mobility 
requirements, there is no doubt that some of our organic air mobility 
force structure requires recapitalization.
    My number one recapitalization priority is replacing the fleet of 
415 Eisenhower-era KC-135s with a new platform to preserve a unique 
asymmetric advantage for our Nation. The KC-X with multipoint refueling 
allowing same sortie service to Air Force, Navy, Marine and coalition 
aircraft will address the significant risk we are currently carrying in 
air capacity and address further capability risks associated with an 
airframe that is almost 50 years old--and will be over 80 years old by 
the time we recapitalize all of them. The ability to carry cargo and 
operate forward with defensive systems will be a game changer when the 
aircraft is not needed as a tanker. Further delays in replacing this 
aircraft will add significant risk to our ability to rapidly project 
combat power to support the Nation and our allies. It is imperative to 
expedite a smart, steady reinvestment program.
    Our newest tanker, the KC-10, has also served us well since 
entering service in 1981. We must continue to modernize the KC-10 fleet 
to operate in the global airspace environment and to remain viable past 
2040.
    Our national defense strategy requires a viable fleet of strategic 
airlift aircraft. The C-17 has proven itself a critical asset, offering 
the flexibility to fill key tactical requirements in addition to 
fulfilling its primary strategic airlift role.
    Additionally, the C-5's outsized and oversized cargo capability is 
essential to meeting our global mobility requirements. Unfortunately, 
low departure reliability and mission capable rates continue to plague 
the C-5 fleet. Modernizing all the C-5s with avionics upgrades is 
essential to allow access to international airspace and foreign 
airfields. New engines and other reliability enhancements for our C-5Bs 
and two C-5Cs are necessary to increase aircraft availability, reduce 
fuel consumption and significantly improve performance throughout their 
projected service life. We will modernize the C-5 fleet while closely 
managing the costs.
    The C-130 continues to be the workhorse supporting the warfighter 
in theater and will remain viable through acquisition of the C-130J and 
modernization of legacy C-130s via the center wingbox replacement 
program and avionics upgrades. However, the Air Force also needs the 
flexibility to retire and replace aircraft at the end of their service 
life.
    The C-27 (JCA) is an emerging intra-theater asset that will provide 
COCOMs and the Services an airlift capability to meet time sensitive/
mission critical movement requirements. DOD will leverage the JCA for 
multi-use, alternating between direct support and general support to 
maximize utility for the warfighter.
    Our mobility aircraft routinely operate in threat areas across the 
spectrum of conflict from humanitarian relief to combat resupply. To 
operate safely in these environments, AMC continues to equip aircraft 
with the Large Aircraft Infrared Countermeasures system and will soon 
begin developing other defensive systems to avoid radar-guided threats.
    Operational Support Airlift (OSA) and Distinguished Visitor (DV) 
transportation are other key components of the global mobility force. 
Our senior leaders require time-critical, reliable airlift to carry out 
their global missions, and require communications capability equal to 
what they enjoy at their homestations. Therefore, in partnership with 
the Joint Staff and the Services, we are implementing an airlift 
information management system called the Joint Air Logistics 
Information System--Next Generation (JALIS-NG). JALIS-NG will improve 
visibility of high-priority OSA missions and DV passengers, thereby 
more efficiently employing the OSA fleet. Additionally, we are 
modernizing the executive aircraft fleet with the Senior Leader 
Command, Control, and Communications System--Airborne (SLC3S-A) package 
to significantly improve senior leader airborne communications.
    The Civil Reserve Air Fleet (CRAF) is a critical partner in our 
ability to rapidly project and sustain forces. We appreciate the 
authorities granted in the National Defense Authorization Act for 
Fiscal Year 2009 allowing the Department to guarantee minimum levels of 
business to CRAF carriers. These authorities will help strengthen the 
CRAF program as business in the DTS eventually returns to pre-September 
11 levels. We will fulfill our congressionally-mandated 
responsibilities to improve predictability of DOD charter requirements, 
strengthen CRAF participation and entice carriers to use newer, more 
fuel efficient aircraft as prerequisites to exercising these 
authorities.
Maintaining Sealift Readiness
    Like airlift, flexible, cost effective commercial ocean 
transportation is vital to our National interests and is a critical 
component of the DTS. DOD's ``Commercial First'' policy helps ensure 
the U.S.-flagged maritime industry and pool of U.S.-citizen mariners 
are available in time of national emergency.
    DOD is among the largest single shippers of ocean cargo worldwide, 
and in the past year alone spent nearly $1 billion on commercial 
transportation. We acquire worldwide intermodal transportation services 
in support of DOD and government agency requirements through the 
Universal Service Contract (USC). USC leverages commercial service on 
established trade routes and capitalizes upon existing commercial 
investment in global infrastructure.
    USTRANSCOM also partners with the U.S. Commercial Sealift Industry 
through programs like the Maritime Security Program (MSP), Voluntary 
Intermodal Sealift Agreement (VISA) and Voluntary Tanker Agreement 
(VTA) to gain critical access to U.S. commercial capabilities to 
support DOD's force projection requirements in times of war or crisis. 
We are working closely with the Maritime Administration to help 
revitalize the VTA, and we support the Navy's program to replace four 
T-5 tankers with two newly built commercial charters in 2010.
    MSC and the Maritime Administration are also improving the 
efficiency of surge sealift asset management for our organic fleet. 
This year we made significant improvements to our strategic sealift 
readiness posture by relocating three Large Medium Speed Roll-on/Roll-
off vessels and two Fast Sealift Ships to the West Coast. Our analysis 
indicated this move would improve our strategic sealift response 
capabilities in the USPACOM AOR, mitigate shortfalls in the Army's 
afloat prepositioning program and optimize sealift flexibility. MSC and 
the Maritime Administration are also identifying and capturing best 
practices for the activation, maintenance and operations of surge 
sealift ships to more efficiently manage the fleet and ensure the 
readiness of surge assets.
    Finally, I urge Congress to continue support for the National 
Defense Sealift Fund (NDSF) and MSP--both are critical to improving our 
sealift capacity for our warfighters. This past year, both the Maritime 
Administration and MSC utilized NDSF resources to improve the 
capability of roll-on/roll-off vessels in the Ready Reserve Force and 
the VISA program. Newly upgraded ramps installed on two of these ships 
increase ramp capacity, enabling loading of heavier vehicles and 
providing flexibility to load or discharge cargo without regard to pier 
configuration.
Maintaining Surface Readiness
    Preserving and expanding infrastructure is the cornerstone of our 
ability to project national power. USTRANSCOM uses the Global En Route 
Infrastructure Steering Committee (GERISC) in combination with regional 
steering committees to identify worldwide priority construction 
projects. This year the committees recommended taxiway and ramp 
improvements in Colombia, a new passenger terminal at Bagram Air Base 
in Afghanistan and a fuel facility in Oman to improve global mobility 
capacity and throughput as priority infrastructure projects.
    The security of our forces and transportation infrastructure is 
essential to accomplishing our global mission. Our Critical 
Infrastructure Program (CIP) fosters information sharing with the DOD 
and with the Department of Transportation, U.S. Coast Guard, and the 
Transportation Security Administration. The CIP helps identify 
worldwide physical and cyber infrastructures critical to USTRANSCOM's 
global mobility mission and mitigates inherent vulnerabilities.
    In addition to preserving and expanding global access, we continue 
to look for ways to optimize our CONUS infrastructure. SDDC recently 
completed and is implementing findings from Port Look 2008. This study 
recommended retaining all nineteen currently designated strategic 
seaports; designating Charleston Naval Weapons Station and the 
commercial Port of Charleston as two separate, distinct strategic 
seaports; planning for future increased capacity requirements on the 
Gulf Coast and in Alaska; and institutionalizing future Port Look 
studies on a recurring basis, synchronized with release of the 
Quadrennial Defense Review.
    Finally, we continue active participation in the capabilities-based 
assessment of Sea Based operations for the 2015-2025 timeframe. The 
success of Sea Basing depends on advances in at-sea cargo handling, 
ship-to-ship cargo transfers with mitigation of motion effects through 
sea state four and interface with high-speed connectors. The Joint High 
Speed Vessel offers a promising capability to bridge the gap between 
high-speed airlift and low-speed sealift, for transport of forces, 
equipment and sustainment cargo as part of Sea Based operations.
                    leading the jdde transformation
Improvements in DOD Supply Chain Management
    USTRANSCOM and our JDDE partners are working together to drive 
tangible improvements in the DOD supply chain. By improving the 
precision, velocity, reliability and visibility of distribution 
operations, we gain the ability to synchronize and prioritize the flow 
of forces and sustainment to support the warfighter across the full 
range of military operations.
    The supply chain needs to move people, equipment and supplies to 
the right place, at the right time using the most efficient and 
effective combination of modes. Our DPO Strategic Opportunities 
initiative is designed to improve precision by examining and aligning 
key strategic leverage points. Specifically, we are working to strike 
the optimum balance between inventory stocks and transportation; align 
supply, transportation and distribution processes; and optimize 
strategic surface and airlift networks.
    For example, given the volatility of fuel and transportation costs, 
we are analyzing ways to minimize overall supply chain costs by 
positioning high-demand, low-dollar inventories forward to reduce 
transportation requirements. We are also examining the impact of 
consolidating cargo traditionally carried in 20-foot containers into 
40-foot containers to gain efficiencies in surface transportation while 
maintaining ``delivery location pure'' pallets and containers where the 
demand supports high volume routes. Finally, we are studying ways to 
optimize air transportation by increasing pallet utilization, obtaining 
``best-value capacity'' for the shipping volume, and achieving maximum 
use of organic and commercially contracted airframes. Collectively, 
these and other opportunities have the potential to improve 
distribution performance by 25 to 45 percent while reducing overall 
enterprise-level distribution costs.
    USTRANSCOM will focus on velocity to rapidly move America's 
military might. We are improving velocity by eliminating bottlenecks 
and chokepoints identified across 200 Integrated Distribution Lanes 
(IDLs) where we move people and cargo. Each IDL represents a route 
along which assets travel and is broken down into supply, 
transportation and theater segments. Each segment has associated 
performance standards which represent the COCOM's desired expectations. 
We improve velocity by optimizing mode and routing selection, and 
monitoring performance against the standards for each IDL. As an 
example, we have reduced transit times by as much as 35 days for 
sustainment cargo shipped from the U.S. to Afghanistan.
    USTRANSCOM is also focused on improving reliability--delivering 
what is needed, when and where it is needed, the first time and every 
time. Perhaps the best example of a system reliability improvement has 
been the Defense Transportation Coordination Initiative (DTCI). Over 
the past year, DTCI has changed CONUS freight movement from disparate, 
locally-managed processes to a more integrated, enterprise level 
program, bringing proven best commercial practices to DOD 
transportation. In partnership with the Defense Logistics Agency (DLA) 
and the Services, we have contracted with a commercial transportation 
services coordinator to manage the movement of eligible DOD CONUS 
freight. Under DTCI, DOD shippers specify destination and deadline--the 
contractor optimizes the shipments through load consolidation; 
maximizes the use of cost effective, intermodal solutions; and 
leverages lower commercial market rates. To date, the program's 
performance goals for on-time pickup and delivery, minimal damage, 
claims processing, small business participation, and cost savings/
avoidance are all on track. Gross cost savings is approaching $10 
million (greater than 20 percent savings), and DTCI has increased 
visibility of CONUS freight.
    Replicating DTCI's visibility successes is particularly important. 
USTRANSCOM designated 2008 as its ``Year of Visibility'' to strive for 
exquisite visibility--knowing what is in the pipeline, where it is and 
how fast it is moving.
    A great example of this need occurred in Pakistan. The Pakistan 
Ground Lines of Communication (PAKGLOC) were plagued by pilferage of 
unit movement cargo. In response, we leveraged commercial technologies 
to mount cellular and satellite tracking mechanisms on trucks and 
inserted lift and intrusion detection sensor technology on containers 
transiting the PAKGLOC. The resultant real time knowledge of cargo 
location, speed and container breaches enhanced security and 
significantly reduced pilferage.
    To ensure continued visibility improvements, as DOD's lead 
proponent for Radio Frequency Identification (RFID) and related 
Automated Identification Technology (AIT), we have developed an AIT 
implementation plan with the Services, DLA and other agencies to fully 
incorporate AIT into our business processes. Although active RFID 
continues to be the backbone of our efforts, we are also using 
satellite technology in austere environments and are continuing to 
expand use of emerging passive RFID technologies as a result of lessons 
learned in the Alaska RFID Implementation project.
    Improved visibility across the DOD supply chain is dependent on 
transforming the enterprise information technology portfolio. 
Historically, logistics IT systems have been managed and acquired as 
Service-specific stand-alone systems. We have begun the process to 
replace large, expensive point-to-point monolithic systems and 
interfaces with streamlined, web-enabled enterprise level services. Our 
goal is to deliver core DPO enterprise services to standardize common 
distribution processes and information exchanges while allowing the 
Services the flexibility to be unique where they need to be.
    One example of this transformation is the Integrated Data 
Environment (IDE)/Global Transportation Network (GTN) Convergence 
program, an innovative IT program combining DLA's IDE information 
broker and USTRANSCOM's Enterprise Data Warehouse capabilities. This 
convergence will allow one-stop access to enterprise level supply, 
transportation and logistics systems and data, eliminating 
redundancies. Although in its infancy, the program will serve as an IT 
backbone to provide data visibility and support the needs of the future 
force.
    One of the most important initiatives over the coming decade is 
Agile Transportation for the 21st Century (AT21). AT21 is an effort to 
incorporate distribution industry best practices and processes using 
commercial-off-the shelf tools and then transition workflow management, 
optimization and scheduling solutions. This transition will improve 
transportation planning, improve forecast accuracy and increase on-time 
delivery of forces and supplies to COCOMs at a lower cost to the 
Services. When fully operational, AT21 will provide the warfighter full 
distribution pipeline visibility and enable throughput management at 
critical ports and waypoints around the world.
Looking Ahead
    We are continuously exploring new ways to support the future force. 
Through our Deployment and Distribution Enterprise Technology research 
and development program, we leverage emerging technologies to fix 
distribution and sustainment issues. For example, using the Joint 
Precision Airdrop System Mission Planner we have delivered over 3,300 
stons of sustainment cargo to Operations Iraqi Freedom and Enduring 
Freedom over the past year, significantly reducing ground recovery 
operations and dangerous convoy operations. Additionally, the Node 
Management and Deployable Depot (NoMaDD), an Advanced Concept 
Technology Demonstration, which provided material distribution and 
inventory support during Hurricane Ike, processed nearly 4,000 trucks 
of meals, water, ice, and plastic sheeting.
    Last year, eight USTRANSCOM-funded projects transitioned to DOD 
organizations. Building on this success, we will transition an Enroute 
Care Module that will enhance patient care from the battlefield to 
definitive care; work to improve shipboard handling systems to more 
safely move cargo, vehicles and containers in high sea states; pursue 
joint integrated solutions for mesh-network, tags and tracking 
technologies to ensure end-to-end asset visibility; and develop a 
collaborative Single Load Planning Capability. These representative 
samples will greatly improve the precision, velocity, reliability, and 
visibility of the DOD supply chain.
Fiscal Stewardship
    USTRANSCOM is ever mindful of costs and constantly seeking cost 
efficiencies. Since 2003, we and our enterprise partners have avoided 
over $2 billion in costs through the aforementioned DPO improvements, 
forward stocking initiatives, incorporating challenge protocols to 
validate high-cost transportation requests and negotiating least-cost 
transportation solutions.
    Additionally, as the DOD's largest consumer of hydrocarbons, we 
continue to pursue alternative fuels. AMC performed operational tests 
and demonstrated the potential suitability of synthetic fuel blends in 
the C-17, C-5, and KC-135 aircraft--next we will test synthetic fuels 
in the C-130. These are early steps in a long term effort to 
significantly reduce reliance on petroleum products.
                             final thoughts
    USTRANSCOM is entrusted with an awesome responsibility to support, 
mature, and transform the JDDE. We provide what our warfighters and 
operators need to execute their mission--when they need it, where they 
need it, at the best value for the Nation. From Tblisi, GA, to 
Galveston, TX, our end-to-end distribution and logistics capability 
allows us to deliver the message of our Nation's strength. Going 
forward, USTRANSCOM and its components will continue providing 
extraordinary capabilities for projecting national will across a wide 
range of military and humanitarian operations. We are strategically 
aligned to unify JDDE efforts for delivering value and saving money. I 
am extremely proud of this championship team. The men and women of the 
USTRANSCOM, together with our enterprise partners, will continue to 
enhance logistics capabilities, focus resources, and deliver superior 
support to warfighters and our Nation.

    Chairman Levin. Thank you. All the testimonies will be made 
part of the record.
    We'll have a first round of 7 minutes. First to you, 
Admiral Stavridis. Secretary Gates in his testimony before this 
committee in January expressed some real concern about 
``Iranian subversive activity,'' in his words. He went on to 
say that the Iranians are opening a lot of offices and a lot of 
fronts, behind which they interfere in what is going on in some 
Latin American countries.
    Can you give us your assessment on Iranian intent and 
activities? What is the attitude of governments in Latin 
America relative to Iranian activities? Also, do you see any 
connection between the Iranians and the drug trade?
    Admiral Stavridis. Yes, sir. First of all, we have seen, as 
Secretary Gates said, an increase in a wide level of activity 
by the Iranian Government in this region, to include opening 
five embassies in the last 5 years, beginning the work in 
proselytizing and working with Islamic activities throughout 
the region.
    That is of concern principally because of the connections 
between the Government of Iran, which is a state sponsor of 
terrorism, and Hezbollah. We see a great deal of Hezbollah 
activity throughout South America. The tri-border area in 
Brazil, as in Brazil, Paraguay, and Argentina, as well as parts 
of Brazil and in the Caribbean Basin, is of particular concern.
    The known connection between the Government of Iran and 
Hezbollah, and the increasing activities of Iran throughout the 
region are a matter of concern for us, and I can provide 
additional information for the record on that.
    Chairman Levin. Any connection with the drug trade that 
you've seen?
    Admiral Stavridis. Yes. We have seen in Colombia a direct 
connection between Hezbollah activity and the narcotrafficking 
activity. Again, I'd be glad to provide the specifics on that 
for the record.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Admiral, give us an up-to-date assessment 
of the FARC in Colombia. As our security assistance to Colombia 
declines as planned in the coming years, are the Colombians 
ready to operate successfully with less U.S. military 
assistance and advisers?
    Admiral Stavridis. Sir, the success of Plan Colombia in the 
last 10 years has been notable. I believe it has contributed to 
a diminution of the FARC from a high of about 18,000 members to 
about 9,000 or less today. It has contributed to the 
elimination of three of the key leaders of the FARC over the 
last year, and to the rescue of the three U.S. hostages I 
alluded to, along with about a dozen other high-value political 
hostages who were rescued in that same raid. Since 2002, 
kidnappings are down 83 percent, murders are down 60 percent, 
and acts of terrorism are down 76 percent.
    The Government and the military of Colombia enjoy very high 
approval ratings by the people of Colombia. The FARC's approval 
rating is somewhere below 2 percent, as opposed to, for 
example, the army's approval rating, which is over 70 percent.
    So I would say that the assistance of Plan Colombia over 
the past 10 years, a bipartisan effort, has been very 
successful in helping the Colombian people to achieve the 
success that they have achieved on their own. In terms of their 
readiness, I believe that they are ready. I am a believer that 
we can now begin to move the dial, if you will, from the hard 
power side of the equation to the soft power side of the 
equation in Colombia because of the capability that's been 
achieved by the Colombian armed forces, with some U.S. 
assistance over this past period, sir.
    Chairman Levin. Thank you.
    General Renuart, the Director of Operational Test and 
Evaluation recently wrote ``GMD flight testing to date will not 
support a high level of confidence in its limited 
capabilities.'' Do you agree that it is important to address 
the concerns raised by the Director of Operational Test and 
Evaluation about the GMD system?
    General Renuart. Senator Levin, I absolutely agree that we 
have to continue a robust test schedule, and I believe that the 
Missile Defense Agency (MDA) has that kind of schedule on tap. 
I've spoken in some detail to the Director of the Operational 
Test and Evaluation Organization after his statement and two 
things struck me. First, he understands that it is important 
for us to continue aggressive testing, and that so far against 
the test regimen that has been in place, we have had success. 
He would comment that high degree or low degree is a subjective 
view.
    So I would add maybe a couple comments on my assessment. 
Over the last 11 tests, we've had 7 direct hits. While 
certainly there were some misses early on, I participated 
directly in the last three tests, each of which were 
successful. There were some comments in the report that the 
last test was supposed to have a decoy as part of that. The 
test vehicle did not adequately deploy the decoy, but the 
ground-based midcourse interceptor in fact was successful in 
finding and having a direct hit on the reentry vehicle.
    So I continue to believe that the operational capability is 
good. We're working very aggressively with the MDA to continue 
this test regimen, to increasingly include all the elements of 
the missile defense system, the Sea-Based X-Band (SBX) Radar, 
the Forward-Based X-Band system, and to continue to make the 
test as realistic as possible.
    Chairman Levin. General, the last time we met you noted 
that we've had periods of constructive dialogue and cooperation 
with Russia over many years. Do you believe it makes sense now 
to pursue such engagement in cooperation with Russia on 
security matters, including notification of Russian bomber 
flights, and the possibility of cooperation on missile defense 
efforts?
    General Renuart. Thank you, Mr. Chairman. I think we have 
had success in the past with military-to-military dialogue with 
the Russians. I think that there is a real place for that 
dialogue in the future. I think Secretary Gates has continued 
to maintain the position that this dialogue is important to our 
national security.
    With respect to the Russian bombers, the committee members 
may know that just prior to the Russian action in Georgia last 
summer the Russians in fact filed a flight plan on one of their 
long-range training missions that was going to come into the 
Alaska region. We welcomed that, had direct communication with 
the commander of Russian long-range aviation, creating the 
means to do that and continue that in the future.
    We hope we will return to that direct dialogue. We've 
collaborated on counterterrorism exercises with the Russians. 
Sadly, that exercise did not go forward, as a result of the 
Russian activity this past summer. But we look forward to the 
opportunity to re-open that, and I know both the Secretary of 
State and the Secretary of Defense are actively working with 
the Russians to reopen that dialogue.
    Chairman Levin. The possibility of cooperation on missile 
defense?
    General Renuart. Mr. Chairman, I think there are some 
significant discussions that need to occur and policy decisions 
made by the administration. But we think that there certainly 
is the opportunity for increased collaboration and confidence-
building in the missile defense area.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General McNabb, in my opening statement I mentioned the 
increasing difficulties to further our effort in Afghanistan 
compounded by at least 17,000 additional troops complicates our 
supply efforts. Unfortunately, in Afghanistan we don't have a 
convenient neighbor like Kuwait. I think one of the most 
underestimated aspects of the conflict in Iraq was the 
assistance that the Kuwaiti Government provided us with.
    Give us a thumbnail sketch of the challenge and how you 
expect for us to meet it?
    General McNabb. Yes, Senator McCain. The big part that you 
want to do on the supply chain is to make sure you have lots of 
options, you have lots of ways to get in there, so you're not 
relying on any one of those.
    Senator McCain. We just lost one in Kyrgyzstan.
    General McNabb. Yes, sir. As you look at that, what you 
want to do is to make sure that, as I told General Petraeus, we 
will be there; we'll figure out and make sure that you never 
have to worry about this.
    You're exactly right about Afghanistan; it is landlocked. 
We probably couldn't ask for or find a tougher place from a 
logistics challenge of getting the stuff in. Obviously, we've 
been relying on air and that logistic line coming up from 
Karachi from the south, through Pakistan into Afghanistan.
    What we're trying to do, in conjunction with the State 
Department and with the Office of the Secretary of Defense 
(OSD) and basically U.S. Central Command (CENTCOM) and EUCOM, 
is to establish in the north with the different nations up 
there to say, who's interested in helping us support 
Afghanistan, who's interested in peace and stability in that 
region? What we found was that a number of countries said, we 
would be in favor of that.
    We've offered that we would use normal commercial means, 
their normal commercial rail and trucks, and we would use our 
normal commercial partner companies that would help do that, to 
bring the stuff in from the north. We have 738 containers in 
the Northern Distribution Network right now and the first 90 
have been delivered to Kabul. So we are getting things down 
through the north. That again just offers another option.
    Senator McCain. What percentage is that of your monthly 
supply?
    General McNabb. If you look at what we need to do to hold 
our own, and you mentioned a 50 percent increase, as we sit 
right now, if we average 78 containers a day getting into 
Afghanistan, we kind of hold our own. As you say, that will go 
up as the 17,000 folks go in.
    Right now our weekly average has been holding at about 130 
to 140 containers a day getting through there. So we're getting 
more in than we need. What we hope is to be able to bring in 
about 100 containers from the north a day to supplement the 
Pak-Gloc so we have lots of options to get stuff in.
    Senator McCain. I'd be very interested in seeing how you're 
going to do that, in light of the base closure and the other 
increased security threats, particularly using commercial 
operations, given what we know is going to be an escalation in 
threats to those supply lines.
    Admiral, Phoenix, Arizona, was just designated the 
kidnapping capital of the United States, and I'm sure you may 
have seen that. There's a level of violence on the border that 
I've never seen before. Obviously, it spills over into the 
United States from time to time; and there's an even greater 
threat if that spills over even more.
    There have been calls by Governors, including the Governor 
of Texas just last week, to send more troops to the border. We 
have mounted this massive effort. Yet my information is the 
price of an ounce of cocaine on the street in the United States 
remains the same.
    Maybe you can give us an assessment of the situation, where 
you think it's leading, and whether you think we need 
additional troops along the United States-Mexican border, and 
your assessment of whether the Mexican Government is winning or 
losing in this existential struggle with the drug cartels?
    Admiral Stavridis. Let me, if I could, sir, also get 
General Renuart into this conversation, as Mexico is part of 
his AOR.
    Senator McCain. We'd be very interested in you too, 
General.
    Admiral Stavridis. You're absolutely right that it's part 
of a connection that flows from the south.
    Sir, I'll submit for the record the price of cocaine. I'll 
find out exactly what that is. I believe in the United States 
the price of cocaine has actually gone up a little bit over the 
last year or 2, although there are some indications that may be 
because of the movement of cocaine to Europe via Africa, as a 
matter of fact. So the point is extremely well taken.
    [The information referred to follows:]

    As depicted in the chart below, overall the price of cocacine has 
increased 104.5 percent from January 2007 through December 2008. 
Current price is $199.60 per pure gram of cocaine. Additionally, the 
purity level has decreased 34.8 percent.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Admiral Stavridis. As I look at Central America and the 
nexus between Central America and Mexico, I feel it is 
crucially important that the United States be very involved, 
both with our Central American partners and specifically with 
our Mexican friends in that zone of violence along the northern 
tier, where I think 6,000 people were killed last year just 
south of that border and, most shockingly perhaps, about 700 
Mexican law enforcement and military personnel were also 
killed.
    So I'm very hopeful that by military-to-military 
cooperation in Central America--we can be helpful as the 
security forces of those countries seek to appropriately deal 
with the threat that they're dealing with. With that, I'm going 
to let Gene comment on the Mexican portion of your question, 
sir.
    Senator McCain. Also, General, as part of your answer to 
the question, if you would include the aspect of the price of 
cocaine.
    General Renuart. Senator, absolutely. We'll add that to the 
record in our answer as well. My perception is, with Jim 
Stavridis, that the price has marginally increased.
    Senator McCain. First of all, is the Mexican Government 
winning or losing?
    General Renuart. Senator, I would say that the Mexican 
Government is taking aggressive action to win. They are 
building momentum. I would not say they are losing. Now, that 
will sound a little unusual, given the violence we've seen. But 
my direct interaction with both the senior leaders of the 
Mexican military has left me with the perception that President 
Calderon has given very specific guidance to the military to be 
much more aggressive in their presence.
    Senator McCain. How important has the Merida Initiative 
been?
    General Renuart. Senator, I can't tell you how important 
that is. That is a huge effort. The Mexicans see that as a real 
outreach and partnership, and it is making a difference in the 
confidence. We are working with the Defense Security 
Cooperation Agency to accelerate the deliveries of some of 
those capabilities.
    Senator McCain. Is the Mexican Government making any 
progress in addressing the issue of corruption that goes to the 
highest levels?
    General Renuart. Senator, I believe they are. I'll give you 
an example. In Juarez, where we've seen this violence, the 
Mexican Government has put nearly 10,000 military and Federal 
police, all who have been vetted, into the region. They've 
taken the local police out of their responsibility and 
supplemented or replaced them with Federal forces. That is 
beginning a return to some sense of normalcy in Juarez. But 
they are also going through a long-term process to vet each of 
the Federal police and local police leaders. So I think they're 
making progress.
    Senator McCain. They're effective, the Mexican military?
    General Renuart. Senator, they have been very effective 
when they've been in place. The challenge for the Mexican 
Government is sustainment of that effort because their military 
is not that large. We're working with them in a direct 
relationship to build more of the capacity to allow them to 
sustain that effort in some of these cities.
    Senator McCain. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to all of you for your service and leadership to our 
country. I want to continue, General, with this line of 
questioning. As you've said in your statement, homeland defense 
is the preeminent mission of the two commands that you lead. 
Let me ask you to indicate to us how much of a threat to our 
homeland security you view drug-related violence from Mexico?
    General Renuart. Senator, I'll go back to Senator McCain's 
comment. Phoenix is a good example of the nexus between the 
drug trade and gangs, all of which are in, if you will, a 
business to make money with illicit trade. As there is pressure 
brought to bear in the efforts between both of our commands to 
reduce the flow of drugs, we're seeing a more aggressive 
behavior on the part of the cartels and then their related 
gangs here north of the border.
    So it is a real concern for security in our country. I am 
pleased with the interface that we have both with Jim's folks 
in the interdiction piece and ours, but also our partnership 
with law enforcement to help bolster their efforts along the 
border. But it is a real concern.
    Senator Lieberman. Can you describe for the committee some 
of the things that troops under your command at NORTHCOM are 
doing now to deter and prevent drug-related violence from 
Mexico?
    General Renuart. Senator, absolutely. I must say right up 
front that it is a partnership between the National Guard and 
the NORTHCOM team who work this daily with each other. For 
example, we are providing training for some of Mexico's unique 
force capabilities that allow them to conduct raids on some of 
the cartels.
    Senator Lieberman. Okay.
    General Renuart. Seizing weapons, for example. We are 
providing technology to Customs and Border Protection and other 
law enforcement agencies to identify tunnels that may have been 
dug underneath the border.
    Senator Lieberman. Those are technologies that we've 
developed in combat situations?
    General Renuart. Absolutely, a great transfer from 
Afghanistan into our southwest border.
    Senator Lieberman. Okay.
    General Renuart. We man and operate a series of sensors 
along the border--cameras, listening posts, et cetera, aerial 
vehicles, both manned and unmanned, with night vision 
capability--to provide that information to law enforcement 
authorities, who then conduct the appropriate operations.
    We think we can continue to expand that. We have a planning 
team in place today at the Department of Homeland Security 
looking at just this kind of additional support, both Guard, 
Reserve, and Active components, partnering with the law 
enforcement agencies and the States to ensure that the 
Governors get the kind of support they feel they need.
    Senator Lieberman. That's encouraging, and you anticipated 
my next question. I know, because many of us here are on the 
Homeland Security Committee as well, that the Department of 
Homeland Security is now focused on this threat to our homeland 
security from drug-related violence from Mexico and they have 
developed plans for reaction to any escalation of the violence. 
So I'm glad you're working together with them.
    Let me ask a couple of specific questions about that. At 
least one of the Governors in the southwest has suggested that 
there ought to be National Guard now placed along the border. 
What do you think about that?
    General Renuart. Senator, I think certainly there may be a 
need for additional manpower; whether that is best provided by 
National Guard or additional law enforcement agencies. I think 
certainly there are capabilities that the National Guard uses, 
for example some of their aircraft that have the full motion 
video capability, that are helpful to Customs and Border 
Protection.
    But I think defining the mission for all forces, the team 
along the border, is critical. This planning effort this week I 
think will give us a good way to answer the questions and 
concerns of the Governors.
    Senator Lieberman. So it's a little early to answer the 
question specifically. You sound a bit skeptical about just 
placing Guard on the border, but rather use Guard and Active 
resources together with our partners?
    General Renuart. Senator, absolutely. This is a whole-of-
government problem and I think the best response is an 
integrated approach, and we're working toward that 
aggressively.
    Senator Lieberman. That was actually going to get to my 
next question, which is: Is there a trigger in your mind now 
for what kind of escalation of violence from drug-related 
activities from Mexico would bring NORTHCOM more actively 
involved in this battle?
    General Renuart. Senator, I think we've had the trigger. To 
use the example of the city of Juarez and Chihuahua Province in 
Mexico; 1,700 drug-related murders in the last year. That kind 
of violence that close to our border I think was the sounding 
horn, if you will, on the need for an integrated approach.
    We have been working at a constant level over time. I think 
the highlight of this kind of violence and the proximity to our 
borders elevates the necessity to work aggressively. I think 
both Secretary Gates and Secretary Napolitano understand that 
and have given us all mandates to work this problem 
aggressively, and I think we'll have good plans come out of 
this work this week.
    Senator Lieberman. I appreciate it.
    I'm very grateful for the work that has been done at 
NORTHCOM to improve our homeland security since September 11. 
We usually at these hearings ask only about the current 
threats, but I want to just ask you to take a minute to talk 
about what under your command we have done since then in terms 
of aviation security, that is the security of the American 
people from a threat from the air, and also to just say a word 
about the consequence response management force that you're 
standing up. I bet most people in the country, probably most 
Members of Congress, don't know about it, but it's going to be 
critically important.
    General Renuart. Senator, thank you for that. Two points. 
First, on September 11th the air picture that NORAD looked at 
to defend our Nation looked outwards, away from our borders. 
The air picture the Federal Aviation Administration (FAA) 
looked at every day to control traffic was essentially inward, 
although certainly they do have the approaches. But the two 
pictures weren't married together. We didn't have an FAA 
representative in our operations center on September 11. The 
Transportation Security Administration did not exist.
    Today we collaboratively, with the FAA, look at every one 
of the 7,000-plus aircraft that are airborne at this minute 
today around our country.
    Senator Lieberman. Is that commercial, military, and most 
private?
    General Renuart. Yes, sir. If one of them deviates from the 
appropriate procedures that are highlighted both to the FAA and 
to NORAD immediately and we are able to then use some of those 
alert aircraft that we have now around the country, in many 
more locations than we've ever had before, to identify this 
particular aircraft and determine its intentions, and then take 
some action should it be required.
    So we've come a long way since September 11 in that regard.
    With respect to the consequence management force, I think 
September 11 alerted us that we needed to have a capability if 
an event like that were taken to a higher level, nuclear, 
biological, or chemical. Secretary Gates has been aggressive in 
both mandating a mission for me and our commands, but also 
funding and allowing us to equip a consequence management 
response force that's designed against a catastrophic event 
such as a nuclear, biological, or radiological event in our 
country.
    The first of those forces stood up on October 1st, fully 
funded, fully equipped and fully trained and exercised. In 
fact, we just completed what's called an emergency deployment 
exercise this past week down at Camp Blanding in Florida. It is 
a superbly trained force that can allow us to come in and 
augment existing nuclear, biological, and chemical 
capabilities. The States have a small Civil Support Team (CST). 
There are 17 kinds of regional consequence response forces that 
are much smaller, only about 200 people.
    Senator Lieberman. This force is over 4,000?
    General Renuart. It is, Senator. Our force is about 4,600 
to 4,800 depending on the units assigned. It's designed to come 
in to provide response. It's not a law enforcement force. It is 
a response force, to provide medical care, decontamination, 
urban search and rescue, and those kinds of capabilities to 
sustain over time in one of these events.
    Senator Lieberman. Thank you very, very much. That should 
make all of us feel more secure.
    General Renuart. Thank you, Senator.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first of all ask Admiral Stavridis and General Ward 
a question. I have talked to you personally about my interest 
in the various train and equip programs, 1206, 1207, 1208, the 
Commander's Emergency Response Program and the expansion of 
that, and the Combatant Commander Initiatives Fund, as to how 
they're progressing and how valuable they are to your commands. 
Admiral?
    Admiral Stavridis. Sir, very valuable. Anything that builds 
partnership capacity is of terrific value in this world to the 
south. Just to pick up a thread from Gene Renuart and Senator 
Lieberman's conversation a moment ago about what specifically 
are we doing about the situation not only in Mexico, but in 
Central America, it's good to remember the Merida Initiative 
provides funds not just for Mexico, but for Central America, 
Haiti, and in the Dominican Republic. So these maritime 
approaches can be addressed using the kind of funding that you 
just talked about.
    We've used some of those to help our partner nations equip 
themselves with better radars, intercept boats, a night vision 
detection capability, and command and control. So it all fits 
together in how we establish a pattern of stopping this flow of 
narcotics and allowing our partner nations to know what's in 
the water around them. That's one specific example.
    Another is the hostage rescue in Colombia, which was 
something that could not have been done without that 
partnership capacity.
    Senator Inhofe. Good. Thank you, Admiral.
    General Ward?
    General Ward. Senator, I concur. Those programs that deal 
with training and equipping our partner nations to better 
enable them to conduct counterterror activities, to have better 
ability to control their internal borders, are very valuable. 
The equipment pieces, including things such as was mentioned by 
Admiral Stavridis, information systems, the radar systems, the 
equipment pieces that go to their mobility requirements inland, 
as well as things that they do in their coastal territorial 
waters, have been very instrumental in increasing their 
capacity to take care of those challenges.
    Senator Inhofe. I notice in your written statement you talk 
about the fact that in the International Military Education and 
Training (IMET) program, of the 52 countries in Africa, you now 
feel that there will be 46 of those countries by the end of 
this fiscal year that will be participating in that.
    General Ward. Yes, sir. We anticipate about 46 African 
countries will participate in IMET. The IMET program I think 
provides long-term benefits for our national interest as well 
as transforming those militaries in positive ways.
    Senator Inhofe. You agree with that, I assume, Admiral?
    Admiral Stavridis. I do. In particular, we like to use 
those IMET funds at the Western Hemisphere Institute for 
Security Cooperation (WHINSEC), which is a very valuable 
institute for us.
    Senator Inhofe. Once there was a time when we thought we 
were doing them a favor in this program. But we quickly learned 
that once they are tied into us in that kind of relationship, 
that remains.
    General Ward, there are a lot of problems that people don't 
really think about. Everyone's familiar with Sudan. Everyone's 
familiar with the pirating off the east coast. But these are 
such things as the Lord's Resistance Army (LRA). Right now, in 
my opinion we have the three Presidents that are in agreement 
with each other and are all trying to work on this Joseph Kony. 
Would you want to tell us how that's coming along and how 
significant you think that is to do something about that 
particular person, Joseph Kony, and his LRA program?
    General Ward. Thank you, Senator. That part of the 
continent, the heartland, as many Africans describe it, the 
eastern Congo, is an area where the internal strife has long 
been affecting neighbors. The fact that Uganda, Rwanda, and the 
Democratic Republic of the Congo (DRC) came together to look at 
a way to deal with the problem of the LRA and Kony and the 
effect that they were having on the population was very 
substantial.
    It has been positive insofar as disrupting the activity of 
Kony. It's been positive in addressing some of the training and 
recruiting practices that he and his element have performed in 
that part of the Congo. The degree of cooperation continues 
amongst those three nations and we look for that to continue 
and make a positive difference in that part of the continent.
    [Additional clarifying information provided for the record 
by General Ward:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. I think that is a huge success. You had 
President Museveni and Kagame, both having military 
backgrounds, there's a little bit of a problem with them 
getting along with each other. Now with Kabila, they are 
cooperating. I'm glad to hear that progress is being made.
    I notice you didn't spend a lot of time in your written 
statement on Zimbabwe and didn't mention Mugabe. They're 
apparently trying to work out a program where he and the 
opposition--very similar to Burundi--work together. Do you 
think that might work? Do you think Mugabe might work in that 
program and start getting cooperation?
    General Ward. I hesitate to say. I don't know. I think 
clearly the initiative that's under way with that potential 
being there is a positive development, and I would certainly 
look forward to something positive coming from this arrangement 
that Mugabe and Tsvangirai have put in place.
    Senator Inhofe. Let me ask a question of you, General 
Renuart. You might be the best one, I'm not sure. Maybe some of 
the rest of you have some ideas. It's been 5 years now since we 
lost the battle of Vieques. At that time, I can remember when 
General Laseo was actually testifying before this committee, 
where he threatened the lives of some people you're looking at 
right now.
    We had made the statement that they closed down that 
particular facility that offered a type of training that in my 
opinion--I think most of you would agree with this--couldn't be 
replaced anywhere else. Now, as we anticipated, since it is 
closed, they are coming back. The very people who wanted it 
closed in the first place are saying, is there any way in the 
world we can get this thing opened back up and use this 
facility?
    I know it's not a question anyone would anticipate, but 
have you got any thoughts on that? Can it be resurrected?
    General Renuart. Senator, I'm probably not the right person 
to speak specifically on the capacity to resurrect that 
training. I will say that we have recently moved the islands of 
Puerto Rico and the Virgin Islands into the NORTHCOM AOR. On my 
first visits down there, it was clear to me that one of the 
challenges we have is to continue to extend the visibility of 
our homeland further to the southeast in areas of detection of 
illicit trade and trafficking, a significant human trafficking 
area there, certainly also in the area of air sovereignty and 
air defense, as we saw the participation Senator McCain 
mentioned of Russian bombers in the region.
    So I think there is an opportunity for us on a small basis 
to put some capacity into that area that maybe hasn't been 
there in quite a while and that could be integrated into our 
national homeland defense system. So we are looking to work 
with both the Navy and the National Guard to see how we might 
take advantage of some of the systems and equipment that is 
still in place in the Vieques area.
    I might defer to Jim Stavridis for a Navy view on this.
    Admiral Stavridis. I think you have it exactly right, and I 
wouldn't speak for the Navy. I'm a joint officer, like 
everybody else up here.
    But, sir, I'll be glad to take that one back to my good 
friend Admiral Roughead. I think he'll be interested in looking 
at that. Vieques was the crown jewel of maritime training at 
one time.
    Senator Inhofe. Well, if you would do that I would 
appreciate it.
    Admiral Stavridis. Yes, sir.
    General Renuart. We'll collaborate and get you a common 
answer to that, Senator.
    Admiral Stavridis. Yes, sir.
    [The information referred to follows:]

    The former U.S. Navy range on Vieques Island has been turned over 
to the Department of the Interior. In addition, the former Naval 
Station Roosevelt Roads is being disposed of by the Base Realignment 
and Closure Commission Program Management Office with future parcel 
ownership by the Commonwealth of Puerto Rico and other private/public 
entities. U.S. Northern Command is engaging with the U.S. Navy staff 
and the new Roosevelt Roads' property owners to better understand the 
disposal plan and discuss possible use in a Defense Support of Civil 
Authorities scenario.

    Senator Inhofe. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General McNabb, roughly what percentage of contract airlift 
do you depend upon and how cost effective and efficient do you 
think it is? Does it depend on the area of operations changing 
from one theater to another?
    General McNabb. Senator Reed, we have a Civil Reserve Air 
Fleet, and we depend on that when it's fully up to be about 40 
percent to almost 90 percent of the movement of passengers, 
about 30 percent of the cargo, which is the bulk cargo.
    Today I would say during normal operations we do about $500 
million worth of business. Today we do about $2.5 billion worth 
of business with them. They have been very instrumental in our 
ability to both resupply Iraq and Afghanistan. We do have cargo 
missions that go directly into Afghanistan, which has really 
helped free up things like Manas.
    The one issue with the civil reserve airfleet is the fact 
that you have to really look hard at the threat to see if you 
can operate it forward. If you can't take it in there, you have 
to stop at an intermediate base and then transload to a C-17, 
C-5, or C-130, and that's the portion that obviously we look 
at.
    As we think about Manas, I say that it's useful but not 
essential, because we just need to make sure that we have bases 
that are in there close. CENTCOM's looking very closely at 
other places where we could bed down airplanes. Obviously if we 
could keep Manas that would be great. If not, we do have other 
options.
    I would say that we depend a great deal on the civil 
reserve airfleet. It is the cheapest possible way to move 
palletized cargo.
    Senator Reed. General Ward, your command, does it rely 
extensively on contract airlift or are you directly supported 
by military aircraft?
    General Ward. We are directly supported by military 
aircraft, Senator. We do have some contract aircraft, but we 
are directly supported by military aircraft.
    Senator Reed. Are you concerned that there are some 
operations that might be tactical in nature that this contract 
aircraft wouldn't be suitable for? Is that a concern that you 
have?
    General Ward. Not at this time.
    Senator Reed. Thank you.
    Admiral Stavridis, you mentioned the tri-border area. Can 
you generally describe the level of human intelligence (HUMINT) 
that you have there? Do you have good insights into what is 
going on there, or is that an issue of concern?
    Admiral Stavridis. Sir, we have good coordination with the 
three national partners who are in that region, Brazil, 
Argentina, and Paraguay. Via their capability, we then receive 
a reasonable level of HUMINT in that area. But I don't feel the 
need for it as long as we work well with our partners in that 
region.
    Senator Reed. General Renuart, have you received comments 
or complaints from the Government of Mexico that some of these 
bands are being supplied with weapons from the United States?
    General Renuart. Yes, Senator. In fact, from the very first 
meeting I had with both General Galvan and Admiral Saynez, the 
leaders of their military, they mentioned the very large 
percentage of weapons that are captured in that area seem to 
come from the United States. That message has been continuous 
and loud. I think it was brought up to the President when he 
and President Calderon visited. Certainly it was brought up to 
Admiral Mullen when he visited with General Galvan just a week 
or so ago.
    It is a principal concern. Not all of these weapons 
directly come from the United States, but in many cases are 
brokered by illicit weapons dealers that do reside here. I know 
that our law enforcement partners have had some success and are 
continuing to work that aggressively.
    Admiral Stavridis. Can I add to that?
    Senator Reed. Yes, sir.
    Admiral Stavridis. I get the same thing in Guatemala, in 
Honduras, in El Salvador, and in Nicaragua. The same weapons 
are flowing from the United States through Mexico and down to 
Central America. So I too receive that comment and I associate 
myself with Gene's remarks.
    Senator Reed. Do you gentlemen think it's troubling that 
countries that we see as in some cases teetering on the edge of 
stability point to the fact that one of the greatest threats to 
them is coming from weapons that are flowing, it seems with 
great numbers, into these countries from the United States?
    Admiral Stavridis. Yes, sir, I do, and I know there are 
diplomats like Ambassador Tom Shannon over at the State 
Department who are working hard on this. I think it's something 
we should try and address.
    General Renuart. Senator, just if I could add a point. 
There are and continue to be more successes in this regard. For 
a period of time, it was difficult to get what I'll call the 
forensics of these weapons captures back from the Mexicans. 
After some active intervention with their leadership, we are 
now getting much more of that information. That is allowing us, 
the interagency, to begin to take some legal action here in the 
U.S., with some success.
    So we're building confidence now with our partners, at 
least in Mexico, and I think in the other countries as well, 
that we'll actually do something about it if they continue to 
share information.
    Senator Reed. Our allies in this effort cite the situation 
of easy access to firearms in the United States as a major 
threat to their stability and consequently as a major national 
security threat to the United States.
    General Renuart. I think that view is held by our friends 
in Mexico and in Central America. It is concerning that that's 
a threat to them, and certainly the violence that is brought 
from this cross-border flow of money and guns generally south, 
narcotics generally north, is finding its way into this kind of 
gang violence and other things we see in places like Phoenix.
    Senator Reed. Just a final point. Do you think the 
perception that this problem exists in any way inhibits the 
ability or the willingness of these governments to cooperate 
with the United States?
    General Renuart. No, sir. I find it to be one of the ways 
they would like to cooperate more.
    Senator Reed. They would like us to do more?
    General Renuart. Yes.
    General Renuart. I agree with that.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Renuart, I want to ask you about a study by the 
Commission on the National Guard and Reserve that you and I 
have discussed before. It was released last year, and it 
asserted that there is ``an appalling gap in our Nation's 
ability to respond to the use of a weapon of mass destruction 
on our soil.''
    You've talked this morning, in response to questions from 
Senator Lieberman, about the standing up of a 4,000-member 
consequence management response team and that is certainly 
great progress. But as I recall the report, it was very 
critical of how these teams were going to be put together and 
whether one team would be sufficient. I believe that the report 
actually called for three such teams.
    We're now a year later. What is your assessment of our 
ability to respond to the use of a weapon of mass destruction? 
Let me ask more specifically. What is your assessment now, in 
responding to the commission saying that there is this 
appalling gap?
    General Renuart. I think I can very confidently say that 
the situation cited by that commission doesn't exist today. 
First, in terms of the ability to plan and integrate together, 
the National Guard Bureau and NORTHCOM are integrated in a way 
as never before in history. We collaborate on every planning 
effort. I mentioned to Senator Lieberman that we are at the 
Department of Homeland Security today working on Mexico border 
security planning, and we are there in partnership with the 
National Guard Bureau.
    Each State has a small CST that allows them to assess a 
nuclear, biological, and chemical event, but with not a lot of 
muscle to do much about that.
    Senator Collins. Those are very small.
    General Renuart. They are small, about 22 people.
    In addition, there are 17 so-called Chemical, Biological, 
Radiological/Nuclear (CBRN) and Explosive Enhanced Response 
Force Packages (CERFPs). They are another response team built 
within the National Guard. They're spread around the country. I 
monitor the readiness of each of those. But they are also 
relatively small, about 200 or so people. They do have an 
ability to do consequence management, but on a smaller scale.
    As you mentioned, we have the first of three planned 
consequence management response forces now fully trained and 
equipped. We are building the second one as we speak. It will 
be operational on the 1st of October of this year. As you 
mentioned from the report, we have a tasking from the Secretary 
of Defense to build three of these teams total. So we'll build 
the third in the next year.
    That will allow us something on the order of about 16,000 
trained and equipped individuals, teams, and organizations 
capable of responding to a large-scale event. All of this is an 
integrated approach, so that it's not replacing something the 
State has. It's augmenting it and supplementing it.
    We are now building the collaborative planning process to 
be able to go from very small to very large with the 
appropriate size force to provide assistance to the Federal 
Emergency Management Agency and to the Governors and the 
States. So I'm very pleased with the progress, and I think that 
if that report were written today it wouldn't even mention 
that.
    Senator Collins. That's great news. Nevertheless, General 
Blum, who's now your deputy, I believe, and was the head of the 
National Guard Bureau, testified in the past that 88 percent of 
the Army National Guard was very poorly equipped. In a hearing 
before our Homeland Security Committee in July 2007 I asked 
General Blum whether that lack of resources was adequate to 
respond to a catastrophic event, and he testified that in a no-
notice event, which obviously is what a terrorist attack would 
be, we are at significant risk.
    It's now about a year and a half later since he gave that 
very sobering assessment. Is the National Guard now 
sufficiently equipped so that we're no longer at significant 
risk in your view?
    General Renuart. Well, my good friend Craig McKinley, now 
the new four-star chief of the National Guard Bureau, I'm 
pleased to say, I think would echo my comments. But my 
assessment is, for the areas of homeland security that you've 
described, that the National Guard is equipped at better rates 
than they've ever seen in their past. It varies with each 
State, so I won't give you a specific percentage. I can get 
that and add that to the record if you'd like.
    [The information referred to follows:]

    For the Army National Guard, dual-use equipment (items identified 
as critical to domestic missions) is currently at 81 percent and 
projected to be at 86 percent by June 2010. Approximately 16 percent of 
dual-use equipment is currently deployed, making 65 percent available 
to Governors.

    General Renuart. But we also sponsor a Reserve Component 
Advocacy Working Group at our headquarters, that gets just to 
this issue: How do we ensure that we put into the budget 
adequate resourcing so that the National Guard can conduct its 
homeland missions? I'm very comfortable with the progress we've 
made. There is a commitment on the part of Secretary Gates to 
continue that progress. So I think if General Blum were here 
today he would not give you that same, very sobering assessment 
and he'd be much more positive in his comments.
    Senator Collins. Thank you.
    General McNabb, in 2001 at my request the Government 
Accountability Office (GAO) studied the security of munitions, 
weapons, and ammunition being moved within the United States by 
surface transportation under the supervision of TRANSCOM. Are 
you familiar with that GAO report?
    General McNabb. Ma'am, I am not.
    Senator Collins. The report was classified because its 
findings were so alarming in terms of the security of the 
weapons as they were being moved from point to point within 
this country. I would inform you that originally there was no 
intention of classifying the report, but the findings were so 
serious that GAO and DOD decided that it should be classified. 
A major issue, without getting into the classified details, was 
the availability of depots throughout the United States to 
receive weapons shipments 24 hours a day, 7 days a week.
    To your knowledge, are those depots now open and available 
to receive shipments 24 hours a day?
    General McNabb. Ma'am, I will take that for the record. But 
in general, when you think about what General Renuart just 
talked about with NORTHCOM, there is a lot more of what we are 
talking about in conjunction with NORTHCOM getting their arms 
around all of this, working with the Services, because 
obviously the Services have a big play in that. But I would say 
that we work together to bring the whole-of-government approach 
to these kinds of issues, because you are talking significant 
dollars. Depots are run by the Services. I will take that for 
the record, take a look at it, and we'll come back with a 
combined answer that includes OSD, NORTHCOM, and us.
    [The information referred to follows:]

    All of the Department of Defense (DOD) installations in the United 
States which serve as final destinations for Arms, Ammunition, and 
Explosives (AA&E) shipments are available to receive shipments 24 hours 
a day, 7 days a week (24/7). Furthermore, weapons carriers have access 
to additional DOD installations and other secure holding locations 
short of the final destination which can be used 24/7 to get the 
shipment off the road and secured. Additionally, we have set up an 
Interagency Working Group to exchange information and collaborate on 
AA&E and other hazardous material distribution, security management, 
and surveillance issues.

    Senator Collins. Thank you.
    General Renuart. Senator, just a quick add-on. We were 
given a responsibility for more of that security. I can tell 
you that I monitor the movements each day. In a classified 
environment I could tell you how many are moving today and 
where. We monitor that and flight-follow those movements.
    In terms of the hours of the depots, I think we're going to 
need to come back to you with specifics. But I can also tell 
you that we have, if you will, way points that these shippers 
can use if for some reason a depot is not accessible. There are 
DOD installations that provide them a temporary haven during 
their movement.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Bill Nelson.
    Senator Bill Nelson. I want to compliment General Ward and 
Admiral Stavridis as you are adapting to this new policy where 
you're not only a warrior, you're also a diplomat. Secretary 
Gates actually commented on this policy. He says: ``Broadly 
speaking, when it comes to America's engagement with the rest 
of the world, it's important that the military is and clearly 
seen to be in a supporting role to civilian agencies.''
    You've been doing that, Admiral Stavridis and General Ward, 
as you're setting up AFRICOM. You're doing that.
    Admiral Stavridis, what would you say to General Ward on 
your experience in prioritizing the coordination with those 
civilian agencies?
    Admiral Stavridis. Senator, you'll be glad to know that 
General Ward and I just brought our staffs together for 2\1/2\ 
days of very specific conversation on this, to include a great 
deal of our personal time and all of our senior leadership. We 
learned a lot from each other, and I'm learning things from the 
way Kip Ward is doing business and hopefully we were helpful to 
him.
    I would say that fundamentally both General Ward and I 
understand, based on these conversations, that SOUTHCOM and 
AFRICOM do defense and that State Department does diplomacy and 
USAID does development. But as you said, what we try to do is 
be in a supporting role wherever we can. At SOUTHCOM, to give 
you one specific example, we are taking all of our theater 
security cooperation plans about our military-to-military 
activities and we're actually going and sitting with our 
partners at State and USAID and looking at how our training 
activities, our human rights seminars, and our disaster relief 
work can be supportive of what USAID does as they do 
development and what State does as they do diplomacy.
    So we very much see ourselves as taking a supporting 
background role. We do not want to militarize our foreign 
policy in any way. We want a civilian face on these activities 
and civilian leadership, but we want to seek to be helpful in 
supporting them where we can. That's been our approach.
    Kip?
    Senator Bill Nelson. I'm going to short-circuit this if I 
may, General Ward, because I have some other questions that I 
need to get into. Just suffice it to say, congratulations on 
what you're doing.
    Admiral, are you satisfied with the Fourth Fleet that's 
standing up? Does it give you the projection?
    Admiral Stavridis. Sir, the Fourth Fleet has been very 
positive for SOUTHCOM and our efforts. The ability of that 
planning staff in Mayport, FL, to reach back to the Navy and 
obtain the assets has been a singular success. I talked earlier 
about our ability to bring Navy ships like the Boxer and the 
Kearsarge into the region to do medical activities. That's an 
example of it. Our disaster relief off of Haiti, that's an 
example of it. Our counternarcotics interdiction of last summer 
and this past fall, that's an example of it.
    So we're very satisfied with the Navy's decision to stand 
up the Fourth Fleet.
    Senator Bill Nelson. General Renuart, NORTHCOM is 
responsible for missile defense operations to protect the 
homeland.
    General Renuart. Yes, sir.
    Senator Bill Nelson. We're developing a national missile 
defense system. Do you think that the system needs to be 
operationally effective, suitable, survival, and cost-
effective?
    General Renuart. Yes, sir, I do.
    Senator Bill Nelson. Do you think that we need to take the 
steps needed to make sure that the system is all of those 
things?
    General Renuart. Senator, I absolutely do, to include the 
robust testing that should be carried out.
    Senator Bill Nelson. In that GMD testing program, should it 
include operational testing?
    General Renuart. Senator, it should absolutely. In fact, I 
will tell you the last two tests had operational crews actually 
conducting that missile launch.
    Senator Bill Nelson. What are you doing in coordination 
with the MDA and Strategic Command to realistically test the 
GMD?
    General Renuart. Senator, we have become a member of the 
Missile Defense Executive Board, which up until about a year 
ago we did not participate in. That allows us to drive an 
operational requirement into the test and development and 
budgeting process. We work directly with now-General O'Reilly, 
the Commander, to ensure that at each test we add a more 
operational feature to it. He has been very supportive of that, 
and we continue to work aggressively to get more and more of an 
operational flavor into the test program with each subsequent 
mission.
    Senator Bill Nelson. In doing that, are you going to be 
able to reconcile the test and evaluation responsibilities with 
your mission to defend the homeland?
    General Renuart. Senator, absolutely. In fact, as we 
prepare for the next test series that will occur, we have added 
at our request some complications in the communications network 
we use for command and control, just to test those kinds of 
possible system failures that may occur.
    Senator Bill Nelson. The bottom line question is: Is it 
operationally effective so that in fact if we had the threat it 
could do the job?
    General Renuart. Senator, I think we're right now in a mode 
of very limited threat. Essentially, North Korea is the system 
that we are focused on. Senator, I'll tell you, if we felt the 
North Koreans were going to shoot a ballistic missile at us 
today, I am comfortable that we would have an effective system 
able to meet that need.
    Senator Bill Nelson. That's particularly true because of 
the layers, such as the Aegis system and so forth.
    General Renuart. Senator, absolutely.
    Senator Bill Nelson. The chairman has given me the 
responsibility on the Strategic Forces Subcommittee to be able 
to answer the underlying question, is the national missile 
defense system operational today? Now, if you're talking about 
the layer, such as Aegis, the answer to that is yes.
    But if you're talking about the one shot from Vandenberg or 
from Alaska, today the answer is no.
    As you suggest, when that threat may materialize, maybe it 
will be. But we have to have absolutely clear eyes with regard 
to the capability of this system.
    By the way, Mr. Chairman, I want to compliment the new 
three-star who is the head of Ballistic Missile Defense. He is 
approaching this straightforward and transparently. He answers 
your questions. He's absolutely committed to operational 
testing. I think it's a new day there and I want to compliment 
the General.
    Chairman Levin. I would join Senator Nelson, by the way, in 
that reaction to the commander there.
    General Renuart. Sir, I would also echo that. He has been 
very focused on bringing the operational user into this 
process. So I think we're on the right track.
    Thank you, Senator.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Martinez.
    Senator Martinez. Mr. Chairman, thank you.
    Welcome all and thank you very much for your service and 
your testimony today.
    Admiral, I want to start with you, obviously, from the many 
areas of interest that we share. But as we look at the 
Venezuelan situation, the declining price of oil, do you 
perceive any change in the ability of Venezuela to project 
itself in the region, given the diminution of their financial 
status?
    Admiral Stavridis. Sir, I do. As always, whenever I discuss 
Venezuela, I'd like to begin by pointing out the United States 
has enjoyed a long, positive relationship with Venezuela 
stretching back 150 years. Clearly we have some political 
differences right now. We do have correct professional 
military-to-military relations with the Venezuelan military.
    My assessment is, like any other nation that sees a 
reduction in its revenues, there will be effects on the ability 
of the Venezuelan military to not only continue the high level 
of arms purchases, $5 billion over the last 4 years, more than 
$20 billion in contracts, and all of it with Russia, I think 
the ability to consummate all of that and then to maintain and 
train and equip these very expensive systems would be 
diminished significantly with the loss in oil revenues, yes, 
sir.
    Senator Martinez. By the way, speaking of that level of 
purchases, those are very disproportionate to the region and to 
what any other country may be doing in the region, correct?
    Admiral Stavridis. That's correct, sir.
    Senator Martinez. Do you have any clue from all of that 
type of data, as well as the recent naval exercises with 
Russia, as to what are the intentions of Venezuela as it 
relates to military projection in the region?
    Admiral Stavridis. I do not, sir.
    Senator Martinez. I wanted to ask a combined question of 
General Renuart and yourself, Admiral. It really has to do with 
the regional perception of our country. Sunday we saw where a 
new government was elected in El Salvador. While it might be 
perceived to be not particularly friendly to our country, I do 
like the statements that the new president has made so far. But 
whether it is that, the trend in other neighboring countries--
Venezuela, Ecuador, Bolivia, or the situation which continues 
in Cuba, what do you perceive that we as a country should be 
doing in the region? Obviously, I'm now asking you in your 
merged role as diplomat as well as military.
    Some would suggest that the fence on the border is a very 
bad signal. Others would talk about different issues. What is 
your assessment?
    Admiral Stavridis. Let me address El Salvador first. State 
Department has come out and congratulated President-elect 
Mauricio Funes on his election. By all standards, it is a very 
legitimate process that unfolded, with high voter turnout. 
President Funes has indicated a real willingness to continue to 
work strongly with the United States.
    We count El Salvador on a military-to-military basis as 
among our very strong partners in the region and we're looking 
forward to continuing that very strong relationship and, based 
on what I've heard, that's what I expect will happen.
    Looking at the region very broadly, I think it's the nature 
of something good, actually. In all of the Americas today, 
every country is a democracy, with one exception, and that of 
course is Cuba. Senator, you know democracies don't always 
agree. There are going to be political disagreements. From my 
lane doing defense and looking at military-to-military, I would 
believe that our military-to-military engagement across the 
spectrum of political actors in the region is a very positive 
aspect of what we need to continue. So we work very hard to 
have positive military-to-military relations with Ecuador, with 
Bolivia, with Nicaragua, with Brazil, with Argentina, with 
Colombia, with Mexico, et cetera, et cetera.
    So I would say that from a defense lane, strong military-
to-military activity is a very positive force as we work 
through these occasional disagreements amongst friendly 
democracies.
    General Renuart. Senator, I might just add a couple points, 
if I may. First, SOUTHCOM and NORTHCOM have created a 
transparent relationship across the border of our combatant 
command lines that I think is very positive. We share prisoners 
routinely with our staffs back and forth. We two have had 
staff-to-staff talks. We put liaisons, for example, in the 
Joint Interagency Task Force (JIATF) South down in Key West. 
They put liaisons in our Joint Task Force (JTF) North along the 
Mexican border.
    Mexico, I think, could be put into many of the same 
categories that Jim mentioned. They are eager to reach out to 
us in a military-to-military way. They see that relationship as 
very positive. I think we need to continue with that. In 
Mexico, the national military is one of the most highly 
respected organizations in the country.
    Mexico also sees a role for itself looking south. It is a 
considerable economic power in that area and it is increasing 
its trade to the south, and I think that's a positive element. 
It also allows Mexico to begin to collaborate with the nations 
to its south on the illicit traffic issue as well.
    So I think from the U.S. perspective, we have to continue 
that certainly positive engagement. The soft power we bring is 
very important. One thing we've found with the Mexicans in 
particular is that our experiences of interagency cooperation 
are a very positive element for Mexico, and they are trying 
very aggressively to learn how to do that better, and that will 
help them in the counternarcotics fight.
    Senator Martinez. Thank you very much.
    Admiral, do you have any insights into the recent purge in 
Cuba?
    Admiral Stavridis. No, sir, I do not, other than I think it 
shows that Raul Castro has completely consolidated power in 
that country.
    Senator Martinez. There's an interesting article in this 
week's Newsweek by former Foreign Minister Castaneda.
    Admiral Stavridis. Yes, sir. I saw it. Thank you.
    Senator Martinez. If you get a crystal ball available to 
you at any point, let me know.
    General Ward, I wanted to ask you about the piracy issue 
near Somalia in the past year, where you know we've had a 
considerable amount of disruption to commercial shipping. Any 
insights into that issue and what can we do to continue to try 
to stave off those problems?
    General Ward. Senator, the counterpiracy effort is led on 
the water by CENTCOM, the Combined Task Force 151. There has 
been considerable progress made as the coalition of nations 
supporting counterpiracy has increased. That is an 
international coalition of nations. We support that through our 
activities ashore as well as through our limited facilities in 
Djibouti as those nations participate in the counterpiracy 
activity.
    But I would offer, as I think most of us know, that the 
root of the piracy issue in the Gulf of Aden there and the 
Indian Ocean is the result of the lack of an effective 
government in Somalia. So our efforts to support the 
establishment of effective institutions of government in 
Somalia would be the long-term fix to the piracy that goes on 
there. It also exists on the west coast of Africa, certainly 
not to the degree. But in that regard, our efforts to work with 
those nations to increase their capacity to provide for their 
own maritime safety and security have gone a long way to 
helping address the threat of piracy.
    We look to increase those efforts along the East Coast of 
Africa, again adding to the capacity and capability of those 
nations to coordinate, to share information, to have visibility 
over their territorial waters, and to be able to do something 
about it once something is detected. So those efforts continue, 
the large increase in naval presence afloat with that 
coalition, as well as tactics being taken by commercial 
shippers to address the issue, because there are measures that 
they have been taking to help address piracy issues as well.
    So it's been a combination of those things that have led to 
what has been received or seen as a reduction in the level of 
pirating that goes on in the Gulf of Aden and there in the 
Indian Ocean.
    Senator Martinez. Thank you, sir.
    General McNabb. Senator Martinez, if I could just add to 
what General Ward mentioned, in working with CENTCOM and with 
AFRICOM, but it is with our commercial partners, working with 
the Maritime Administration (MARAD), as we have Military 
Sealift Common (MSC) ships, but also we have a lot of 
commercial U.S. flag vessels that are taking our cargo across 
that area. We are working very closely on those techniques 
about how you get through, when should you convoy, how do you 
make sure you have visibility, and when you are the type of 
ship that may be a little bit at risk then you'll be escorted.
    It's all of those kinds of things. MSC also, working with 
MARAD, has asked our commercial partners that if they need, we 
have anti-piracy assessment teams that will join them and say, 
here's some techniques that you can use. Again, everybody is 
working together with the idea that obviously you have the 
military who are watching this, but also there are a lot of 
things that our commercial folks can do to make sure that they 
help themselves. All of that is going on.
    Senator Martinez. Thank you, General. I'm sorry we didn't 
have time to talk about KC-135, but maybe in the second round.
    Thank you.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    The piracy issue, if my history recollection is right, is 
reminiscent of what President Thomas Jefferson had to deal with 
with the Barbary pirates. Who would have thought in 200 years 
we'd be dealing with something like that again?
    General Renuart, you spoke earlier about the consequence 
management force that became fully funded, equipped, and 
trained on October 2008. Can you speak to how this force will 
work with the National Guard CSTs? The funding for the CSTs has 
been cut for the last 3 years. So will we be able to have a 
full partnership there with adequate resources to be able to 
fund it?
    General Renuart. Senator Nelson, thank you for that 
question. I think it's important that we continue to push for 
adequate funding for each element of these forces. As I 
mentioned earlier, no one of them can stand alone and do this 
job. As I mentioned to Senator Collins, the integration and 
partnership with the National Guard is at a level really never 
before seen in terms of its collaboration, coordination, and 
communication.
    But what we've tried to do is to tier our approach so that 
the first responders will always be the State and local 
responders. The CST is integral to that. We have 55 of those 
teams funded. My sense is that the upcoming budgets allow them 
to sustain that effort. They don't necessarily allow them to 
grow. We are working on some training opportunities that will 
expand their training under the NORTHCOM flag in exercise 
funding.
    The second layer in terms of size and capacity is the 
CERFP, and it is a force of about 200 guardsmen as well. There 
are 17 of them around the country. On any given day, about five 
or six of them are what I'll call green across the board, all 
the people, all the equipment, and all the training. They are 
on a tiered set of alerts so that they could respond in due 
course if an event occurs.
    We are advocating for some additional funding, especially 
in the area of pharmaceutical supplies for some of those teams, 
to grow them a bit. DOD seems supportive of that, so I don't 
think that's in jeopardy.
    The consequence management response force that is under my 
command is a much larger force, designed to come in on top of 
both the existing civilian and military forces to provide long-
term sustainment of a large-scale effort. Right now we have 
about $130 million in our budget for the next few years to grow 
and build those forces. That's for National Guard. The active 
duty comes out of its existing operations and management (O&M) 
budget. That's not at risk at this point.
    So I'm not uncomfortable. It's something we just watch and 
pay attention to. But I think we have the capacity to grow each 
of those appropriately over the coming years.
    Senator Ben Nelson. As a former Governor, I hope that we'll 
be in a position to make sure that the CSTs are able to respond 
appropriately. Not that long ago, I realized by first-hand 
inspection that resetting the equipment needs was way behind 
the curve. We put some more money in for that, but I'm not sure 
that we've achieved the level of reset that we had hoped to. So 
I hope that we'll keep pushing for that, because without the 
equipment the capabilities are going to be diminished, there's 
no question about it.
    General Renuart. Senator, just one quick point to finish on 
that. I look at the readiness numbers of each of those on a 
weekly basis, as does General McKinley. We collaborate on 
advocacy within the budget on those issues, and we continue to 
keep them very much at the central part of our focus. So we too 
are concerned that we not let that capability deteriorate on 
the vine, and we'll work that hard.
    Senator Ben Nelson. I'll see General McKinley, I think, 
next week and I'll go over this with him as well.
    I am encouraged by the efforts to make commands seamless by 
avoiding overlap or underlap by working together. As combatant 
commanders, I would hope that perhaps this seamless approach 
would apply to determining what kind of equipment you need, 
because that has been part of the reason for complaints about 
cost overruns and the challenges we've had with waste and 
questions about the costs of equipment. By working together 
perhaps we can avoid some of that which Secretary Gates has 
mentioned and we're all concerned about, given the fact that we 
want to get the biggest bang for the military buck that we can, 
particularly as it comes to equipment.
    Would you agree that your working together can help us 
overcome some of that? Admiral?
    Admiral Stavridis. Yes, sir, very much so. As we mentioned, 
in our staff talks with NORTHCOM and our staff talks with 
General Ward at AFRICOM, and we have staff talks scheduled for 
the Pacific Command later this year, we're trying very hard to 
do precisely that, to synthesize all of our requirements and 
our approaches. I think there's great, no pun intended, money 
to be made there.
    General Renuart. Senator, I'd absolutely agree. In fact, I 
know my great contributing partner, Duncan McNabb, who owns the 
lift of all of the world, gets a lot of questions about tankers 
and airlift. But I will tell you that in our air sovereignty 
mission tankers are equally critical to us. So we try to 
collaborate on each of these issues, so that DOD gets a true 
sense of the requirement.
    General Ward. Senator, I would even carry it beyond just 
equipment. To the degree that we collaborate, the entire 
resources available to our Nation are better used. So we take 
that very seriously, not just with our combatant command 
partners, but also our interagency partners, working as closely 
as we can to assure ourselves that those resources are in fact 
used wisely and appropriately and are in fact not duplicated or 
in an overlapping of posture.
    General McNabb. Senator, from our standpoint as TRANSCOM, 
we're always going to be the supporting command of one of these 
folks or one of the other theater commanders. Whenever they 
say, this is what we need, we have to be there, but we 
obviously have to have already exercised that and made sure 
that we are there, that we have the systems and processes all 
set. I talked about General Renuart. When you look at NORTHCOM 
and TRANSCOM as they work through consequence management; how 
fast can you react to a disaster relief effort for a hurricane 
or a CBRN event. Our ability to have already worked that out 
and already have that all set, so that our staffs and our 
command centers already know exactly how this will go down, 
with General Renuart saying, here's what I need, and then we 
flow the forces to him, all that works well.
    I would say the same thing with Admiral Stavridis, General 
Ward, General Petraeus, Admiral Keating, and General Craddock. 
In every case, they know that when they say, here's what we 
have, we can have a dialogue back and forth and say, if we can 
do it this way, you just tell us when you need it; we'll figure 
out the best way. It might be multi-modal, it may be Guard and 
Reserve, or it may be commercial. There's lots of different 
ways of doing it, and we're always looking at satisfying the 
warfighter first, but making sure that we're doing it with an 
eye towards the taxpayer as well.
    Senator Ben Nelson. I appreciate it.
    My time has expired. Just one, hopefully for the record. If 
you could provide more information about the arms that are 
being supplied to Mexico. Are they manufactured in the United 
States or are they just brokered through a broker in the United 
States? Do they flow through the United States? Are they 
illegal or legal weapons in any event under U.S. law? I'd like 
some more information on that. It would be very helpful.
    General Renuart. Senator, we'll collaborate and get an 
answer for you for the record with some more detail on that, 
absolutely.
    [The information referred to follows:]

    The Department of Justice's Bureau of Alcohol, Tobacco, Firearms, 
and Explosives (ATF) exercises jurisdiction, enforces Federal criminal 
laws, and regulates the firearms and explosives industries. As such, 
ATF is the appropriate organization to answer your questions.

    Senator Ben Nelson. That would be very helpful.
    Thank you very much.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country and 
thank you for your leadership.
    General Renuart, we are certainly pleased with where you 
have landed with this last assignment. We still miss your 
leadership at Moody.
    General Renuart. Sir, I miss it as well.
    Senator Chambliss. You discuss in your statement the issue 
of aircraft capitalization and air sovereignty. I want to quote 
what you said there. You said: ``Our ability to maintain air 
sovereignty in the future is at risk. Legacy fighters are aging 
and will be stressed to maintain reliability and capability as 
we move into the 2013-2025 time frame. The tradeoff between 
modernization of airframes and transformation to fifth 
generation aircraft could limit efforts to keep pace with 
emerging technologies.''
    I agree with that statement. I think it's very fair and 
accurate. You go on to talk about the role of the F-22 as well 
as the F-35 in air sovereignty and in homeland defense 
generally.
    Looking out over the next 10 to 15 years, General, how 
concerned are you about the ability of legacy non-stealth 
aircraft to play that role with respect to domination of the 
airways as well as general homeland defense? Where does the F-
22 and the F-35 play into this in your mind?
    General Renuart. Senator, thanks, and I really honestly 
really do miss Valdosta, Georgia.
    I think first, as the combatant commander responsible for 
the defense of the homeland and the sovereignty of our air 
space, it is important to me to ensure that over the long term 
we continue to recapitalize those resources, as I mentioned in 
my statement. I think that there are really two tiers that we 
need to pay attention to. First is, is there a peer competitor 
nation who would threaten us? That certainly would require the 
best capability the Nation has.
    I think there is a second tier. That is, can I go find that 
aircraft that's not complying with FAA regulations somewhere in 
our United States? That may not require the same, very high end 
capability, but certainly capability nonetheless to find and 
fix that target, very high or low altitude, large radar cross-
section or small radar cross-section.
    I think both of those requirements talk to advanced 
aircraft capabilities. The F-16 will begin to go out of service 
here shortly. Much of my air sovereignty force resides in the 
National Guard, many of whom are flying some of the older 
versions of the F-16. So as I see that end of service 
approaching, I still have the requirement to maintain the 
sovereignty of our air space. I've worked very closely with the 
chiefs of the services, not just the Air Force but the Navy and 
the Marine Corps as well because they certainly can contribute 
to this mission. I've worked closely with Duncan McNabb on air 
refueling tankers to ensure that we have a robust, sustainable 
capability.
    The F-22 certainly is a marvelous aircraft. It gives a 
variety of capabilities. I think we have already used it in our 
air sovereignty missions, primarily in Alaska, but occasionally 
here in the lower 48. The F-35 offers again an all-aspect 
capability that will be helpful, not just to see aircraft, but 
to see ships on the surface of the ocean, small radar cross-
section, cruise missile, that kind of threat.
    So both of those fit very well into the capabilities that I 
think we'll need in the next 10 to 15 to 20 years. I maintain 
the requirement for a certain level of capacity and rely on the 
Services to provide that. So I try not to get into specific 
numbers of airplanes with the Services or with the committee, 
but rather maintaining a level of capacity for the country. 
Certainly those aircraft will both fit into that for the 
future.
    Senator Chambliss. Are you comfortable with where you see 
us headed over the next 10 to 15 years about having that 
capacity?
    General Renuart. Senator, I'm very comfortable in the 10- 
to 15-year point. I'm a little more careful on the 5- to 10-
year just because there is a production build and we want to 
make sure we can sustain the existing force. The Air Force is 
working very aggressively to look at bridge capacities in 
there. So far I'm comfortable with their approach. They haven't 
determined the final answer yet.
    Senator Chambliss. Admiral, your security cooperation 
arrangements throughout SOUTHCOM and the Southern Hemisphere in 
large part allows you to be successful in your mission. Almost 
everything you do at SOUTHCOM is in partnership with other 
countries in that region. One of the best ways we have to build 
and sustain those partnerships is through WHINSEC. Both 
Chairman Levin and I serve on that board at WHINSEC and we have 
seen first-hand the value of the training WHINSEC conducts and 
the partnerships with our southern allies and what it does to 
create that good feeling between our respective countries.
    I was pleased to see you mention WHINSEC in your written 
statement. If you would amplify as to what your thoughts are on 
WHINSEC, and in particular regarding how it helps you carry out 
your mission.
    Admiral Stavridis. Yes, sir. I serve on the board of 
visitors of WHINSEC along with you and the chairman. Every year 
we have about 1,500 students from 23 different countries. It's 
a tremendously positive personal contact event for all of them 
to come. They come with their families. They spend a year in 
Georgia. It's a terrific positive event that will cause them to 
be bound with the United States in many ways forever.
    So it's an irreplaceable aspect of our security cooperation 
down south. There's an extremely high component of human rights 
training that goes on in every one of those courses. Between 10 
and 35 percent of the time in every course taught there has to 
do with human rights, which is a very important part of how we 
can share lessons across all of these militaries throughout the 
region.
    So I'm a very firm believer in it. I'm a satisfied 
customer. The U.S. Army runs it, but I'm proud to be on the 
board of visitors and I'm proud of the work that goes on down 
there. It is fully transparent. I would invite anyone who wants 
to, to come and visit at any time, and I'd be glad personally 
to facilitate that with the U.S. Army. We don't do it as a dog 
and pony show. We'll bring you in there to see a class, to walk 
through the classrooms, to walk through the teachers, lessons, 
and books. It's a transparent facility that is doing very, very 
good work in the region in my opinion.
    Senator Chambliss. General McNabb, we have this ongoing 
conversation relative to the C-5 and the C-17. I view those 
airframes as not being in competition with each other, but as 
making a significant complement one to the other. But with 
respect to the C-5, all those airframes are old. We keep the 
modernization program constantly on the books. The C-17, we're 
flying it at 150 percent of the anticipated rate that we 
thought we'd be flying it in Iraq and Afghanistan. Now we're 
looking at whether or not we're going to continue that line of 
C-17s.
    What's your thought about where we are from a current 
capacity rate with respect to those aircraft and where do we 
need to go in the future?
    General McNabb. Thank you, Senator Chambliss. Where I sit 
is the program of record that has 205 C-17s, re-engining the C-
5Bs and two C-5Cs, and then doing the avionics modernization 
program on the C-As, that mix of airplanes satisfies the 
requirements that I have, the 33.95 for outsized, oversized 
cargo. Then obviously I have the Civil Reserve Air Fleet to 
carry the bulk cargo as well.
    That came out of the Nunn-McCurdy. They looked at a lot of 
options, including additional C-17s or re-engining all the C-
5s, and they came up with this mix. I was part of that as the 
vice chief, but also as the AMC commander, so I'm comfortable 
that that meets those needs.
    We have MCRS-2016 that is in the works right now, about to 
be taken to OSD in May. It is looking at the additional things 
that have happened since the mobility capability study, the 
increase of the ground forces, changed the way we use the 
airplanes; as you mentioned the higher usage of the C-17. It's 
also looking at the tanker capability and the sealift as well.
    So that's the latest study. We'll take a look at that. As 
the different studies have gone on, Senator McCaskill tasked 
the size and mix of the airlift force and it confirmed the 
same, so this mix about works.
    The good news on the C-5 re-engine program is the first 
three have been delivered to Dover. They're going to go out in 
the system and we'll test it out. When I talked to Lockheed, I 
said I'd like to have the reliability like we have on the C-17 
so that we can get it out and trust that it'll go back and 
forth with high reliability. They promised 75 percent as a 
minimum. It looks like 81 percent is what the test is showing.
    So we'll go out there and wring it out, and I'm really 
excited about that complementary capability of those C-5Bs and 
C-5Cs that become re-engined will be huge. The C-5As, we'll put 
the avionics modernization program and that'll allow it to fly 
in the airspace all over the world.
    So I think the overall mix we have is about right, unless 
something changes. I will say from my standpoint, that more 
modern airplanes is better because, if you can trust it, if it 
has more reliability, you don't have to put backup airplanes 
out there and so forth. Multi-modal also plays well.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Hagan.
    Senator Hagan. First of all, I want to congratulate Admiral 
Stavridis on the rescue of Keith Stansell, Thomas Howes, and 
Mark Gonsalves, as well as the 12 other hostages, last July 
from the FARC. I can remember watching that shaky video and 
just thinking how professional and how remarkable the operation 
was, and I can assure you the pride that you felt in watching 
that rescue was shared by millions of Americans. It was 
certainly a great moment for SOUTHCOM and for our country and 
for all of our partners in that mission. I'm just sure it must 
have been an extremely gratifying and emotional event for you.
    Admiral Stavridis. It was. The Colombian military, which 
undertook that operation, is to be highly congratulated in 
every sense.
    Senator Hagan. Very good.
    General Ward, in my hometown in Greensboro, NC, I have a 
large number of refugees from the DRC. They talk to me 
frequently about their situation and their home and their fears 
for their safety, for their family members and associates 
there. There is also a situation where if there is a violation 
of an immigration status that there's fear that people who are 
deported back to the Congo will be murdered when they arrive.
    I wondered if you could update us on the security situation 
there. Then in addition, I read quite frequently about the use 
of rape as a weapon against young women and children and old 
women in the Congo. There was a recent article that Bob Herbert 
wrote in the New York Times talking about that it's really 
hundreds of thousands of victims, and the fact that should they 
live the humiliation of themselves and their family members is 
widespread.
    General Ward. Senator, to be sure the violence that can be 
perpetrated against civilian populations in the DRC and other 
parts of the continent is absolutely deplorable. We through 
various mechanisms are doing our part in providing increased 
capacities for these nations to, firstly, deal with these rebel 
and renegade groups that operate inside their territories.
    As was mentioned recently, the collaboration that exists 
between three governments--the Governments of Uganda, the DRC, 
and Rwanda--to address the LRA in the eastern Congo was I think 
at this point in time something that we should all look at in a 
very optimistic way as signaling a degree of cooperation 
amongst those regional neighbors to address a common problem 
that has done the sorts of things you described as it 
terrorizes the populations of those areas.
    The use of violence, rape, murders, and other atrocities 
that these groups commit against citizens in these areas is 
something that we all look at in a very negative way, and to 
the degree that we can continue to support efforts to address 
that I clearly say we ought to take every opportunity we can to 
do so. We do that in conjunction with the Department of State, 
with USAID, as they work their activities to help increase the 
effectiveness of the institutions of government in those 
region. Obviously, our role there as we work with these nations 
is increasing their capacity from a security point of view to 
deal with that threat that exists.
    Programs such as the Defense Institute of International 
Legal Studies, where we provide some support to these 
institutions and these governments, where in fact they catch 
and apprehend folks who have done these crimes and can 
prosecute and punish them accordingly, we also support. To be 
sure, those are deplorable situations that we pay attention to 
and do our best to do something about.
    Senator Hagan. It's certainly a horrible thing to read 
about and to think that that's happening on a daily basis. It's 
most concerning.
    I have another question I wanted to ask you, about oil 
theft. You discussed the serious problem of oil theft in the 
Niger Delta. In your written testimony you stated that in 
Nigeria oil exports have been reduced by up to 20 percent due 
to banditry, and in a country in which 95 percent of the 
foreign exchange earnings come from the oil industry certainly 
a 20 percent reduction in exports is a serious blow to that 
country's economy.
    Can you expand on this problem and what is being done to 
address it?
    General Ward. The country of Nigeria, Senator, a sovereign 
nation, has its own requirement to provide for the security 
within its borders. We, through various programs, work with the 
Nigerian Government to increase their capacity to in fact deal 
with these problems of illegal oil bunkering as well as other 
threats against the oil infrastructure there in the Niger 
Delta.
    We do not get actively involved in activities, but we in 
fact are involved in our training work. There is the Africa 
Partnership Station, which is a training program where we work 
with the nations in the region, the Gulf of Guinea, to increase 
their capacity to do several things: first, to detect what goes 
on inside their territorial waters; second, to address it in 
some common way; and third, to do it in a way that helps to 
increase and promote security, such that the work being done by 
those in the military and other security forces is in fact work 
that contributes to additional security, as opposed to 
alienating populations, alienating the local community, et 
cetera.
    Our programs for increasing their military capabilities 
include training, equipment, and common operational procedures 
that lead to better interoperability among these nations as 
well. That is an ongoing project that we have, working with the 
Nigerian Government, but also other governments there in the 
Gulf of Guinea to address that problem of illegal bunkering.
    I would also add that when effective training for illegal 
bunkering happens, it also transfers over into other areas like 
illegal fishing, which also robs those nations of a very, very 
valuable resource that can be used to support their population. 
It also gets to the point that we talked about with SOUTHCOM; 
the flow of illegal drugs, trafficking in people. They're all 
tied. Our ability to correct those issues is enhanced through 
our military-to-military cooperation and military-to-military 
support, and training and assistance programs that address 
these common threats that exist in the region.
    Senator Hagan. If there is such a stealing of the oil, 
though, there has to be a distribution network set up to deal 
with it. I was just wondering, from a security measure and an 
oversight standpoint, do you see this distribution system also?
    General Ward. We don't see it in great fashion. I will take 
that and get a better answer back to you. But what we do know 
is when it does occur it is done through black market channels, 
that bunkering that exists. The local population, because of 
the wealth distribution, will use that to augment their own 
resources that they can bring to account. But it is there. We 
don't know the extent to which it goes on in sight of the 
government, but unfortunately, it also wastes a lot of the 
resource. So in many respects it all goes back and it 
contributes to pollution and other negative effects there on 
the environment as well.
    [The information referred to follows:]

    The theft and distribution of Nigerian oil is best characterized as 
a combination of black market and legitimate commerce (or ``gray 
market''). The stolen (``bunkered'') oil goes into the international 
trade along with legitimately-loaded oil. Many of the tankers leaving 
the Gulf of Guinea carry a mixture of legitimate and illegitimate oil, 
since much of the 100,000+ barrels of oil a day of ``bunkered'' oil is 
``paper'' theft, due to deliberate misrepresentation of the amount 
actually pumped, loaded, and/or transported. For the portion of stolen 
oil that is physically taken from existing pipelines via illegal ``hot 
taps'' and subsequently ferried offshore in barges for further 
transportation, it is often either mixed with legitimate cargo or put 
in separate false/hidden tanks. Since stolen oil and legitimate oil 
come from the same wellheads, the stolen oil is very hard to chemically 
trace. Regardless of the method used to steal the oil (paper theft or 
physical theft), once transported to and off-loaded at foreign 
refineries, it vanishes into the worldwide market as refined products, 
and some is even re-imported into Nigeria, since Nigeria has little 
indigenous refining capability.
    The rate of oil theft in Nigeria is at least 100,000 barrels of oil 
per day and likely higher. A small portion of the stolen oil is sold 
directly on the open market in Nigeria since the sweet, light crude 
from the Niger Delta can be burned directly in diesel or gas engines 
with minimal refinement. Tracking stolen oil and the proceeds from its 
trade is extremely difficult. Endemic corruption at multiple levels of 
government and within the oil industry facilitates the trade and 
frustrates tracking and prosecution.

    Senator Hagan. Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Gentlemen, thank you all very much for your service to our 
country.
    General Renuart, I wanted to come back to the issue of air 
sovereignty for just a moment. In your prepared testimony you 
discuss the impact that retiring legacy fighters will have on 
air sovereignty operations and highlight the importance of 
continuing planned recapitalization programs. According to a 
GAO report released in January, even under F-22 and F-35 
fielding schedules an air sovereignty alert fighter gap will 
exist by 2015. Added to this, the GAO report states that the 
Air Force has requested the Secretary of  Defense's  approval  
to  accelerate  the  retirement  of  over  300  F-15s and F-16s 
in the fiscal year 2010 budget, many of which are performing 
alert duties.
    If approved, retiring these aircraft earlier than is 
currently planned will likely begin affecting air sovereignty 
alert operations in the near term. I guess my question is, do 
you agree with the GAO's findings that by 2015 some of the 
units that are currently performing air sovereignty alert 
operations will no longer have aircraft with which to perform 
that mission?
    General Renuart. The GAO report took a good hard look at 
the air sovereignty mission, both from the operator standpoint, 
our perspective, and the service provider's perspective. I 
think that their point is well taken, that if we don't make 
some clear decisions now that we will see a gap out there in 
the future, given the current sustained role of air sovereignty 
missions.
    I've made the strong case that that level should continue 
for the foreseeable future and I think have support from DOD to 
continue that mission. Given that, then we have to build some 
bridge strategies that will allow us to ensure that the basic 
requirements for this mission are met. But as a joint service 
activity, I can pull that from a variety of different possible 
service providers. Certainly the Navy has the capability, as do 
the Marines, as well as the Air Force.
    The Air Force is working very aggressively to build that 
strategy. We are being very supportive of them in terms of the 
key requirements for air sovereignty to continue in the future. 
I think we still have a little work to do in terms of having a 
firm plan to sustain this over time.
    I mentioned earlier to Senator Chambliss I think there's a 
bridge capacity that needs to be created, and General Schwartz 
and his team are working on that now. Until I see the results 
of that, I'd be careful to be too definitive in an assessment 
at this point, Senator.
    Senator Thune. Do you foresee units that currently don't 
have a full-time alert mission, say for example the South 
Dakota Air National Guard, picking up a full-time alert mission 
in order to mitigate that fighter gap? Is going to some of the 
Guard units a possibility?
    General Renuart. Yes, Senator, I think absolutely. As we 
get a better sense of what that recapitalization line will look 
like, whether it is refreshing existing aircraft or upgrading 
radars and the like on existing aircraft, there will also be a 
discussion, I think, on moving this mission around to a variety 
of units. Certainly we have done that. As Ellington Field Joint 
Reserve Base drew down its F-16 missions, we relied on Tulsa 
and other units to come in and fill that gap. So certainly we 
will continue to meet the requirement, and that's the bottom 
line for us.
    We're comfortable with any of our Guard units. It requires 
some training, but we can do that and have them pick up the 
mission as it may be required.
    Senator Thune. As I'm sure you know, we would love to 
continue to have a discussion with you about that where South 
Dakota's concerned.
    Admiral, a question for you regarding the January 22, 2009, 
executive order to close the detention facilities at Guantanamo 
Bay within 1 year, in which the President also ordered an 
immediate review of all of those detention facilities. The 
review I think mandated certain participants be included, one 
of which was the Attorney General, who's responsible for 
coordinating the review, as well as the Secretary of Defense 
and the Chairman of the Joint Chiefs of Staff, among others.
    Additional review participants can be designated by the 
Attorney General. As the regional combatant commander 
responsible for the military's JTF in Guantanamo, you have 
valuable first-hand expertise on how dangerous some of these 
detainees are and the requirements for their proper 
disposition. I guess my question is: Has the Attorney General 
requested you or any of your subordinates to take part in the 
administration's review of all Guantanamo detentions?
    Admiral Stavridis. He has not asked me personally. Attorney 
General Holder came down almost immediately upon taking office 
and spent a great deal of time on the ground in Guantanamo Bay. 
He had very detailed discussions with the two-star admiral 
who's down there. I think he has a full-sight picture. We stand 
ready to answer any questions that are posed by the Secretary.
    Senator Thune. Could you in your knowledge of those 
discussions that were held provide any details about perhaps 
dealing with the proposal that might transfer Guantanamo Bay 
detainees into facilities in the United States? Are you 
familiar with the discussions?
    Admiral Stavridis. No, sir. Those are not really in my 
purview. My job is to provide humane, transparent, and legal 
care to the detainees, and we do that every day in accordance 
with Common Article 3 of the Geneva Convention and the Detainee 
Treatment Act, which is U.S. law, and we'll continue to do 
that. But disposition is outside of my purview.
    Senator Thune. I compliment you on the treatment that you 
do provide. I think everything I understand is very good in 
terms of all the things the detainees are permitted to do, the 
way that they're cared for, the opportunities they have to 
worship, and everything else. I think the issue is that over 
the course of this next year as this study is completed, that 
will concern many Members of Congress is, if in fact they are 
not housed or stationed at Guantanamo, what will be the 
alternative, and would that entail putting them somewhere here 
in the United States?
    There are a couple of bases in particular that have been 
mentioned, both of which I think the delegations from those 
States would find objectionable. But as you perhaps know, there 
was a vote in the Senate last year, a 94 to 3 vote, that that 
not be a solution.
    So as this process plays out, to the degree that you are 
apprised of what's happening and could share any details about 
that with this committee, there will be a very high level of 
interest, I can assure you, in Congress about that.
    So thank you. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    I'd like to commend our distinguished panel for all the 
work that you do on behalf of the people of this great country 
and the people of the world. So congratulations, gentlemen.
    I'm going to really focus, in the interest of time, on two 
of the commands. I noted that the three geographic commands all 
addressed interagency cooperation in the statements and 
specifically a new interagency organizational model at SOUTHCOM 
and AFRICOM. I'm interested in how success with interagency 
organizations' inclusion can be used in other commands. I'm 
also very interested in the future of AFRICOM, and in 
TRANSCOM's response to increased fuel prices and any piracy 
concerns related to our transportation assets.
    Let me begin with my question to SOUTHCOM. I understand 
that the USNS Comfort, a Navy hospital ship, has its home port 
in Baltimore. It's preparing to deploy next week for a 4-month 
humanitarian assistance mission through Latin America and the 
Caribbean. The hulking hospital ship, three football fields 
long and one wide, which must be a monster, will deliver 
medical, dental, veterinarian, and engineering assistance in 
support of the mission Continuing Promise. This mission is 
SOUTHCOM's fourth in as many years, and the public diplomacy 
value of a visit by the Comfort is immeasurable, according to 
DOD and State Department officials.
    So Admiral, have the nations receiving assistance from the 
Comfort expressed any concern, about the visit of the Comfort? 
What is their reaction to that service coming to them?
    Admiral Stavridis. Sir, it's been overwhelmingly positive. 
Comfort made a voyage 2 summers ago and did 400,000 patient 
treatments through 12 different countries. The public response 
to that was extremely positive in each of the nations, and we 
have very detailed information about that and I'd be glad to 
share that with you as a matter of record. In fact, I'd like 
to.
    This summer's voyage of the Comfort for that reason is 
called Continuing Promise. The first one was The Promise 
because it was the first time we were lucky enough to have a 
hospital ship, and this year's voyage is to show that we want 
to continue those good effects.
    It's important to note that this is a ship that's full of 
nongovernmental volunteer organizations, such as Operation 
Hope, for example, one of our partners. It has full interagency 
cooperation. It's very tied into and supportive of the 
individual country teams. It functions under the direction of 
the ambassador when it gets into the individual port. It has 
been received with open arms in every port visit it's gone to 
in the past, and we anticipate the same this summer, sir.
    Senator Burris. Thank you.
    Let me go to AFRICOM. I noted that you've addressed the 
human immunodeficiency virus (HIV) treatment program in Africa, 
but no other broad-spectrum military treatment. General Ward, 
what consideration has your command given to securing a visit 
from the hospital ship? Is that ship going to head for any 
African ports?
    General Ward. Senator, clearly, given the success that the 
hospital ship program has had in other geographic commands, we 
too are looking at it as an augmentation to our security 
cooperation and the benefits that we can provide to the 
continent of Africa. Of the nations in Africa, there are 
currently five that have the capacity to bring that large 
vessel into port. Most of them are on the Mediterranean, and so 
therefore what we have done in the meantime, as we continue to 
pursue the benefits of the hospital ship, is to incorporate 
those like capabilities aboard our Africa Partnership Station, 
bringing medical, dental, and veterinary treatment, as well as 
providing a platform for training the regional medical 
personnel to embark upon those platforms when they are in their 
geographical areas along the coastline, receive training, treat 
local residents, and then continue on.
    We do see this as a viable option and as we conduct our 
security cooperation planning efforts in the future we see the 
hospital ship program as one that we too would like to take 
advantage of as we continue to provide this type of support to 
our African friends.
    Admiral Stavridis. Senator, if I could just add to concur 
completely with General Ward. This was a subject of discussion 
between AFRICOM and SOUTHCOM at the staff talks that I 
mentioned earlier. We learned a lot from how General Ward's 
folks are doing what he calls Africa Partnership Stations, 
which is a terrific program. We want to try some of those 
things. Hopefully he had a chance to look at the hospital ship 
program. It's a good example of how we're trying to cooperate 
amongst ourselves here to be efficient.
    Senator Burris. Regarding AFRICOM's headquarters location, 
upon the command's establishment there was speculation that 
AFRICOM might be permanently located in Europe or in the United 
States. Some have argued that AFRICOM's headquarters should be 
located in Africa. I understand it's in Stuttgart, Germany. Is 
that any hindrance to the service that you can give the 
continent of Africa, General Ward?
    General Ward. Senator, at this time it is not a hindrance. 
As we stood the command up--and this occurred about a year 
ago--the location that we had there in Stuttgart, Germany, 
provided the facilities, the geographic locational relationship 
that we need as we work with our European partners, as well as 
working with the nations of Africa.
    The continent is obviously so large, wherever the 
headquarters is, quite candidly, sir, we would be going 
someplace else, as reflected in the tremendous travel that I do 
on a weekly basis throughout the continent of Africa.
    Right now, where we are works for the command. Our focus, 
our priority, is to show our African friends, show our 
international as well as interagency partners, that the 
creation of the command is enhancing the delivery of security 
assistance programs on the continent. The headquarters location 
at the current time is not a factor in our ability to do that 
in an increasingly effective way.
    As time goes on, I'm sure that this decision might be 
revisited. But at the current time it does not at all impede 
the ability that we want to have and the results we want to 
have, and that is increasing the capacity of these African 
nations through our robust military-to-military programs, as 
well as our other military support activities.
    Senator Burris. My time has expired, but just one quick 
question for General McNabb. Is there any problem with piracy 
in the transportation of our assets?
    General McNabb. Yes, Senator. We are doing a couple things. 
On our MSC ships and ships that they charter, we have security 
teams that are aboard them. For our other commercial liners, we 
work with MARAD to make sure that they know the latest 
techniques and how to link in with Combined Task Force-151, 
make sure that they are working very well, especially ships 
that are more at risk, ones that are slower and have a lower 
freeboard. We've also offered to those companies anti-piracy 
assessment teams that could help them and say: Hey, if you 
encounter this, here are some things that you can do in terms 
of tactics, techniques, and procedures.
    So it is one that I'm concerned with. I really like how the 
interagency has worked together on and with MARAD and the Navy 
in particular, and then with both CENTCOM and AFRICOM. All of 
that has played out very well.
    Senator Burris. Mr. Chairman, I have some more questions, 
but I'll just submit them. Thank you so much, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Burris.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, I'm sorry I had to leave during the hearing. I 
had a meeting in my office, but I did follow a good bit of the 
hearing when I wasn't here on the television screen in my 
office.
    First of all, I'd like to say I appreciate all of your 
willingness to come by and talk to us personally and our staff. 
It's been very valuable to explore some issues that we're not 
going to be able to go into in a whole lot of depth today. But 
I do want to follow up on a number of those.
    I watched the exchange between Senator Reed and the Admiral 
and General Renuart on the shipment of guns. I'd just like to 
raise a cautionary voice here, that we really need to be 
careful that we're not understating the problem that we are 
facing along our border and in the country, or causing people 
to view it in an improper context, that this is simply gun show 
loophole, guns going down there, and basically, we're arming 
the threat that we face.
    It's much, much more sophisticated than that. We're 
talking, just with the Mexican drug cartel, a business that 
runs about a $25 billion profit, from what I've seen. They're 
highly trained. A lot of these individuals are former Mexican 
army soldiers, some of whom were trained by our own special 
forces. Their tactics are very sophisticated. You don't get a 
rocket-propelled grenade, an automatic weapon, or a hand 
grenade at a gun show. So we need to make sure that people 
understand that as we're discussing, what we're going to do 
about it.
    There have also been some exchanges here talking mainly 
about the situation on the border, and I think it's important 
for people to understand that this is not simply a Mexican 
problem and it's not simply a border problem. What we have seen 
along the border has illuminated the problem for a lot of 
people in this country, but it's a national security problem. 
The Mexican cartels by the evidence that I have seen are 
operating in 230 American cities right now. There were reports 
that the outdoor marijuana plantations in California--by the 
way, marijuana is now the number one cash crop in California; 
it just outstripped wine about a year and a half ago--are run 
principally by the Mexican drug cartels.
    So we have a situation and it's transnational, which, 
Admiral, you used in your testimony a couple of different 
places. I've been trying to get that word in the lexicon as 
well. But it's also transcommand here, because so much of it 
initiates in your command, but so much of the response is going 
to have to come out of your command, General.
    So my question really is, at what point does a 
transnational organized criminal threat become an insurgency or 
something tantamount to an insurgency? If so, what do we do 
about it?
    General Renuart. Senator, absolutely we should make no 
mistake, this is a transnational, very complex, well-
integrated, apparatus. It flows from the sources, some of which 
are in South America, certainly to the distributors, many of 
which are here in our country.
    You are correct in saying that there is a presence in our 
Nation in hundreds of our cities. In fact, just a week and a 
half ago, the Drug Enforcement Agency announced some fairly 
significant efforts that they had concluded, yielding the 
arrest of some 700 distributors, and these were distributors in 
our country, not the cartel members in Mexico.
    So this is a problem that we have to deal with. You are 
absolutely correct to say that the Mexican drug cartels are 
much like an insurgent organization. They are well-trained, 
they're well-equipped. Their tactics are good. Those in the 
Gulf cartel area are some of the most sophisticated around.
    Having said that, we need to ensure that we have created an 
interagency capacity that can start at the source and continue 
all the way through the retailer, if you will. Our role is to 
ensure that Jim's folks and ours are integrated each day. We do 
that through his JIATF-South and my JTF-North. We both partner 
with the full interagency effort and we are as supportive as we 
can be.
    I think that, as we come further to the border, our role is 
to then help the Mexican military, who is the principal element 
of the law enforcement effort. The lack of corruption in the 
Mexican military is noteworthy. They are carrying this role for 
their government.
    As we move to the border, we partner with our law 
enforcement to help identify and stem the flow as much as we're 
able. Then of course, the law enforcement has the retail 
element there.
    So I think this is an effort that will require even closer, 
more aggressive work, but it is one that is significant.
    Admiral Stavridis. I agree with Gene's remarks. Senator, I 
agree with your comments. I believe that, as I mentioned 
earlier, sir, this is really about finding a supply chain, 
understanding it, reverse engineering it, and killing it. 
That's the process we need to undertake. To do that, we need 
international and interagency cooperation.
    Sir, I'd love to get you down, or any member of the 
committee, to JIATF-South, JTF-North, and we'll show you how 
these seams fit together. It's been something we've been 
working very hard.
    Senator Webb. For our purposes, I think we may be looking 
at the necessity of a more robust Federal response. I think 
we're going to have to have that debate up here.
    General McNabb, when you and I visited in my office, we 
were talking about the alternative supply routes into 
Afghanistan. You addressed a good bit of that today. I have two 
thoughts for you. One is, and this is for the record, Mr. 
Chairman, I would like to see a comparison of the cost and the 
time and the load capability of the different approaches that 
we are now taking.
    [The information referred to follows:]

    We believe we can deliver 100 containers per day into Afghanistan 
using the Northern Distribution Network (NDN) whereas approximately 150 
containers per day can be delivered via the Pakistan Ground Lines of 
Communication (PAK GLOC). The cost and timing estimates are based on 
approximately 190 containers being delivered via the NDN to date and 
over 13,000 containers delivered via the PAK GLOC in the past 6 months.
    For containers originating in Continental United States, the NDN 
Russian route costs $17,600 per container and currently performing at 
59 days from booking to date of delivery. The PAK GLOC costs $5,900 per 
container and is currently performing at 95 days.
    For containers originating in Germany, the NDN Russian route costs 
$16,200 per container and currently performing at 45 days from booking 
to date of delivery. The PAK GLOC costs $5,100 per container and is 
currently performing at 88 days.
    Initial NDN costs are based on 120-day quotes from our commercial 
partners. Competition and volume should contribute to lower rates over 
time. The biggest reason for the cost differential is longer ocean 
transit for the Pakistan route as compared to the NDN routes. This 
factor drives the difference in overall cost because ocean transport 
costs less than surface segments. The additional cost provides for 
better velocity as NDN's transit time will be half of PAK GLOCs.

    Senator Webb. In other words, what we are moving through 
Pakistan right now. Per container, what's the cost of moving it 
that way, what's the time, what's the volume that we are able 
to move over a period of time, say a quarter, 3 months, 
whatever it is, from the different approaches that we're 
taking? If you could give that to us, I would appreciate being 
able to look at it.
    General McNabb. Senator, if I can give you a rough order of 
magnitude cost. We do it by container for the land.
    Senator Webb. You don't have to say container, but what I'm 
trying to do is to get something that's measurable, where we 
can look in a logical way at what these changes are going to do 
to the resupply pattern in there.
    The second question I would have is, there's been a lot of 
discussion and a lot of verbiage on the Internet about some 
NATO countries moving supplies through Iran, making a deal 
there. Do you know what stage that approach has reached?
    General McNabb. Senator, I do not, and we are not in any 
way contemplating using Iran.
    Senator Webb. I understand the United States is not, but 
it's been widely reported that other NATO countries are.
    General McNabb. I saw that General Craddock, in his role in 
NATO, is saying that if individual countries want to negotiate 
that. That's what I saw as well. I would just tell you that 
we're not in any way thinking about Iran, for all the reasons 
that you and I talked in your office.
    Senator Webb. Right.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Sessions.
    Senator Sessions. Thank you.
    Senator Webb, I was late because I was at a Judiciary 
Committee hearing on the Mexico matter. We've had Customs and 
the attorney general from Arizona and others. I concluded 
fundamentally the best thing we can do to help Mexico is to dry 
up these organizations, as Admiral Stavridis indicated. They 
are flowing money back in huge amounts, so it gives them the 
power. If we target those we would help Mexico a lot.
    They're doing a lot better. I believe a lot of the violence 
is because Calderon is standing up to these guys and taking 
them on. If he'll stay at it, I believe they'll be as 
successful as President Uribe in Colombia. But it's life and 
death. They'll kill you, and it's a dangerous bunch. He has to 
break that group because it threatens the good and decent 
people of Mexico and their ability to have a good government.
    General McNabb, on the tanker, this is such an important 
issue. It remains the Air Force's number one acquisition 
priority, is that correct? You have to be responsible for all 
of that in TRANSCOM. Aren't a lot of these aircraft 50 years 
old or more in age?
    General McNabb. Yes, sir. The KC-135s are Eisenhower-era 
tankers. By the time they start being replaced, it'd be 50 
years.
    Senator Sessions. So it's been a priority for how many 
years now?
    General McNabb. Senator Sessions, starting in 1999 when I 
was the Air Force programmer we were working hard on the 
replacement to the KC-135.
    Senator Sessions. So we're about 10 years off and we still 
haven't gotten there. I hope that we can get there. I believe 
it's possible.
    I will just add for my colleagues' sake that it was 
reported that the Northrop Grumman-EADS aircraft that was going 
to be built in my home State of Alabama by American citizens 
was 25 percent less expensive than the competing aircraft, 17 
years later, newer in design, and had larger capacity and 
capability, which is why I assume the Air Force chose it in the 
competitive process.
    So where we go and how we get there I don't know, but it 
would be folly and damaging to the integrity of our entire 
acquisition process if somehow politics caused us to do 
something that's not right. We ordered that thing bid. It ought 
to go to the best bidder. If we have to we can analyze a dual 
situation perhaps and see how that comes out, but in the long 
run we need to get the best aircraft for the best people, and I 
think you correctly decided that.
    General Renuart, you remain committed, do you not, and the 
military does, to the completion of the deployment of the 44 
missiles in Alaska and a few in California that would complete 
the anti-missile system, that would provide protection against 
a limited missile attack?
    General Renuart. Yes, sir, we do. That 44 production rate 
is the number we remain committed to.
    Senator Sessions. We have what, 26 now already in the 
ground?
    General Renuart. We have 26 operational silos, Senator. 
We've moved some in and out to do maintenance and that sort of 
thing, but yes, sir.
    Senator Sessions. All I would just say is, yes, this has 
been 20, 30 years of research and development. These systems do 
work. I'm absolutely convinced that if a missile were launched 
from North Korea, as they're talking about launching, and it 
came all the way to the United States, that this system would 
effectively knock it out of the air.
    General Renuart. Senator, I am confident that with the 
capabilities that are designed into the system, the various 
radars and sensors, it would give us good enough information 
against that single target to be successful.
    Senator Sessions. I think so, too. There are costs, are 
there not, if you were to substantially reduce the assembly 
line production of those missiles? Wouldn't we probably have 
contract penalties to pay and wouldn't it end up costing more 
per launch vehicle than we would if we went on and completed 
it?
    General Renuart. Senator, I think General O'Reilly, the 
Director of MDA who owns that process, is better suited to give 
you specifics. But my sense would be that any time you stop a 
contract there are costs to that. So my sense would be in this 
case that there would be some costs.
    Senator Sessions. We're more than halfway there and I think 
we need to just go on and complete that.
    Now, with regard to the proposed site in Europe, this is a 
matter I think of real importance. This is not a small thing. 
We've asked our friends in Poland and in the Czech Republic to 
participate in a system that would defend virtually all of 
Europe and the United States from attacks from Iran, and 
they've gone along with us on that. I am, I have to say, 
disturbed, troubled, worried that some of the politicians are 
now talking about making a deal with the Russians and maybe 
they'll promise us something and we won't go forward with this 
site, maybe.
    Is that your pay grade?
    General Renuart. Senator, you've just jumped it up about 
three above me.
    Senator Sessions. At any rate, we spent all these years 
doing the system. Now, with regard to a system that would be 
deployed in Europe, isn't the key thing in all of these systems 
the guidance system that's on the nose of the rocket? Isn't 
that the most complicated and critical component? We have a lot 
of missiles, but the question is whether we can guide it to the 
collision point; isn't that right?
    General Renuart. Yes, sir. I'm not an expert on the 
technical means, but I would tell you that the success of this 
capability is based in the system of systems. It is the radar 
sensors. It certainly is the guidance system on the missile. It 
is the ability to update that in transit. It's the 
collaboration of the many space and land-based, I call them 
radars, although some are different kinds of capabilities. All 
of those together give you the precision that allows you to 
strike a target in space in that regard.
    So it is, as we've mentioned with Senator Levin, the 
combination of all of these that can give us success.
    Senator Sessions. We've proven, I think, in the Pacific 
that we have the radar systems that all come together so 
fantastically, and the guidance system to make that thing work. 
I guess all I'm saying is that, with regard to the European 
site, we're talking about a two-stage rocket instead of a 
three-stage rocket that we have in Alaska and California. In 
many ways, isn't that really a simpler launch system?
    I know we have to test it, but it's not a quantum leap 
forward. If you have the guidance system, in theory at least it 
should be simpler to have a two-stage system than a three.
    General Renuart. Senator, I'd like to defer that to Pat 
O'Reilly.
    Senator Sessions. You just need to agree with me that it's 
logical. [Laughter.]
    Chairman Levin. You're doing really well, General. Stick to 
your guns. [Laughter.]
    Senator Sessions. That's the logical thing. We may have to 
test it and prove it, but a two-stage system is certainly not 
something we can't perfect. We've perfected a three-stage which 
is more complex.
    I would say this for the record. I believe that independent 
sovereign nations that were once part of the Soviet empire are 
independent sovereign nations. They have a right to decide who 
they sign treaties with. They have a right to decide what kind 
of defense systems they'll deploy in their nations. I think we 
ought to be prepared to defend that and not be taking any 
action that might be interpreted as an affirmation of Russia 
that they have the right to tell these countries how to conduct 
their defense.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Last, not a bad place to be, although a lot of material I 
wanted to talk about has been covered by other Senators, and I 
will not go back over it. I know that the study that we asked 
for on the C-17 and the C-5 is pending and we're anxious to get 
the information from that as soon as it's available. We have 
not yet seen any information from that.
    There are some bad habits we have in Congress, and that is 
a tendency to be very parochial when it comes to you buying 
things. I have to confess my parochial interest, obviously, in 
the C-17. It's pretty obvious, I represent Missouri. Boeing is 
an important employer in my State.
    What is confusing to me is when it seems like you may not 
be asking for things because you know that there's enough 
political will to give it to you anyway as an add-on. I guess 
my question is, if we're utilizing the C-17 at 159 percent--I 
mean, we're just flying the wings off of those things--why are 
you not asking for more? Could it be that you're encouraging 
our bad habits in terms of being parochial by knowing that if 
you don't ask for it we're all going to pile in and put it in 
the budget anyway?
    General McNabb. Senator, I hope we are not. I will only say 
that from the standpoint of any of these, you start with the 
requirement. You will look at a number of different options, 
and it really is competition that will come up with the best 
mix. My responsibility as TRANSCOM Commander is to take a look 
at everything that goes in and say, okay, does this meet what I 
need to do for the combatant commanders that I support? As long 
as it does, what we'll try to do is make sure that you get the 
most cost-effective mix that actually meets those needs.
    It really does depend on that competition, on the cost, for 
instance the re-engining of the C-5 vice how much does a new C-
17 cost. That's what they did in the Nunn-McCurdy. They brought 
that all together and said, hey, there's lots of different ways 
of doing this, and they brought everybody together and came up 
with, okay, here's the fleet mix that we think makes the most 
sense both for the warfighter and the taxpayer.
    I was part of that. I would say that it was very open. They 
went through the Joint Requirements Oversight Council, which is 
all the Vice Chiefs of the Services, reconfirmed the 
requirements, made sure that we have that right, and then 
turned that over to, in this case, John Young, who is 
overseeing that, and said: ``Okay, here's all the parts of the 
puzzle; let's come up with the best mix overall.''
    I think that, hopefully, we are the honest brokers to come 
back and say: ``Hey, this is the best overall way to do this, 
and of course that's what you see in the program of record.''
    Senator McCaskill. I'll be anxious to see the results of 
the study. I want us all to break these bad habits and I want 
to make sure that you're not enabling us by maybe not being as 
forthcoming with what the real needs are and by the way you put 
this thing together. There's a lot of habits we have that are 
really hard to break and we don't need enablers. So help us 
with that.
    I particularly am interested that the plan to do the 
Avionics Modernization Program on the C-5 ended up being 
obviously way more expensive. It's another one of those 
textbook cases of incredible cost overruns. I don't want to be 
a Monday morning quarterback here. I don't think that's fair. 
But looking back, I'm not sure that modernization program was, 
frankly, the best bang for the buck since it's turned out to be 
way too many bucks.
    Let me talk a little bit about the Iraq drawdown as it 
relates to equipment. What kind of plan is in place in terms of 
what's coming back? What about the rolling stock versus the 
white property? What I'm really concerned about in terms of the 
contracting is, how much is walking away with our contractors, 
and what's on top of that? Who's paying attention to our 
inventory?
    We've had problems with our inventory over there, whether 
it's guns or other things. Obviously, that's been a big issue 
for us, and I'm concerned. Who's in charge of getting our stuff 
back and making sure contractors don't call it their own when 
it's not theirs?
    General McNabb. Obviously, CENTCOM is putting together 
their plan on how they will bring that back, and they are 
sorting out now what they are going to bring back, what they 
are going to leave behind maybe for the Iraqis, or what they 
are going to move to Afghanistan. So they're going through all 
of that.
    I will say, the oversight of the contracting, making sure 
that's all done, is under CENTCOM's purview. I would say that 
what they do with us is they say, okay, here's how much we 
think we're going to bring out. I make sure that on the supply 
chain side, not only the transportation but also the 
distribution network, that I have plenty of lift to be able to 
do that.
    Senator McCaskill. You've not gotten any heads-up yet about 
what kind of lift you need to start to begin to expect over the 
next 18 months to 2 years?
    General McNabb. Yes, ma'am, they have. I want to make sure 
that we were not a long pole in the tent and we are not. We 
have plenty of lift, especially because of our commercial 
partners. As long as we give notice of what's available, our 
U.S. flag industry, both air and sea, is actually tremendous if 
you can give them advance requirements, and obviously we can 
use that. It's one of the great advantages we have, and that's 
cheaper than using military-unique type vessels.
    So I think that right now I know that we are not the long 
pole in the tent. The big part there is just to say, hey, as 
soon as you have it really definitized let us get that out to 
the market and then we can get it even cheaper on the market as 
well.
    Senator McCaskill. The cost-benefit as to whether we leave 
it or bring it back is being done by CENTCOM?
    General McNabb. The Services. So for instance, if it's on 
the equipment it'll be CENTCOM as the combatant commander 
working with their Service components, to say, okay, how do you 
want to do that. What might we also do in prepositioning and 
leave it in theater for that, all of that's being worked out.
    Senator McCaskill. I just want to know whose shoulder I 
need to look over, because I'd like to pay attention to that. I 
think we've learned some lessons. I just want to make sure 
we've learned them.
    General McNabb. Yes, ma'am.
    Senator McCaskill. General Renuart, as we talk about the 
National Guard and equipment, it seems to me that there is this 
rub between civilian needs of equipment and military needs. I 
think probably it varies with each Guard how much they're drawn 
to almost a seduction of getting all the military equipment as 
it relates to that side of their responsibility, which is huge 
now since they've become more operational as opposed to 
strategic.
    On the other hand, I know what a Humvee costs and I know 
what a pickup truck costs or a passenger van, and I know in our 
State, in terms of their domestic mission in terms of ice 
storms and flooding that it is not major flooding where you 
need a vehicle that goes through water, you need to transport 
people. I'm worried that we're spending big, big, big money on 
Humvees when a real good sport utility vehicle for a fraction 
of the cost is what we should be buying.
    Would you comment on that?
    General Renuart. Senator, absolutely. The Guard has their 
principal deployment mission, and it is a significant one. So 
we need to ensure that they are adequately and properly 
equipped and trained for that mission. In my role overseeing 
what I'll call the support to civil authorities and homeland 
security mission, we look at the capabilities that each of our 
partners in the National Guard have and look at what might be 
used out of that operational pool, because you don't have to 
buy anything else and you don't overuse the equipment to a 
degree. We also look at maybe some unique capabilities that 
really only apply to that mission.
    You're absolutely right, in your State certainly tornadoes 
and floods and ice storms, but also planning for a large 
earthquake, the New Madrid Fault is a huge issue along all of 
the border States of the Mississippi and Missouri Valley.
    So we try to advocate for those unique pieces of equipment, 
things like portable cell phone towers, interoperable 
communications devices that allow law enforcement and Active 
Duty and Guard military to talk to each other. We try to make 
sure those are included in the funding lines either of the 
State or of the DOD budget to provide to those States.
    So we are sensitive to your concerns. We try not to buy 
Cadillacs when a Jeep will do.
    Senator McCaskill. It's like Apache versus Chinook. We have 
Apache helicopters in our Guard and I'm like, do we need those 
in Missouri? We need to take people in them.
    General Renuart. Yes, ma'am. So as we continue this road 
map with the National Guard, it is a partnership. Craig 
McKinley and I talk about this on a routine basis. He works 
with the Services for those operational force requirements. He 
and I work together with the Services on those homeland 
security kinds of things. We try to be good stewards of that.
    But we do try to take advantage of the equipment that they 
already have so that we don't procure new equipment just for 
the unique mission that they might have in the homeland.
    Senator McCaskill. I would just encourage you to muscle up 
on your side.
    General Renuart. We will do that, yes, ma'am.
    Senator McCaskill. I think if you muscle up on your side 
it's going to in the long run give our folks the equipment they 
need day-to-day in terms of what they're doing. Not that they 
don't need some of the other, but I just think that if the 
pendulum is going to naturally swing away from the dual use 
equipment, I hope you keep advocating, because it's obviously 
much less expensive and desperately needed.
    General Renuart. Yes, ma'am. Absolutely, we will.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    We're not going to be able to have a second round, but the 
record will be open for questions. If Senator McCaskill has no 
other questions, there's no one else here to ask; I will bang 
the gavel. Thank you very much for your testimony. It was very, 
very helpful.
    We are adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                    drug-related violence in mexico
    1. Senator Akaka. Admiral Stavridis, according to a press release, 
Southern Command (SOUTHCOM) disrupted the flow of more than 200 metric 
tons of cocaine in 2008. You have made great strides in the SOUTHCOM 
area of responsibility (AOR). From your experience in SOUTHCOM, how can 
the Department of Defense (DOD) best utilize its diplomatic, military, 
and economic power to minimize U.S. impact from the drug-related 
violence in Mexico?
    Admiral Stavridis. No single action will eliminate the flow of 
illegal drugs into our cities or illegal drug use in our Nation. 
Countering this threat requires coordinated U.S. and international 
effort against all aspects of the illicit narcotics industry--
education, treatment, cultivation, production, transportation, and 
consumption--to fully attack this complex problem.
    SOUTHCOM works closely with Northern Command (NORTHCOM) to 
counterillicit trafficking and its effects in Mexico. Central America, 
as a transit-zone for narcotics trafficking on its way to Mexico, is 
also facing similar challenges. We appreciate Congress' continued 
support of the Merida Initiative, which includes funds for both Mexico 
and Central America.
    Mexico's military is currently the most effective element combating 
the drug trafficking organizations (DTOs) operating within their 
borders, and while the diplomatic, informational, and economic elements 
of a whole-of-government approach are essential to success, NORTHCOM's 
most significant contribution is in strengthening the operational 
capacity of the Mexican Army and Naval forces. This goes beyond 
providing the hardware and associated training that puts its military 
on an equal tactical footing with the DTOs. Our engagement should also 
focus on developing the ability to analyze and share the intelligence 
that allows the Mexican military to rapidly and effectively interdict 
critical capabilities within the DTOs' apparatus in order to 
systematically dismantle the organizations perpetrating the violence. 
Leveraging the renewed sense of gravity of this situation, we continue 
to assure Mexico that we are committed to a long-term security 
partnership that benefits both nations. The most significant 
consideration in determining military ways and means is to work with 
our Mexican and U.S. Government partners to provide support to their 
efforts.

                         africa command efforts
    2. Senator Akaka. General Ward, I recognize the increasing 
strategic significance of Africa and believe that Africa will pose one 
of the greatest potential challenges to global security. At this point, 
how do the people of Africa and other foreign countries in the region 
perceive Africa Command (AFRICOM) efforts in the region?
    General Ward. Most African nations welcome AFRICOM's assistance in 
reaching their goals for security forces that are legitimate and 
professional.
    We try to have our best understanding of our partners--their 
culture, environment, history, traditions, et cetera. Those things help 
build our relationships, and increase Africans' trust and confidence in 
our command.
    Africans see us as partners and allies. The focus of AFRICOM is on 
our programs.
    The good will generated by the election of U.S. President Barack 
Obama has created a more positive and receptive environment for 
AFRICOM. AFRICOM has reached French, Lusophone, and English-speaking 
audiences through media venues including BBC, Al Jazeera, Africarama 
Magazine, VOA, and local media.
    Over the past 2 years, media coverage of AFRICOM has become 
somewhat less critical. Media analysts attribute this trend to 
AFRICOM's efforts to communicate the command's mission, goals, and 
objectives to our African partners.
    Overall, media analysis over the past year has suggested that 
Africans are more receptive to AFRICOM than they were in 2007 when the 
command was first announced.

                  evacuation standards in afghanistan
    3. Senator Akaka. General McNabb, according to previous testimony 
from Secretary Gates, the goal in Iraq is to have a wounded soldier in 
a hospital within 1 hour. However, in Afghanistan, that time is closer 
to 2 hours. As we continue to send additional troops to Afghanistan, we 
need to make sure the necessary medical support is available in 
theater. In your opinion, what is the greatest challenge to improving 
evacuation standards in Afghanistan?
    General McNabb. Senator, in my opinion, the challenge in 
Afghanistan is one of distance, terrain, and altitude, along with the 
dispersion of medical support, aviation resources, and combat forces. 
Although the evacuation of wounded from the battlefield is a Service 
responsibility, Central Command (CENTCOM), in concert with the Services 
is increasing forces and aviation assets in theater to support the 
medical evacuation (MEDEVAC) mission in Afghanistan. Transportation 
Command (TRANSCOM) is currently engaged in transporting these 
additional helicopter units and forces to theater, and will continue to 
support CENTCOM and the Services as they provide a more robust MEDEVAC 
capability to meet the needs of the warfighter.

                         operation deep freeze
    4. Senator Akaka. General McNabb, in your prepared statement, you 
mentioned TRANSCOM's support of Operation Deep Freeze. As you know and 
experienced in Operation Deep Freeze, Hawaii and the rest of the 
Pacific theater are unique because we have to deal with the tyranny of 
distance. How would you assess TRANSCOM's current ability to support 
the humanitarian assistance and operational missions in the Pacific 
theater as it relates to your current forward basing strategy of air, 
land, and sea mobility assets?
    General McNabb. TRANSCOM has the ability to meet all humanitarian 
assistance and operational missions in the Pacific theater in 
relationship to the current forward basing strategy of air, land, and 
sea mobility assets. For example, in February 2008, Hawaii- and Alaska-
based C-17s delivered 225,000 pounds of food, medicine, and cold-
weather supplies to Shanghai, China, to provide relief for Chinese 
citizens across 19 provinces during their most severe winter in 50 
years. Within 18 hours of the Secretary of Defense's mission approval, 
18 cargo pallets were delivered to mainland China. In May and June 
2008, Yokota Air Base C-130s delivered 1.3 million pounds of relief 
supplies to Burma in the aftermath of Cyclone Nargis that caused 
tremendous devastation and tragic loss of life.
    Global Reach allows TRANSCOM to bridge the distances in the Pacific 
to deliver effects in a matter of hours, not days or weeks. Basing Air 
Force C-17 airlift assets in Alaska and Hawaii shows the increased 
emphasis TRANSCOM puts on improving our ability to respond more rapidly 
in this region. Bases in Alaska and Hawaii serve as critical components 
for humanitarian assistance, disaster relief, or combat operations. In 
addition, C-17s in Hawaii and Alaska have brought unprecedented levels 
of organic, flexible airlift to the warfighter. Hawaii- and Alaska-
based C-17s are strategically co-located with Army units, allowing 
PACOM to respond immediately with a joint force to any type of 
contingency worldwide. Likewise, KC-135 tankers permanently based in 
Alaska, Hawaii, and Japan, as well as rotational tankers on Guam, make 
up the air bridge required to move fighters, bombers, and other assets 
throughout the theater. In short, they allow us to dissuade, deter, 
and, if necessary, defeat any potential adversaries. Forward based 
aerial port squadrons and detachments throughout the theater from 
Alaska to Diego Garcia and Perth, Australia ensure ready support for 
strategic airlift movements in support of national interests.
    Surface Deployment and Distribution Command's forward basing in 
Hawaii, Alaska, Japan, and Korea ensure quick execution of surface 
movements originating both within and outside of the theater. This 
capability ensures timely movement of heavy forces for both contingency 
and humanitarian support. Their strength comes with strong commercial 
partnership with strategic sealift liner services provided by U.S. flag 
carriers and ground transportation provided by U.S. military units and 
contracted services.
    Rounding out TRANSCOM's forward posture, the Military Sealift 
Command (MSC) provides in-theater, Pacific Rim, command and control of 
sealift ready to meet any challenge offered. MSC's presence in 
Singapore, Korea, Hawaii, Guam, Japan, and other strategic locations 
ensures hands-on availability. They have strong ties to our commercial 
partners to contract sealift capabilities on short notice when 
required. MSC is also positioned to respond with government controlled 
vessels to include large medium speed roll-on/roll-off vessels 
strategically stationed in 3 locations on the west coast of the United 
States and to activate over 14 Ready Reserve Force vessels including 
roll-on/roll-off and crane ship capabilities. Whether it's contracting 
ferry support from a foreign nation in a time of crisis for non-
combatant evacuation operations or working with indigenous maritime 
resources to execute short notice cargo charters, the MSC is ready to 
carry out any mission in the Pacific theater.
    TRANSCOM continually reviews readiness of our forces to include 
posturing of capabilities to meet any need while keeping our resources 
balanced across the globe. Based on our assessments and reviews, we are 
confident the forward posture of our forces best fits the need in the 
Pacific theater as it is today. As part of our planning and readiness 
review process, TRANSCOM will continue to analyze our forces and 
posture as the environment changes.
                                 ______
                                 
                Question Submitted by Senator Mark Udall
           relocation of cheyenne mountain operations center
    5. Senator Udall. General Renuart, I've had concerns about the 
relocation of the North American Aerospace Defense Command (NORAD) from 
Cheyenne Mountain to the new NORTHCOM/NORAD Command Center at Peterson 
Air Force Base (AFB). In particular, many members in the House Armed 
Services Committee (HASC) were not happy with the decision to relocate 
operations without fully analyzing the full range of threats--nor was 
the Government Accountability Office (GAO), which was made clear by a 
GAO report last year highlighting the lack of a comprehensive threat 
analysis. Last year, because of our ongoing concerns about the 
vulnerability of the new command center, HASC Chairman Skelton and I 
urged Secretary Gates to retain redundant operations at Cheyenne 
Mountain. When you and I spoke last, you assured me that redundant 
capabilities would be maintained in Cheyenne Mountain for the 
foreseeable future. You also told me that you would inform me should 
that ever change. I'd ask you to please repeat that commitment for the 
record, and give me a brief summary of some of the security measures 
you are putting in place to protect the command center in its new 
location.
    General Renuart. For the foreseeable future, the NORAD and NORTHCOM 
Alternate Command Center will remain in Cheyenne Mountain. We will 
inform Congress of any decision regarding the location of our Alternate 
Command Center.
    In order to further protect our ability to accomplish the NORAD and 
NORTHCOM missions, we have a comprehensive security enhancement 
program. This includes consulting with security and mission assurance 
experts from Sandia National Laboratories, Air Force Space Command, the 
Defense Threat Reduction Agency, and the Joint Staff Integrated 
Vulnerability Assessment Team, who have identified vulnerabilities and 
assisted in designing the best security system for our facility. We 
established a new security directorate to implement these 
recommendations and improve the overall security posture of the 
commands.
    Our physical security systems supporting the NORAD and NORTHCOM 
Command Center have been upgraded to include additional vehicle 
barriers, new perimeter fencing, and a vehicle searching station. We 
have converted our contract access controllers for the facility to Air 
Force security guards. We also have 24-7, dedicated 21st Space Wing 
Security Forces in our facility to provide the External and Internal 
Response Teams, and control access to the restricted areas. We have 
also instituted a security education and training program, 
comprehensive external security agency coordination, improved access 
control and screening, and Peterson AFB installed the Defense Biometric 
Identification System at their gates.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                           acquisition policy
    6. Senator McCain. Admiral Stavirids, General Renuart, General 
Ward, and General McNabb, in a report titled, ``Defense Acquisitions: 
Perspectives on Potential Changes to DOD Acquisition Management 
Framework'' (GAO-09-295), GAO found that reform of the requirements 
process is necessary to create a truly joint military and lay the 
foundation for an acquisitions process that is responsive to 
operational needs. Based on its work and other major acquisition reform 
studies, GAO believes that enduring requirements reform will occur when 
the combatant commands (COCOMs) have more influence over the 
requirements process to meet their priorities. To your knowledge, has 
the Joint Staff been engaging the COCOMs in the requirements process 
through participation in meetings of the Joint Requirements Oversight 
Council (JROC)?
    Admiral Stavridis. Yes. The Joint Staff welcomes and encourages 
SOUTHCOM participation in the requirements process through Functional 
Capabilities Board (FCB) participation as advisory members. I have an 
open invitation to attend any JROC meeting. The Joint Staff solicits my 
review of and comments on draft JROC memoranda and requirements 
documents.
    General Renuart. Yes, NORAD and NORTHCOM actively participate in 
the JROC process and engage its supporting construct, which includes 
the Joint Capabilities Board (JCB) and FCBs as advisory members, but 
not voting members.
    In order to assure maximum support for NORAD and NORTHCOM equities 
within requirement and capability forums and processes, members of our 
Programs, Resources, and Analysis Directorate represent the commands in 
each FCB and coordinate JCB and JROC participation when required. These 
resourcing professionals provide my focal point for the commands' 
requirement and capability activities, and coordinate the participation 
of other command subject matter experts to provide core knowledge when 
interfacing with these forums. They maintain routine engagement with 
Joint Staff offices to assure our active participation and awareness in 
the DOD requirements processes, and advise me of JROC and JCB 
requirement and capability topics that may require NORAD and NORTHCOM 
senior leader participation.
    Our active engagement with Joint Staff and senior OSD leadership 
also includes the annual JROC and JCB site visits, which put particular 
focus on the combatant commanders' capability gaps and issues, and 
address the latest JROC initiatives and OSD policy and programming 
issues.
    General Ward. Yes, the Joint Staff has been engaging the combatant 
commanders in the requirements process through the JROC. Also, 
subordinate to the JROC, the Joint Staff actively and adequately 
engages the COCOM through participation in: Joint Staff requirements 
forums such as the JCB and the nine DOD Joint Capability Area based 
Functional Capability Boards (FCB); the Capability Portfolio Management 
(CPM) process; the Senior Warfighter Forum (SWARF) process; the Joint 
Capabilities Integration and Development System (JCIDS) product 
development process; and most directly through the COCOM Integrated 
Priority List (IPL) process.
    General McNabb. Yes, the combatant commanders are engaged in the 
requirements process through active participation in the JROC. 
Additionally, our involvement continues to increase through the direct 
review of all capability documents (via the JCIDS), voting membership 
on FCBs, COCOM co-leadership of Capability Portfolio areas, increased 
importance of COCOM IPLs, the emerging Science and Technology IPL and 
increased use of SWARF.

    7. Senator McCain. Admiral Stavirids, General Renuart, General 
Ward, and General McNabb, do you think that combatant commanders need 
to have more formal influence than they do now over the requirements 
process to meet their priorities?
    Admiral Stavridis. No. Multiple forums to address SOUTHCOM current 
and future requirements are available and the Joint Staff actively 
encourages our participation in each venue.
    General Renuart. No, various venues are already currently available 
to me to formally influence the requirements process to deliver 
capabilities for near-term (less than 2 years), mid-term (2 to 7 years) 
and long-term (beyond 7 years) resourcing and capability development 
needs in response to the commands' requirements. We actively 
participate with appropriate acquisition authorities to influence the 
requirements process.
    For instance, while we do not often initiate or develop Joint Staff 
JCIDS documents, we are routinely tasked by the Joint Staff to 
coordinate and comment on formal JCIDS documents initiated outside the 
commands. In many cases these documents have great potential to 
contribute to capabilities required by NORAD and NORTHCOM.
    In addition to the JCIDS process, the SWARF provides an effective 
means for 3-star level COCOM leaders to engage their counterparts to 
identify issues and capabilities associated with a particular mission 
or function, develop agreement on common gaps within current 
capabilities, and develop new, coordinated approaches for addressing 
emergent opportunities. The results provide a consensus view from 
senior warfighters to the Vice Chairman of the Joint Chiefs of Staff 
for identifying joint warfighting capabilities, associated gaps, and 
opportunities within those required capabilities.
    As an example, the Joint Rapid Acquisition Cell (JRAC) mandates 
that combatant commanders interface with and provide feedback to 
acquisition authorities on the suitability and timeline regarding 
proposed solutions to JRAC-certified Immediate Warfighter Needs. In 
compliance with JCIDS processes, an acquisition authority may request 
NORAD and NORTHCOM to develop and provide requisite architecture 
products to develop solutions analysis and influence follow-on 
acquisition documents.
    General Ward. Combatant commanders' inputs should be incorporated 
at all levels of analysis in DOD. This will ensure that as risk/benefit 
trade-offs are debated throughout the decision process, COCOM inputs 
are part of the final DOD position. We must ensure COCOM IPLs remain 
within their original context as these validated operational 
requirements proceed through the FCB, JCB, and JROC.
    General McNabb. No. Current involvement via the IPL, review of 
capability documents via the Joint Capabilities Integrated Development 
System, FCB voting membership, COCOM-led Senior Warfighter Forums, 
Capability Portfolio Management roles, and direct engagement with the 
JCB/JROC provide combatant commanders sufficient venues to influence/
shape the DOD's requirements process.

    8. Senator McCain. Admiral Stavirids, General Renuart, General 
Ward, and General McNabb, what, if anything, do you think can be done 
to provide more authority to combatant commanders to ensure that their 
long-term needs are met or do you believe that the current IPL process 
embodied in the JCIDS is sufficient?
    Admiral Stavridis. Though the IPL serves as an important document 
to communicate critical capability shortfalls, the IPL process remains 
an inadequate way to ensure long-term COCOM needs are addressed. IPLs 
do inform the Program Objective Memorandum (POM) build process and lend 
credence to COCOM issue nominations to the OSD Program Budget Review 
(PBR) process. Unfortunately, the Services are not required to formally 
accept and integrate COCOM IPL issues into their POM submissions. 
Instead, the Services are directed to modify their POM submissions 
after a COCOM successfully argues a position within the OSD PBR 
process. If the Services were directed to formally discuss how their 
POM submissions addressed COCOM IPL items during a JROC meeting, it 
would help the Services' senior leadership focus on COCOM long-term 
requirements earlier in the process.
    General Renuart. The NORAD and NORTHCOM IPL is one of the most 
important documents for communicating my most critical capability 
shortfalls or gaps to the Secretary of Defense, Chairman of the Joint 
Chiefs of Staffs, and Military Services to influence the DOD Planning, 
Programming, Budget, and Execution process.
    The IPL focuses on 2 to 6 years out. Because of this, it is 
insufficient as a single-source document for acquiring long-term needs. 
The IPL addresses my highest priority requirements, prioritized across 
Service and functional lines, which affect the forces' ability to 
accomplish our commands' assigned missions. The current IPL process, 
vetted through a Service and Functional COCOM JROC-centric construct, 
is only one capability-based format embodied in the JCIDS. The JCIDS is 
an important tool to influence solution development of our commands' 
long-term needs across the entire Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel, and Facilities spectrum 
within, and external to, the JCIDS process.
    Other requirement documentation sources available to the combatant 
commander--and which I use--include overseas contingency operations, 
Lessons Learned, Joint Combat Capability Assessments, Comprehensive 
Joint Assessment, and Joint Urgent Operational Needs.
    I do not believe that more authorities are necessary; the IPL does 
the job of conveying our critical capability gaps. However, the 
existing processes that the IPL feeds, the proliferation of inputs to 
those processes, and the various methods of analysis to support 
decisions have become more and more difficult for the participants to 
navigate.
    Joint Staff and OSD receive inputs from an ever-growing number of 
sources--FCBs, Capability Portfolio Managers, Command and Control 
Capabilities Integration Board, and Senior Warfighter Forums to name 
some of the more prominent ones. In most cases, these entities have 
different charters, leadership, and membership. We should continue to 
critique our processes to allow us to better focus our limited 
resources to effect change and acquire needed capabilities.
    General Ward. The establishment of AFRICOM is recognition that the 
Department must take a longer-term view of activities, programs, 
investments, and desired effects in our dealings with partner nations. 
A review of existing authorities with a view to help the Nation meet 
the threats of this century would be consistent with that approach. A 
longer-term focus (beyond the usual budget cycle) would help provide 
sustained, predictable, and reliable engagement, resulting in measured, 
consistent improvements in partner capacities over several years. 
AFRICOM's core mission is Sustained Security Engagement to reflect a 
new and evolving focus on building partner capacity at the country and 
regional levels. Current 1206 and 1207 authorities along with the wise 
use, and continued support, of FMF and IMET funding are key to our 
ability to assist our partner nations. Any additional authorities must 
support a robust, multi-year, sustainable ability to provide Security 
Sector Reform assistance programs to build partner capabilities.
    General McNabb. The JROC is experimenting with shifting a portion 
of its authorities to functional combatant commanders commensurate with 
their Unified Command Plan mission which is expected to provide a 
greater COCOM voice in addressing long-term needs. This combined with 
existing participation in SWARFs, FCBs/JROCs, Capability Portfolio 
Management roles, Quadrennial Defense Reviews (QDRs), various studies/
assessments, and an increased voice in science and technology, is 
sufficient to address long-term requirements.

    9. Senator McCain. Admiral Stavridis, General Renuart, General 
Ward, and General McNabb, what additional resources, if any, do you 
believe that combatant commanders need to establish robust analytical 
capabilities to identify and assess their long-term requirements?
    Admiral Stavridis. Additional financial and human resources to 
enhance SOUTHCOM's in-house analytical capability to identify and 
assess our long-term requirements would be very beneficial. However, as 
an economy of force command, SOUTHCOM is very sensitive to concerns 
that additional analytical personnel at a geographic COCOM might 
duplicate robust analytical capability in the functional COCOMs, 
defense agencies, and Services.
    General Renuart. Increased in-house analytical capacity to conduct 
unbiased identification of required capabilities over time and to 
perform strategic-level assessments of our commands' long-term 
capabilities to execute multiple missions and to achieve desired 
effects could be beneficial. However, we must be cautious not to drive 
a negative resourcing impact to current DOD manpower allocations or 
create a duplication of robust defense service and agency analytical 
capabilities. The commands currently leverage these capabilities within 
the supporting defense agencies and Services.
    Using our commands' modest analytical capacity for capabilities and 
requirements determination, NORAD and NORTHCOM have developed and 
implemented a Capability Review and Resource Assessment analytical 
process that links national strategies, departmental guidance, internal 
direction, and formal plans to strategic investment decisions intended 
to deliver required capabilities. We leverage existing Defense 
Department, Service, and Agency analytical capabilities. Our process 
employs a capabilities-based risk and resource management methodology 
providing traceability from national-level strategy to programs of 
record. This linkage provides the foundation for engagements with OSD, 
Joint Staff, defense agencies, and the Services to influence 
investments in training, capability development, acquisition, and 
sustainment. It establishes a top-down view from the combatant 
commander's perspective to assure that developmental programs, driven 
by strategic guidance and assigned missions, will meet the warfighters' 
needs (i.e., ``requirements''). This process provides the ``guidance-
mission-objective-effect-capability-program'' correlation that is 
essential to establishing the connection between guidance and required 
capabilities. Likewise, the linkage provides the Services and agencies 
with a bottom-up perspective to assure that their programs provide the 
COCOM's priority capability requirements.
    NORAD and NORTHCOM use a Linking Plans to Resources process that 
serves to define the missions and desired effects, validate the 
capabilities required, identify the capability gaps, assess the risk to 
each gap, prioritize the gaps, identify and assess potential Doctrine, 
Organization, Training, Materiel, Leadership and Education, Personnel 
and Facilities solutions, and provide recommendations on where to 
accept risk and how to address mitigation strategies within near-term 
(less than 2 years), mid-term (2 to 7 years) and long-term (beyond 7 
years) resourcing and capability development opportunities in response 
to the commands' requirements.
    General Ward. Combatant commanders require robust analytical and 
assessment capabilities to support our execution of national defense 
policy and guidance (e.g. Guidance for the Employment of the Force, 
QDR). Our vision and strategy, campaign and subordinate plans 
(Comprehensive Joint Assessment, Annual Command Assessment); all 
require assessment capability to ensure that near- and long-term 
operational requirements are synchronized with assigned missions and 
Theater Campaign Plans. At each level of analysis and assessment, a 
robust capability is needed to inform and guide future plans and 
execution of the strategy.
    General McNabb. The robust analytic capability provided by 
TRANSCOM's Joint Distribution Process Analysis Center (JDPAC) is a key 
enabler and is increasingly in demand by other COCOMs. We continuously 
balance our analytical resources between operational and programmatic 
support, but may require additional analysts and funding if the demand 
continues to grow.

    10. Senator McCain. Admiral Stavridis, General Renuart, General 
Ward, and General McNabb, the Beyond Goldwater-Nichols Phase II Report 
(BGN Phase II Report) recommends that DOD could utilize functional 
commands, such as Joint Forces Command (JFCOM), to provide robust 
analytical support to the geographical COCOMs to identify and assess 
each command's long-term requirements. That recommendation appears to 
be reflected, at least in part, in a recent JROC memorandum, dated June 
20, 2008, titled ``Assignment of Joint Potential Designators and 
Coordination by COCOMs on Capabilities Documents.'' Do you believe that 
the BGN Phase II Report's recommendation has merit?
    Admiral Stavridis. Yes, the recommendation has merit as it is 
certainly beneficial to have independent experts, such as the JFCOM, 
assist in assessing geographical COCOM long-term requirements. 
Functional COCOMs have much to offer geographical COCOMs; their advice, 
support, and expertise should be sought to ensure that the latter 
collaborate, combine efforts where possible, and create efficiencies. 
Furthermore, SOUTHCOM would certainly appreciate additional analytical 
support. Nevertheless, two ideas expressed in the BGN Phase II Report 
should govern any proposed changes: ``those charged with executing 
missions should set the requirements for the capabilities they need'' 
and ``the process for identifying and advocating joint capability 
requirements be restructured around the COCOMs.''
    General Renuart. Yes, the BGN Phase II Report's proposals have 
merit, paraticularly the ideas that ``those charged with executing 
missions should set the requirements for the capabilities they need,'' 
and ``the process for identifying and advocating joint capability 
requirements be restructured around the COCOMs, with Services competing 
to supply the capabilities that the COCOMs determine are necessary.''
    It's important to highlight that significant changes have occurred 
within the JCIDS process since the publishing of the July 2005 BGN 
Phase II Report. Recent changes to the March 2009 revised JCIDS 
instruction include reducing in the number of Joint Staff acquisition 
focused documents going to the JROC, streamlining capabilities-based 
assessment requirements, and determining analytical depth that produces 
``relevant but imperfect'' analysis over robust ``perfect but 
irrelevant'' analysis.
    COCOM empowerment highlights another key change as evident by JROCM 
130-08, which provides functional combatant commanders with enhanced 
COCOM authority and responsibility within the JCIDS process to 
influence capability-based, acquisition documents in four of nine 
portfolio areas (Battlespace Awareness [STRATCOM], Command and Control 
[JFCOM], Logistics [TRANSCOM], and Net-Centric [STRATCOM]).
    However, of note is that these improvements in the JCIDS process 
help with the lack of mission-focused geographical combatant commanders 
authority and responsibility. As a geographical combatant commander, I 
must champion my prioritized requirements against other geographical 
combatant commanders within the functional combatant commanders' and 
Services' oversight.
    It is important to understand and appreciate the robust analytical 
requirements demanded on Services as well as all COCOMs. Services are 
responsible for sustaining current force capabilities as well as 
developing future capabilities that are organized, trained, and 
equipped to meet the geographical and functional combatant commanders' 
requirements. Geographical combatant commanders are responsible for 
employing those existing and emergent capabilities to achieve our 
geographically-focused missions within current and near-team strategic 
and operational environments.
    General Ward. The BGN Phase II Report provides a number of 
informative and constructive recommendations for improving the advocacy 
of joint capability requirements and in providing the combatant 
commander a greater resource allocation role.
    Even so, there are several recommendations within the BGN Phase II 
report that require additional scrutiny. It may be possible that a 
functional command could identify and provide input to a geographical 
COCOM's long-term requirements, but we should examine the functional 
application of this concept to ensure it does not detract from a 
combatant commander's ability to synchronize activities and reinforce 
success. I would support a review of BGN recommendations that allows 
each COCOM its own team of analytical subject matter experts that 
understands its command's core missions while leveraging the synergy of 
a common functional approach.
    We should use caution that the use of an isolated and 
geographically separated functional entity such as JFCOM would not 
create additional seams within the geographic COCOM at the operational 
and planning levels, thus hindering our ability to synchronize near- 
and long-term operational requirements.
    General McNabb. I believe the report has merit. The TRANSCOM is 
already providing support to the geographic COCOMs in this capacity 
through its analytical contingent, the Joint Distribution Process 
Analysis Center (JDPAC). The JDPAC is a collaborative organization 
comprised of analysts from our transportation component commands and 
networked with the Services and other DOD analytical agencies. 
TRANSCOM's JDPAC is quickly becoming a center of mobility analytical 
excellence.

           relocation of cheyenne mountain operations center
    11. Senator McCain. General Renuart, in July 2006, the former 
Commander of NORTHCOM announced plans to move certain functions from 
Cheyenne Mountain, CO, to an integrated command center at nearby 
Peterson AFB. Cheyenne Mountain was built in the early 1960s to 
withstand a multimegaton-yield-weapon strike and to provide protection 
against chemical and biological warfare. In justifying the decision to 
scale down Cheyenne Mountain, DOD officials have stated that the threat 
of an intercontinental ballistic missile strike on facilities in 
Colorado in today's environment is low. As the current Commander of 
NORTHCOM and NORAD, do you still share this assessment of the 
relatively low threat against your operations center?
    General Renuart. Yes. We assess the threat to the NORAD and 
NORTHCOM Command Center at Peterson AFB from an ICBM or chemical and 
biological weapons as low. An ICBM or chemical and biological weapon 
strike against Peterson AFB would only occur as a result of a major 
nuclear confrontation, which is highly unlikely given the current geo-
political environment. Further, due to the increased size and accuracy 
of today's nuclear warheads, Cheyenne Mountain Air Force Station's 
ability to withstand a nuclear strike is less certain, as it was built 
to withstand the threat of the day, some 40+ years ago. We are 
currently in the process of designing a chemical, biological, 
radiological, and nuclear collective protection system for our Command 
Center, and have upgraded our physical security system to provide 
additional protection against a high-yield explosive threat.

    12. Senator McCain. General Renuart, how is your current command 
center at Peterson AFB protected from likely threat scenarios and what 
plans do you have in place to improve that protection?
    General Renuart. NORAD and NORTHCOM have a comprehensive security 
system protecting our Command Center. Our physical security system at 
the facility has been upgraded to include additional vehicle barriers, 
new perimeter fencing, and a vehicle searching station. We have 
converted our contract access controllers for the facility to 
Department of the Air Force Security Guards. We also have 24-7, 
dedicated 21st Space Wing Security Forces in our facility to provide 
the External and Internal Response Teams, and control access to the 
restricted areas, and Peterson AFB installed the Defense Biometric 
Identification System at their gates. We maintain integrated, 
redundant, and distributed command and control functions, hosted in a 
resilient network of facilities that enhance flexibility and 
survivability.
    Cheyenne Mountain Air Force Station continues to host, protect, and 
operate key assets securely remoted to the NORAD and NORTHCOM Command 
Center in Building 2 on Peterson AFB, CO. It further serves as our 
NORAD and NORTHCOM Alternate Command Center and a daily training 
location. We routinely train and exercise the operational relocation of 
critical mission essential functions from Building 2 back into Cheyenne 
Mountain and to other redundant mission sites. We also have plans to 
improve High-Altitude Electromagnetic Pulse and Chemical, Biological, 
Radiological, and Nuclear protection, electronic monitoring, and access 
control to our Command Center.

    13. Senator McCain. General Renuart, should Cheyenne Mountain be 
restored as your primary command center? If not, why not?
    General Renuart. [Deleted.]

  establishment of refugee camps at naval station guantanamo bay, cuba
    14. Senator McCain. Admiral Stavridis, the Secretary of the Army 
notified this committee in November 2008 of the intent to use emergency 
construction authority on your behalf to spend $18 million to install 
utility infrastructure to support a 35,000-person contingency mass 
migration complex at the Leeward North Naval Station Guantanamo Bay, 
Cuba. This notification was subsequently rescinded in January 2009 due 
to concerns raised by congressional defense committees about the 
requirement, but may be readdressed in the upcoming President's budget 
for fiscal year 2010. In light of all other issues facing you, is the 
construction of the mass migration complex still a high priority for 
you? If so, why?
    Admiral Stavridis. I appreciate the feedback from Congress on the 
authority originally selected to advance this important project and 
assure you it remains a priority.
    Under Executive Order 13276, SOUTHCOM serves as a supporting 
command to the Department of Homeland Security and operates migrant 
camps at U.S. Naval Base Guantanamo Bay (GTMO), Cuba in order to 
provide for the safety, care, custody, and transportation of migrants 
interdicted outside of the United States. Currently able to accommodate 
around 10,000 if needed, GTMO regularly houses a small number of 
migrants, a number which has increased since the beginning of the year.
    The risk of high mass migration numbers continues as a result of 
natural disasters and political or economic turmoil plague the region. 
This past year, Haiti and Cuba were devastated with the cumulative 
effects of tropical storm Fay and hurricanes Gustav, Hanna, and Ike. In 
Haiti, the heavy rains caused mass flooding, eroded roads, and wiped 
out bridges throughout the region. The destruction of cropland severely 
retarded food production and further compromised the ability of the 
poor to cope. Over 700 persons were killed and 114,000 were displaced. 
Currently 78 percent of Haitians live on less than $2 a day. In Cuba, 
hurricanes wiped out approximately 63,400 homes and damaged 
approximately 446,500. Agriculture, poultry, and tobacco industries 
were negatively affected; one-third of crops destroyed causing food 
shortages. Cuba's damage is estimated at over $10 billion U.S. dollars.
    It has been assessed that the governments of Cuba and Haiti will 
require 2-3 years to fully recover from the hurricane season of 2008. 
Another strong hurricane season coupled with the current economic 
crisis could severely affect stability in Haiti, Dominican Republic, 
and Cuba, greatly increasing the chances of a mass migration.
    Past experience shows that GTMO is under-resourced to adequately 
handle such a mass migration scenario which could easily exceed the 
requirements of the one experienced during Operation Sea Signal in 
1994, where GTMO housed some 46,000 migrants.
    The modest Leeward North request would provide waste and fresh 
water utility infrastructure to support an additional 35,000-person 
contingency mass migration. In my view this cost is prudent compared to 
the nearly $1 million per day that would be required to purchase, 
transport, and store fresh water and to rent portable facilities to 
handle human waste of this magnitude.
    As a result of discoveries during the ongoing unexploded ordnance 
clearance at GTMO, the project has to be relocated; it will remain on 
hold until a more suitable site is determined.

    15. Senator McCain. Admiral Stavridis, understanding the fact that 
we have a history of supporting refugee operations at GTMO with 
existing facilities, why is this requirement urgent?
    Admiral Stavridis. Currently able to accommodate around 10,000 if 
needed, GTMO regularly houses a small number of migrants, a number 
which has increased since the beginning of the year.
    The risk of high mass migration numbers continues as a result of 
natural disasters and political or economic turmoil plague the region. 
This past year, Haiti and Cuba were devastated with the cumulative 
effects of tropical storm Fay and hurricanes Gustav, Hanna, and Ike. In 
Haiti, the heavy rains caused mass flooding, eroded roads, and wiped 
out bridges throughout the region. The destruction of cropland severely 
retarded food production and further compromised the ability of the 
poor to cope. Over 700 persons were killed and 114,000 were displaced. 
Currently 78 percent of Haitians live on less than $2 a day. In Cuba, 
hurricanes wiped out approximately 63,400 homes and damaged 
approximately 446,500. Agriculture, poultry, and tobacco industries 
were negatively affected; one-third of crops destroyed causing food 
shortages. Cuba's damage is estimated at over $10 billion U.S. dollars.
    It has been assessed that the governments of Cuba and Haiti will 
require 2-3 years to fully recover from the hurricane season of 2008. 
Another strong hurricane season coupled with the current economic 
crisis could severely affect stability in Haiti, Dominican Republic, 
and Cuba, greatly increasing the chances of a mass migration. We need 
to act prudently but rapidly to posture ourselves to humanely provide 
for the care, custody, and safety of migrant populations at GTMO.
    The modest Leeward North request would provide waste and fresh 
water utility infrastructure to support an additional 35,000-person 
contingency mass migration. In my view this cost is prudent compared to 
the nearly $1 million per day that would be required to purchase, 
transport, and store fresh water and to rent portable facilities to 
handle human waste of this magnitude.

                   closure of manta air base, ecuador
    16. Senator McCain. Admiral Stavridis, in 1999, the U.S. Government 
signed a 10-year lease with the Government of Ecuador to allow us to 
operate counter-drug missions from Manta Air Base. The Ecuadorian 
government announced in early 2008 that it did not intend to renew the 
lease, even though the U.S. Government invested over $70 million to 
improve the airfield and pumps an estimated $6 million annually into 
the local economy. How does the loss of Manta Air Base affect U.S. 
counter-drug operations in South and Central America?
    Admiral Stavridis. SOUTHCOM is grateful for Ecuador's assistance 
and support over the last 10 years, and appreciates and commends the 
Ecuadorian Air Force for its hospitality and cooperation. Ecuador has 
fulfilled its commitment to the United States, and we look forward to 
continued cooperation with Ecuador on counterdrug efforts.
    Manta Air Base has proven to be a highly valuable asset in 
countering narcosignificant geographic advantage in accessing narcotics 
trafficking routes both south and west of the Galapagos Islands 
frequented by smuggling vessels. Without Manta we will lose the ability 
to target these specific routes. Loss of access to Manta will also 
degrade support to the Air Bridge Denial program in Colombian airspace.

    17. Senator McCain. Admiral Stavridis, what is being done to find 
other locations to compensate for the loss of Manta?
    Admiral Stavridis. Some operations currently conducted from Manta 
can be conducted from other locations where we have access to 
facilities. For example, the Air Bridge Denial program can be conducted 
from Curacao, but at higher operational cost due to increased transit 
times to the operational area in Colombia.
    Additionally, JIATF-S is able to operate law enforcement aircraft 
in support of SOUTHCOM's Detection and Monitoring (D&M) mission from 
commercial locations in partner nations that are reluctant to allow 
U.S. military air operations. Military aircraft conducting D&M missions 
will continue to operate from existing facilities in El Salvador, and 
other locations where we currently have access.
    However, it is important to identify alternate locations in order 
to maintain the operational reach needed to monitor trafficking 
corridors that extend deep into the Pacific. We are in discussions with 
other governments to allow the United States to utilize their airfields 
and support facilities. These airfields must have runways of adequate 
length, sufficient fuel available, and appropriate force protection. 
Additionally, they must be close enough to the threat vector to give 
aircraft as much on station time as possible.

    18. Senator McCain. Admiral Stavridis, will you require any 
resources or authorities in the National Defense Authorization Act 
(NDAA) for Fiscal Year 2010 to assist you in overcoming this loss?
    Admiral Stavridis. Our immediate efforts to address the loss of 
Manta will focus on increasing our intelligence capabilities and 
coordinating additional basing options for the DOD, interagency, and 
partner nation aircraft that fly in support of SOUTHCOM's D&M missions. 
As we continue to analyze the available options to offset the loss of 
Manta, we will make the committee aware of any additional resources 
that may be required in the NDAA.
    Title 10, U.S.C., section 124, provides the necessary authority to 
conduct D&M operations. No additional authorities are required to 
accomplish this DOD directed mission.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                     maintaining or retiring assets
    19. Senator Chambliss. General McNabb, you discuss the value of the 
C-130 in your written statement, and it certainly is, as you say, ``the 
workhorse supporting the warfighter in theater.'' You also mention the 
need to continue acquiring the C-130J and modernize legacy C-130s, but 
you point out the need for the Air Force to have flexibility in 
retiring and replacing aircraft that are at the end of their service 
life.
    I am all for modernizing and maintaining aircraft, and other 
equipment for that matter, that have useful service life left and that 
it makes sense to modernize. But as anyone who owns a 15-year-old car 
knows, they are more expensive to maintain, never get any cheaper, and 
are also less safe. The Services, including the Air Force, have a 
careful, analytical method for determining which platforms should be 
modernized and which should be retired. For the past several years, the 
best judgment of you and the Air Force leadership aside, Congress has 
forced you to keep C-130s that you've wanted to retire and added funds 
to the budget for maintaining them.
    I would appreciate it if you could outline what you do with those 
aircraft that you are forced to keep in your inventory, the effect it 
has on your ability to accomplish your mission, and to what extent you 
believe keeping them in the inventory and adding unrequested funds for 
this purpose is a wise use of taxpayers' dollars.
    General McNabb. Under the NDAA for Fiscal Year 2009, Congress did 
not place restrictions on C-130E retirements. However, the Air Force is 
still required to maintain 24 C-130Es (retired under the NDAA for 
Fiscal Year 2008) in a ``condition that would allow recall of that 
aircraft to future service.'' This is classified as Type 1000, or 
``inviolate,'' storage. These aircraft will require reopening, 
inspection, and new preservation actions every 4 years, at an 
approximate cost of $37,000 per aircraft, or almost $900,000 for all 24 
aircraft. Of these 24 C-130Es, 16 had flight restrictions and 2 were 
grounded due to center wing box cracks and fatigue, while the remaining 
6 aircraft were either temporarily repaired or near center wing box 
related flight restriction. The cost associated with regenerating these 
aircraft for future service is projected to be $10 million per aircraft 
for basic airworthiness repairs alone. Therefore, they do not appear to 
be good candidates for return to service. Additionally, the Type 1000 
restrictions mean the Air Force is unable to pull parts from these 
assets, nor are they available for foreign military sales.

    20. Senator Chambliss. General McNabb, do you have any thoughts in 
general about how the Services should go about making decisions whether 
to maintain or retire assets and do you think Congress should have 
confidence in the Services' recommendations in this area?
    General McNabb. The Services conduct rigorous analysis with regards 
to life cycle management of military assets, to include compliance with 
Federal acquisition regulations. As long as the Services continue to 
present solid, empirical analysis as the basis for asset management, I 
see every reason for Congress to have full confidence in their 
recommendations.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                                 mexico
    21. Senator Wicker. General Renuart, earlier this year JFCOM 
published ``Joint Operating Environment 2008.'' It referenced the 
possibility of Mexico becoming a failed state. Violence in Mexico is on 
the rise and is spilling over our border. Recent trends show that the 
cartels even acquired military grade weapons on the black market. The 
Governor of Texas has requested additional National Guard troops for 
security along the border. Furthermore, instability within Mexico 
creates the potential for a refugee crisis.
    On page 21 of your prepared testimony you discuss the situation in 
Mexico. In it you comment on how our relationship with Mexico is 
improving and you thank Congress for its support of the Merida 
Initiative. At the beginning of your testimony you state ``Homeland 
defense is the preeminent mission of NORTHCOM.'' What contingency/
operational plans does NORTHCOM have to respond to the possibility of 
Mexico as a failed state?
    General Renuart. While the collateral violence that has escalated 
between the competing drug trafficking organizations and the associated 
effects upon our border states is serious, we do not see any strategic 
indicators that the government, infrastructure, or social fabric of 
Mexico are at risk of collapse. In fact, the violence represents the 
result of the Mexican Government's laudable efforts to attack this 
ongoing source of crime and corruption. As such, NORTHCOM is not 
developing any plans for a failed state scenario; however, we have 
developed plans and operational concepts that allow us to support the 
appropriate U.S. lead agency north of the border, or support Mexican 
efforts south of the border, including, but not limited to: 
humanitarian relief, mass migration, or support to law enforcement. We 
are also currently engaged with the Department of Homeland Security as 
they address a range of potential concerns; and we continue to partner 
with the Mexican armed forces, in line with the traditional geographic 
COCOM security cooperation process, to support Mexican efforts to 
diminish violence within their borders.

    22. Senator Wicker. General Renuart, at the unclassified level, 
what resources are needed to help stabilize Mexico?
    General Renuart. Mexico is in the midst of a deliberate campaign to 
root out powerful drug cartels that have been tolerated to some extent 
in the past. Under the U.S.-Mexico understanding of a mutually shared 
responsibility for this drug war, Mexico needs our assistance to get 
this effort down to a more manageable level where they can finish off 
the job themselves. So, I believe it's incorrect to couch Mexico's 
security posture as one of ``stability'' or ``instability.''
    The drug cartels are nimble and highly adaptive in exacting their 
violence. Because of the cartels' use of increased firepower and lethal 
tactics, Mexican President Calderon has tasked his military to bear the 
brunt of the mission to defeat them. Accordingly, we have given a hard 
look at what immediate capabilities their military needs now. Working 
with our counterparts in the U.S. Embassy in Mexico City and the 
Department of State, we have identified the most urgently needed non-
lethal support that the Mexican military needs to turn the corner on 
its national campaign to defeat violent transnational drug trafficking 
networks. In the arena of short-term capabilities, this includes 
information and intelligence sharing, air platforms (fixed wing and 
rotary wing) with which to conduct surveillance, resupply, 
interdiction, and eradication operations. We have also identified a 
need for extensive upgrades, repairs, and modernization to Mexico's 
existing fleet of surveillance aircraft. It also includes a host of 
specialized tools such as night vision devices, ion scanners, tactical 
communications, non-intrusive inspection equipment, personal support 
equipment, and digital media forensics training and equipment. These 
items meet an urgent, short-term need to get a firm grip on the current 
situation.

    23. Senator Wicker. Admiral Stavridis, what impact would Mexico as 
a failed state have on the SOUTHCOM AOR? What contingency/operational 
plans does SOUTHCOM have to respond to the possibility of Mexico as a 
failed state?
    Admiral Stavridis. Though the situation in Mexico is critical, 
Mexico has fully functioning executive, legislative, and judicial 
branches and President Calderon has demonstrated he has the political 
courage to confront the cartels that threaten the region's security. 
SOUTHCOM has neither contingency nor operational plans to respond to 
Mexico as a failed state, as they are part of the NORTHCOM region.
                        broad-area surveillance
    24. Senator Wicker. Admiral Stavridis, as you are no doubt aware, 
the March 2008 edition of Seapower Magazine has a piece regarding the 
number one capability gap that exists in the SOUTHCOM region. The title 
of the piece indicates that ``Broad-area Surveillance is SOUTHCOM's 
Greatest Need.'' Clearly the SOUTHCOM region is vast with large areas 
of open ocean and lots of coastline where narco-terrorists are 
presently operating. Can you tell me the level of resources and what 
kinds of surveillance systems you have been able to apply to this 
problem over the past few years?
    Admiral Stavridis. The scope of this problem is large; SOUTHCOM's 
area of focus is nearly one-sixth of the Earth's surface. Not only are 
there large areas to cover, but the vast open ocean and extensive 
coastlines require a mix of sensors to provide the necessary coverage. 
No one sensor system can address this target adequately. SOUTHCOM has 
put considerable resources toward this issue using DOD and Interagency 
Intelligence Surveillance and Reconnaissance (ISR) assets. Although the 
Seapower article identifies ``Broad-area Surveillance'' as our greatest 
need, SOUTHCOM's top two IPL priorities are Signals Intelligence and 
Foliage Penetration collection. These are critical capabilities that 
support broad-area surveillance.
    Other specific surveillance systems applied to this problem include 
the USN Global Hawk demonstration, the USN Rampant Lion technology 
demonstration, contract B200 maritime patrol missions, available 
National Technical Means, and JIATF-S assigned air, surface, and 
subsurface assets.

    25. Senator Wicker. Admiral Stavridis, broad-area surveillance 
systems such as satellites and high flying unmanned aerial vehicles 
(UAVs) such as Global Hawk are also in short supply and their operating 
costs are relatively expensive. Are there other kinds of systems or 
other UAV systems that can give you greater, more persistent 
surveillance capability and availability at a lower cost?
    Admiral Stavridis. We are constantly pursuing potential solutions 
which promise greater persistence and capability at lower cost. Some of 
these initiatives may not live up to their potential in terms of cost 
savings and capability, but the demonstrations themselves allow us to 
test out the systems while applying additional capabilities to the 
current problem. We are currently exploring very promising systems that 
include UAVs, radar systems, and sensor systems.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                            missile defense
    26. Senator Vitter. General Renuart, I'm very glad you confirmed 
that our missile defense system is ``an effective system'' able to 
defend against a North Korea missile threat, and I strongly agree with 
you. Would you assert that any cuts to our missile defense program or 
halting or retraction of our missile defense developments send a 
message that we don't have confidence in our missile defense system 
despite your stated confidence in its ability to defend us?
    General Renuart. Our missile defense program is oriented toward 
countering the threat defined by our U.S. leadership. That threat is 
dynamic, meaning that both the defensive systems we have in place today 
and those we have planned for tomorrow will necessarily evolve as we 
adapt to maximize our defense against new threat capabilities.

    27. Senator Vitter. General Renuart, if we do cut our investment in 
missile defense, would that empower hostile nations like North Korea 
and encourage military aggression?
    General Renuart. [Deleted.]
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                             commerce guard
    28. Senator Collins. General McNabb, in September 2008, TRANSCOM 
deployed a new container security system, called Commerce Guard, that 
helps protect military container shipments moving from Afghanistan to 
Pakistan by providing an alert if a container's doors are opened. Has 
this system proven effective enough to deploy more broadly and further 
address any security vulnerabilities in the supply chain?
    General McNabb. Yes, the system has proven effective in reducing 
pilferage and enhancing security of containers in transit. Although 
Commerce Guard is no longer available due to General Electric's 
business decision to discontinue the product line, we continue to 
evaluate this and similar technologies for further applications in the 
supply chain. We used this technology only for unit move cargo into 
Operation Enduring Freedom, but we plan to mature the capability in 
other applications such as Arms, Ammunition, and Explosives cargo 
shipments and Joint Staff sponsored exercises.

    [Whereupon, at 12:50 p.m., the committee adjourned.]

</pre></body></html>
